No. __________

IN THE

Supreme Court of the United States
HEON JONG YOO, ALSO KNOWN AS HANK YOO
Petitioner
v.
UNITED STATES OF AMERICA,
Respondent

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
L. Charles van Cleef
Supreme Court Bar 227926
Van Cleef Law Office
P.O. Box 2432
Longview, Texas 75606-2432
903-248-8244
charles@vancleef.pro
COUNSEL FOR PETITIONER

I.

QUESTIONS PRESENTED
In exercising aspects of the Second Amendment right to purchase and keep

firearms, citizens are required to undertake certain steps.
A Bureau of Alcohol, Tobacco Firearms and Explosives (ATF) Form 4473 is a
form used to purchase firearms in the United States in order to identify the purchaser
and seller, and in order to facilitate a background check of the purchaser. Various
crimes may be associated with the form.
ATF Form 4473’s are used, on average, thousands of times each day across
these United States, and resolution of the following important issues associated with
crimes committed when filling out the form is, therefore, a matter of national
significance.
At the core, Mr. Yoo questions the preeminence of an ever-changing executive
agency-created form and executive agency legal interpretations that create criminal
liability for firearms transferees.
The questions presented are:

A. Are the instructions on an ATF Form 4473 evidence of a
jurisdictional fact such that the jurisdictional element of the
statutory offense found at 18 U.S.C. § 924(a)(1)(A) is
surplus, and does present tense testimony concerning the
licensure of a firearms dealer also refer to the past in order
to establish that same jurisdictional fact?

II

B. Do statutes, Courts, or the Bureau of Immigration Appeals
determine what is a “National” of the United States for
purposes of a Form 4473?
C. Do statutes, Courts, or the Bureau of Alcohol, Tobacco
Firearms and Explosives determine what information is
required to be kept by a federal firearms licensee for
purposes of 18 U.S.C. § 924(a)(1)(A)?
II.

PARTIES TO THE PROCEEDING
The parties to this case are fully named in the case caption: Mr. Heon Jong Yoo

and the United States of America. There are no co-parties in the case.

III.

CORPORATE DISCLOSURE STATEMENT
Petitioner is an individual.

III

IV.
I.

TABLE OF CONTENTS
QUESTIONS PRESENTED .............................................................................. II
A. ARE

THE

INSTRUCTIONS

ON

AN

ATF FORM 4473

EVIDENCE

OF

A

JURISDICTIONAL FACT SUCH THAT THE JURISDICTIONAL ELEMENT OF THE
STATUTORY OFFENSE FOUND AT

18 U.S.C. § 924(A)(1)(A)

IS SURPLUS, AND

DOES PRESENT TENSE TESTIMONY CONCERNING THE LICENSURE OF A FIREARMS
DEALER ALSO REFER TO THE PAST IN ORDER TO ESTABLISH THAT SAME
JURISDICTIONAL FACT? .................................................................................. II

B. DO

STATUTES,

COURTS,

DETERMINE WHAT IS A

OR

THE

BUREAU

OF

IMMIGRATION APPEALS

“NATIONAL” OF THE UNITED STATES FOR PURPOSES OF

A FORM 4473?............................................................................................... III

C. DO

STATUTES,

COURTS,

OR THE

BUREAU

OF

ALCOHOL, TOBACCO FIREARMS

AND EXPLOSIVES DETERMINE WHAT INFORMATION IS REQUIRED TO BE KEPT BY
A FEDERAL FIREARMS LICENSEE FOR PURPOSES OF

18 U.S.C. § 924(A)(1)(A)?

III
II.

PARTIES TO THE PROCEEDING .................................................................. III

III.

CORPORATE DISCLOSURE STATEMENT .................................................. III

IV.

TABLE OF CONTENTS ................................................................................... IV

V.

INDEX OF AUTHORITIES ........................................................................... VIII

VI.

PETITION FOR CERTIORARI .......................................................................... 1

VII.

OPINIONS BELOW............................................................................................ 1
A. UNITED STATES DISTRICT COURT (TRIAL).......................................... 1
IV

B. UNITED STATES COURT OF APPEALS (DIRECT APPEAL) .................. 1
VIII. JURISDICTION .................................................................................................. 2
IX.

STATUTORY AND REGULATORY PROVISIONS INVOLVED ..................... 2
A. 18 U.S.C. § 922 .............................................................................................. 2
B. 18 U.S.C. § 924 .............................................................................................. 2
C. 27 C.F.R. § 478.124 ....................................................................................... 2
D. 8 U.S.C. § 1101 .............................................................................................. 2

X.

STATEMENT OF THE CASE ............................................................................ 2

XI.

REASONS TO GRANT THE PETITION ........................................................... 5
A. ARE

THE

INSTRUCTIONS

ON

AN

ATF FORM 4473

EVIDENCE

OF

A

JURISDICTIONAL FACT SUCH THAT THE JURISDICTIONAL ELEMENT OF THE
STATUTORY OFFENSE FOUND AT

18 U.S.C. § 924(A)(1)(A)

IS SURPLUS, AND

DOES PRESENT TENSE TESTIMONY CONCERNING THE LICENSURE OF A FIREARMS
DEALER ALSO REFER TO THE PAST IN ORDER TO ESTABLISH THAT SAME
JURISDICTIONAL FACT? ................................................................................... 5

B. DO

STATUTES,

COURTS,

DETERMINE WHAT IS A

OR

THE

BUREAU

OF

IMMIGRATION APPEALS

“NATIONAL” OF THE UNITED STATES FOR PURPOSES OF

A FORM 4473?............................................................................................... 12

C. DO

STATUTES,

COURTS,

OR THE

BUREAU

OF

ALCOHOL, TOBACCO FIREARMS

AND EXPLOSIVES DETERMINE WHAT INFORMATION IS REQUIRED TO BE KEPT BY

V

A FEDERAL FIREARMS LICENSEE FOR PURPOSES OF

18 U.S.C. § 924(A)(1)(A)?

17
XII.

CONCLUSION .................................................................................................. 20

XIII. APPENDIX……………………………………………………………………...APPX 1
A. THE

OPINIONS, ORDERS, FINDINGS OF FACT, AND CONCLUSIONS OF LAW,

WHETHER WRITTEN OR ORALLY GIVEN AND TRANSCRIBED, ENTERED IN
CONJUNCTION WITH THE JUDGMENT SOUGHT TO BE REVIEWED. ..........

1)

APPX 1

Court of Appeals’ Opinion ................................................. APPX 1

B. ANY OTHER OPINIONS, ORDERS, FINDINGS OF FACT, AND CONCLUSIONS OF LAW
ENTERED IN THE CASE BY COURTS OR ADMINISTRATIVE AGENCIES, AND, IF
REFERENCE THERETO IS NECESSARY TO ASCERTAIN THE GROUNDS OF THE
JUDGMENT, OF THOSE IN COMPANION CASES (EACH DOCUMENT SHALL INCLUDE
THE CAPTION SHOWING THE NAME OF THE ISSUING COURT OR AGENCY, THE
TITLE AND NUMBER OF THE CASE, AND THE DATE OF ENTRY).

1)

............ APPX 11

None ................................................................................. APPX 11

C. ANY ORDER ON REHEARING, INCLUDING THE CAPTION SHOWING THE NAME OF
THE ISSUING COURT, THE TITLE AND NUMBER OF THE CASE, AND THE DATE OF
ENTRY. ...............................................................................................

1)

APPX 12

Order on Petition for Rehearing ..................................... APPX 12

VI

D. THE

JUDGMENT SOUGHT TO BE REVIEWED IF THE DATE OF ITS ENTRY IS

DIFFERENT FROM THE DATE OF THE OPINION OR ORDER REQUIRED IN SUB
SUBPARAGRAPH (I) OF THIS SUBPARAGRAPH. ......................................

APPX 14

1)

Court of Appeals’ Judgment ............................................ APPX 14

2)

Trial Court’s Judgment ................................................... APPX 16

E. MATERIAL REQUIRED BY SUBPARAGRAPHS 1(F) OR 1(G)(I) .................. APPX 24
1)

18 U.S.C. § 922 ................................................................ APPX 24

2)

18 U.S.C. § 924 ................................................................ APPX 42

3)

27 C.F.R. 148.124 ............................................................ APPX 50

4)

8 U.S.C. § 1011 ................................................................ APPX 54

F. ANY OTHER MATERIAL THE PETITIONER BELIEVES ESSENTIAL TO UNDERSTAND
THE PETITION.

................................................................................... APPX 74

1)

District Court Jury Instructions ..................................... APPX 77

2)

Exemplary Form 4473 (2012 version) .......................... APPX 107

3)

Exemplary Form 4473 (2016 version) .......................... APPX 114

4)

GAO Report 18-440 ....................................................... APPX 121

5)

FBI NICS Firearms Background Checks ..................... APPX 211

VII

V.

INDEX OF AUTHORITIES

CASES

Abramski v. United States, 573 U.S. 169, 134 S. Ct. 2259 (2014) ............... 8, 9, 18, 19
Beisler v. C.I.R., 814 F.2d 1304 (9th Cir. 1987).......................................................... 14
Conn. Nat'l Bank v. Germain, 503 U.S. 249, 112 S. Ct. 1146, 117 L. Ed. 2d 391
(1992) ........................................................................................................................ 14

Fernandez v. Keisler, 502 F.3d 337 (4th Cir. 2007) ................................................... 16
Fidelity Federal Sav. & Loan Assn. v. De La Cuesta, 458 U.S. 141, 73 L. Ed. 2d 664,
102 S. Ct. 3014 (1982).............................................................................................. 14

Huddleston v. United States, 415 U. S. 814 , 94 S. Ct. 1262, 39 L. Ed. 2d 782 (1974)8
In re Navas-Acosta, 23 I. & N. Dec. 586 (BIA 2003) .................................................. 16
Leocal v. Ashcroft, 543 U.S. 1, 125 S. Ct. 377, 160 L. Ed. 2d 271 (2004) .................. 15
United States v. A&P Trucking Co., 358 U.S. 121, , 79 S. Ct. 203, 3 L. Ed. 2d 165
(1958) ........................................................................................................................ 12

United States v. Abramski, 706 F.3d 307 (4th Cir. 2013), aff'd, 134 S. Ct. 2259, 189
L. Ed. 2d 262 (2014)).......................................................................................... 10, 18

United States v. Green, 544 F.2d 746 (4th Cir. 1976) ................................................ 10
United States v. Heon Jong Yoo, No. 19-40465, __ Fed. Appx. __ 2020 U.S. App.
LEXIS 17648 (June 4, 2020) ......................................................................... 1, 12, 13

United States v. Heon Jong Yoo, No. 6:18-cr-00016-RWS-KNM, 2019 U.S. Dist.
LEXIS 147635 (E.D. Tex., Mar. 7, 2019) .................................................................. 1

United States v. Home Concrete & Supply, LLC, 566 U.S. 478, 132 S. Ct. 1836
(2012) ........................................................................................................................ 16

United States v. Morin, 80 F.3d 124 (4th Cir. 1996) .................................................. 16
United States v. Pena, 541 F. App'x 453 (5th Cir. 2013) ..................................... 10, 18
United States v. Prince, 647 F.3d 1257 (10th Cir. 2011) ........................................... 10
United States v. Reid, 595 F. App'x 280, 282 (5th Cir. 2014) .............................. 10, 11
United States v. Wilson, 503 U.S. 329, 112 S. Ct. 1351 (1992).................................. 12

VIII

STATUTES
1 U.S.C. § 1................................................................................................................... 12
18 U.S.C. § 1291 ............................................................................................................. 5
18 U.S.C. § 3231 ............................................................................................................. 5
18 U.S.C. § 922 (b)(5) ............................................................................................. 18, 20
18 U.S.C. § 922(a)(6) ................................................................................................ 9, 18
18 U.S.C. § 922(g) .......................................................................................................... 4
18 U.S.C. § 922(g)(4) ...................................................................................................... 5
18 U.S.C. § 922(s)......................................................................................................... 19
18 U.S.C. § 922(s)(1)(A)(i)(I) ........................................................................................ 19
18 U.S.C. § 922(s)(3) .............................................................................................. 19, 20
18 U.S.C. § 923 ............................................................................................................. 11
18 U.S.C. § 923(g)(1)(A) ............................................................................................... 19
18 U.S.C. § 924(a)(1)(A) ....................................................................................... passim
18 U.S.C. §§ 921 ............................................................................................................. 6
28 U.S.C. § 1254(1) ........................................................................................................ 2
8 U.S.C. § 1101 ............................................................................................................. 15
8 U.S.C. § 1101(a)(22) .................................................................................................. 13
Brady Handgun Violence Prevention Act, Pub. L. No. 103-159, 107 Stat. 1536 (1993)
.................................................................................................................................... 6
Gun Control Act of 1968, Pub. L. No. 90-618, 82 Stat 1213 (1968) ............................. 6
OTHER AUTHORITIES

Government Accountability Office, (2018) “Few Individuals Denied Firearms
Purchases Are Prosecuted and ATF Should Assess Use of Warning Notices in
Lieu of Prosecutions” (GAO Publication No. 18440 Washington, D.C.: U.S.
Government Printing Office. ..................................................................................... 7
REGULATIONS
27 C.F.R. § 478.124 .................................................................................................. 7, 19
IX

28 C.F.R. § 25.3 .............................................................................................................. 6
28 C.F.R. § 25.6 .............................................................................................................. 8
28 C.F.R. § 25.7(a).......................................................................................................... 7

X

VI.

PETITION FOR CERTIORARI
Petitioner Heon Jong Yoo, an inmate currently confined in the Federal Medical

Center in Fort Worth, Texas, respectfully petitions for a Writ of Certiorari to permit
briefing in aid to review of the judgment of the United States Court of Appeals for the
Fifth Circuit.

VII.

OPINIONS BELOW
The following proceedings are directly related to this Petition:

A. UNITED STATES DISTRICT COURT (TRIAL)
Petitioner was convicted of seven violations of 18 U.S.C. § 924(a)(1)(A) and one
violation of 18 U.S.C. § 922(g) in United States v. Heon Jong Yoo, No. 6:18-cr-00016RWS-KNM, 2019 U.S. Dist. LEXIS 147635, 2019 WL 3812218 (E.D. Tex., Mar. 7,
2019), Appendix B(1) (Judgment).

B. UNITED STATES COURT OF APPEALS (DIRECT
APPEAL)
Petitioner’s conviction was overturned, in part, by the United States Court of
Appeals for the Fifth Circuit in the unreported opinion of United States v. Heon Jong

Yoo, No. 19-40465, 813 Fed. Appx. 949, 2020 U.S. App. LEXIS 17648, 2020 WL
3025444 (June 4, 2020); Appendix A(1) (Opinion).
The Court of Appeals also denied Petitioner’s Petition for Rehearing. Appendix
(C)(1) (Order).

1

VIII.

JURISDICTION
This Court has jurisdiction under 28 U.S.C. § 1254(1).
The Fifth Circuit entered its judgment on June 4, 2020 and denied rehearing

on June 30, 2020. This Petition is timely in accordance with Sup. Ct. Rule 13 as
amended by the Court’s March 19, 2020 COVID-19 Order regarding filing deadlines.

IX.

STATUTORY AND REGULATORY PROVISIONS INVOLVED
A. 18 U.S.C. § 9221
B. 18 U.S.C. § 9242
C. 27 C.F.R. § 478.1243
D. 8 U.S.C. § 11014

X.

STATEMENT OF THE CASE
Mr. Yoo is a permanent resident of the United States of America, a Citizen of

the Republic of Korea, and—during the salient interval of his life—a college student.
He represented himself at trial in the United States District Court for the Eastern
District of Texas.
While a college student, Mr. Yoo was involuntarily committed to treatment
under New Jersey's temporary, ex parte procedure twice. First, in April 2013, Mr.

1

Due to length, the entirety is included in Appendix at (E)(1), APPX 22.

2

Due to length, the entirety is included in Appendix at (E)(2), APPX 42.

3

Due to length, the entirety is included in Appendix at (E)(3), APPX 50.

4

Due to length, the entirety is included in Appendix at (E)(4), APPX 54.
2

Yoo agreed to be transported by the Rutgers University Police Department (RUPD)
to a hospital for evaluation. There, a screener, a physician, and a psychiatrist
determined that Mr. Yoo met the criteria for mental illness, was a danger to himself
or others, and should be involuntarily committed to a mental institution. Based on
their certifications, a New Jersey superior court judge found probable cause to believe
that Mr. Yoo was in need of involuntary commitment. The judge issued a "Temporary
Order for the Involuntary Commitment of an Adult," ordering that Mr. Yoo be
committed to a hospital "pending a court hearing" in approximately two weeks. Mr.
Yoo was discharged from the hospital four days before the scheduled hearing.
RUPD took Mr. Yoo to a hospital for another evaluation in September 2015.
Once again, a screener, physician, and psychiatrist determined that Yoo met the
criteria for mental illness and that he should be committed. And, once again, a New
Jersey superior court judge ordered that Mr. Yoo be temporarily committed "pending
a court hearing" 12 days later. Mr. Yoo was discharged six days before the scheduled
hearing.
A few months later, in January 2016, Mr. Yoo tried to buy a gun. But because
the National Instant Criminal Background Check System (NICS) revealed that Mr.
Yoo had been "adjudicated as mental defective/committed to a mental institution,"
his purchase was denied. The FBI explained, upon Mr. Yoo's inquiry, that he was a
"prohibited person" under one of the 10 possible categories listed in §§ 921 and 922
but did not specify which one applied.

3

Mr. Yoo kept trying (often successfully) to buy firearms from 2016-2017. Each
time, he had to fill out the Form 4473 issued by the Bureau of Alcohol, Tobacco,
Firearms, and Explosives (ATF). In response to a question on that form, Mr. Yoo
stated that he was a Citizen (or National of the United States) seven different times.
Following a trial in which he represented himself, he was found guilty of two
categories of offenses: first, seven violations (Counts 1-7) of 18 U.S.C. § 924(a)(1)(A)
and, second, a single violation of 18 U.S.C. § 922(g) (Count 8). He received sentences
of 60 months’ imprisonment for each of Counts 1-7, and 97 months’ imprisonment for
Count 8. Appendix D(2) (Judgment). All sentences were to run concurrently. Id. The
Count 8 conviction was subsequently overturned by the Court of Appeals; the former
seven violations (Count 1-7) are the subject of this Petition.
The gravamen of the offense in each of the remaining violations is that Mr. Yoo
mis-reported his country of citizenship on the ATF Form 4473 used to purchase
firearms. He identified himself as a U.S. Citizen and/or National of the United States.
On appeal, Mr. Yoo argued the jurisdictional point that there was no evidence
that the firearms licensees in question were licensed at the time of the firearms
transactions found in Counts 1-7. He also argued that, as to all Counts that he—as
a U.S. National—could identify himself as a Citizen of the United States on the Form
4473 used to variously purchase and attempt to purchase firearms. Finally, Mr. Yoo
argued that his country of citizenship is not “information required to be kept” by
firearms licensees within the meaning of 18 U.S.C. § 924(a)(1)(A).

4

The Court of Appeals correctly concluded that Mr. Yoo's temporary
hospitalization in New Jersey, based on an ex parte order, signed by a judge without
a hearing, did not constitute "commitment to a mental institution" within the
meaning of 18 U.S.C. § 922(g)(4). Accordingly, the judgment of conviction as to Count
8 was reversed. As of this writing, Mr. Yoo has not been resentenced.
The Court of Appeals also decided each of Mr. Yoo’s points concerning his seven
convictions under 18 U.S.C. § 924(a)(1)(A). First, the Court of Appeals determined
that the instructions on a Form 4473—stating that it should only be used by a
licensed firearms dealer—was evidence sufficient to establish that the firearms
dealers were licensed at the time of each transaction in order sustain convictions in
Counts 1-5. The Court of Appeals then determined that Mr. Yoo is not a “U.S.
National,” thereby affirming his convictions under Counts 6-7. And finally, the Court
of Appeals held that “information required to be kept [by a licensee, for purposes of
18 U.S.C. § 924(a)(1)(A)]” included Mr. Yoo’s nation of citizenship.
The Court of Appeals assumed jurisdiction over the appeal pursuant to 18
U.S.C. § 3231 and 18 U.S.C. § 1291, as it was an appeal from a final judgment of
conviction and sentence in the United States District Court for the Eastern District
of Texas.

XI.

REASONS TO GRANT THE PETITION
A. Are the instructions on an ATF Form 4473 evidence of a
jurisdictional fact such that the jurisdictional element of the
statutory offense found at 18 U.S.C. § 924(a)(1)(A) is
surplus, and does present tense testimony concerning the
5

licensure of a firearms dealer also refer to the past in order
to establish that same jurisdictional fact?
The Gun Control Act of 1968, Pub. L. No. 90-618, 82 Stat 1213 (1968), regulates
the manufacture and sale of firearms and ammunition. See 18 U.S.C. §§ 921-31. In
particular, it prohibits federally licensed firearms dealers from selling firearms to
certain categories of individuals, such as any person under 21 or any person convicted
of a felony. See, e.g., id. at § 922(b), (d), (g). In 1993, Congress gave greater effect to
those prohibitions by enacting the Brady Handgun Violence Prevention Act, Pub. L.
No. 103-159, 107 Stat. 1536 (1993). The “Brady Act” requires federally licensed
firearms dealers to initiate criminal background checks to determine whether state
or federal law prohibits potential purchasers from purchasing or possessing firearms
before selling to them. See id. at § 103(b). To facilitate those background checks, the
Brady Act directed the Attorney General to establish the national instant criminal
background check system (“NICS”). See id. at § 102(a). The Attorney General
delegated management of the system to the Federal Bureau of Investigations ("FBI").

See 28 C.F.R. § 25.3. Accordingly, the NICS is managed by the FBI Criminal Justice
Information Services Division's NICS Operations Center. Id.
In the first eight months of 2020—through August 31, 2020, the FBI reports
that

it

performed

25,934,334

“NICS

Firearm

Background

Checks.”

https://www.fbi.gov/file-repository/nics_firearm_checks_-_month_year.pdf. Appendix
F(5). Since 1998 when its records begin, 358,938,400 background checks have been
done. Id. In sum, an average of several thousand Form 4473’s for backgrounds checks
are executed every day in the United States.
6

The Government Accountability Office has studied cases such as these.

Government Accountability Office, (2018) “Few Individuals Denied Firearms
Purchases Are Prosecuted and ATF Should Assess Use of Warning Notices in Lieu of
Prosecutions” GAO Publication No. 18440 Washington, D.C.: U.S. Government
Printing Office. https://www.gao.gov/assets/700/694290.pdf. Appendix F(4). A very
small number of false statement cases are prosecuted every year. ATF policy provides
for warnings in lieu of prosecutions, and hand-delivered notices where aggravating
circumstances exist, such as where a “prohibited person committed a violent felony
or made multiple attempts to purchase firearms.” See Id. at 25. United States
Attorneys’ Offices “generally do not accept standard denials that only involve a
violation related to falsified information.” Id. at 34. Here, Mr. Yoo was wrongly
designated a prohibited person in light of the reversal of his conviction under 18
U.S.C. § 922. It is unlikely that Mr. Yoo would have been prosecuted at all but for
the wrongful prohibited person designation, based on the GAO’s report.
NICS background checks proceed in two stages. First, the dealer collects
information from the potential purchaser and provides some of that information to
the NICS Operations Center. See 27 C.F.R. § 478.124. The dealer obtains from each
potential purchaser a completed firearms transaction record ("Form 4473"). See id.
Form 4473 asks for certain identifying information. Id. The dealer then contacts the
NICS Operations Center and provides the purchaser's name, sex, race, date of birth,
and state of residence to initiate the background check. See 28 C.F.R. § 25.7(a). Then,
the NICS Operations Center uses the potential purchaser's information to search

7

several databases for signs that the potential purchaser is prohibited from
purchasing or possessing firearms. See id. at § 25.6. If that search produces
disqualifying information, the NICS Operations Center informs the dealer that the
transaction should be denied. Id. at (c)(1)(iv)(C). If that search produces no signs of
disqualifying information, the NICS Operations Center informs the dealer that the
transactions may proceed. Id. at (c)(1)(iv)(A).
As noted by this Court in Abramski v. United States, 573 U.S. 169, 134 S. Ct.
2259 (2014), “certain classes of people—felons, drug addicts, and the mentally ill, to
list a few—may not purchase or possess any firearm. And to ensure they do not, [18
U.S.C.] §922(d) forbids a licensed dealer from selling a gun to anyone it knows, or has
reasonable cause to believe, is such a prohibited buyer.” Abramski, 573 U.S. at 172,
134 S. Ct. at 2263 (citing Huddleston v. United States, 415 U. S. 814, 825, 94 S. Ct.
1262, 39 L. Ed. 2d 782 (1974)). The statute further insists that the dealer keep certain
records, to enable federal authorities both to enforce the law’s verification measures
and to trace firearms used in crimes. Id. (citing H. R. Rep. No. 1577, 90th Cong., 2d
Sess., 14 (1968)). A dealer must maintain the identifying information mentioned
above (i.e., name, age, and residence) in its permanent files. Abramski, 573 U.S. at
173, 134 S. Ct. at 2263 (citing 18 U.S.C. §922(b)(5)).
At trial, Petitioner argued that the government’s proposed jury instructions
omitted the critical language “information required to be kept” on the Form 4473 as
a jury finding in regard to the offenses alleged under 18 U.S.C. § 924(a)(1)(A) and
922(a)(6). ROA.19-40465.3340-3342. Citing the Abramski case, Appellant argued

8

that 18 U.S.C. § 922 (b)(5) specified what information “must be kept” and proposed a
corresponding charge for the jury. ROA.19-40465.3343. Succinctly, the issue was
whether “everything” on the Form 4473 was “required to be kept” by FFLs, or only
certain information on the Form 4473 for purposes of the indicted offenses.

Abramski was a “straw purchase” case, whereby one individual purchases a
firearm on behalf of another.
firearms for himself.

It was undisputed that Mr. Yoo was purchasing

Mr. Abramski was convicted under two statutes: 18 U.S.C. §

922(a)(6) and the statute at issue in this case, 18 U.S.C. § 924(a)(1)(A).

“That

provision is broader than §922(a)(6) in one respect: It does not require that the false
statement at issue be ‘material’ in any way. At the same time, §924(a)(1)(A) includes
an element absent from § 922(a)(6): The false statement must relate to “information
required by this chapter to be kept in [a dealer’s] records.” Abramski v. United States,
573 U.S. 169, 191, 134 S. Ct. 2259, 2274 (2014).
This Court declined to decide whether criminal liability attaches to ultra vires
questions on the Form 4473. Abramski v. United States, 573 U.S. 169, 192 n.11, 134
S. Ct. 2259, 2274 (2014). This Court considered question 11.a. of the form, which
asks,
“Are you the actual transferee/buyer of the firearm(s) listed on
this form? Warning: You are not the actual buyer if you are
acquiring the firearm(s) on behalf of another person. If you are
not the actual buyer, the dealer cannot transfer the firearm(s) to
you.”
The Court found this question to fundamental to the lawfulness of a gun sale, and
therefore not ultra vires. Id. The question was also, obviously, of critical importance
in a straw purchase, such as the one under consideration in Abramski.
9

To establish a violation of § 924(a)(1)(A), the government must
prove that: (1) the dealer was a federally licensed firearms
dealer at the time the events occurred; (2) the defendant made a
false statement or representation in a record that the licensed
firearms dealer was required by federal law to maintain; and (3)
the defendant made the false statement with knowledge of its
falsity.

United States v. Pena, 541 F. App'x 453, 455 (5th Cir. 2013) (quoting United States
v. Abramski, 706 F.3d 307, 316-17 (4th Cir. 2013), aff'd, 134 S. Ct. 2259, 189 L. Ed.
2d 262 (2014)).
The requirement that the FFL be licensed at the time the events occurred is
jurisdictional. United States v. Reid, 595 F. App'x 280, 282 (5th Cir. 2014). United

States v. Prince, 647 F.3d 1257, 1267 (10th Cir. 2011) ("§ 924(a)(1)(A)'s records
requirement is simply a jurisdictional hook. It provides authority for the United
States to criminalize false statements made to firearms dealers."); United States v.

Green, 544 F.2d 746, 747 (4th Cir. 1976) ("The fact that the dealer was licensed serves
only to establish a basis for federal jurisdiction.").
In Reid, cited above, the Fifth Circuit gave several examples of how—in the
context of an 18 U.S.C. § 924(a)(1)(A) prosecution, concerning Form 4473
statements—to Government could prove that an FFL was licensed at the time of the
transaction,
However, we have never considered a case where the
Government introduced as little evidence on the licensing
element as it did here. The Government did not produce copies
or originals of the dealers' licenses. Nor did the Government
produce a license application with an expiration date, as it did
in Snell. Nor did the Government call any employees from
Bachman Pawn or Academy Sports to testify that the dealers
were federally licensed at the time of Reid's offenses.
10

United States v. Reid, 595 F. App'x 280, 284 (5th Cir. 2014). No such evidence was
presented in Mr. Yoo’s case and it appears that the prosecution, at trial, was unaware
of this jurisdictional requirement. In its Responsive Brief at the Court of Appeals,
the Government attempted to construct a jurisdictional argument that the publiclyavailable Form 4473 itself establishes that the FFL’s were licensed at the time of the
transactions wherein it says, “[t]his form should only be used for sales of a firearm
where the seller is licensed under 18 U.S.C. § 923” (as to the version of the form used
in Counts 1-5).
As to individuals purchasing firearms, § 924(a)(1)(A) directly concerns the
Form 4473, which contains the “information required to be kept” by an FFL as to that
individual. So, in essence, the Fifth Circuit has undone the first, jurisdictional,
element of such a prosecution because, in every case, there will be a Form 4473, in
evidence. In Mr. Yoo’s case, each FFL witness testified in the present tense that it
was licensed.

The Fifth Circuit’s decision that the form itself establishes the

jurisdictional element—a decision of national consequence and one of first
impression—would render an FFL witnesses’ testimony unnecessary in most cases.
Further, as noted above, “This form should only be used for sales of a firearm
where the seller is licensed under 18 U.S.C. § 923” does not appear on the later (2016)
version of the Form 4473’s pertaining to Counts 6-7. Accordingly, as to all Counts,
the Fifth Circuit looked to the present-tense (“is,” “am,” “are”) testimony of the FFL
witnesses and found that their testimony that they were licensed at the time of trial—
or even had been licensed at some time in the past—as sufficient to establish the

11

jurisdictional element for transaction that took place years earlier. Opinion at p.4,
n.7. As a general matter, “Congress’ use of a verb tense is significant in construing
statutes.” United States v. Wilson, 503 U.S. 329, 333, 112 S. Ct. 1351 (1992). The
Dictionary Act, which is fully applicable to construing criminal statutes, see United

States v. A&P Trucking Co., 358 U.S. 121, 123, 79 S. Ct. 203, 3 L. Ed. 2d 165 & n.2,
358 U.S. 121, 79 S. Ct. 203, 3 L. Ed. 2d 165 (1958), provides that "[i]n determining
the meaning of any Act of Congress, unless the context indicates otherwise . . . words
used in the present tense include the future as well as the present." 1 U.S.C. § 1.
Finally, construing a present-tense verb as a past-tense verb defies common sense,
which is a traditional province of a jury.

B. Do statutes, Courts, or the Bureau of Immigration Appeals
determine what is a “National” of the United States for
purposes of a Form 4473?
Whether Mr. Yoo is a “National of the United States” is a significant matter
because the 2016 Form 4473’s in Counts 6-7 expressly indicate that he should check
“U.S. Citizen” if he is a National, and the specific question on the 2016 Form 4473
that he is accused of falsely answering is, according to the ATF, merely a clarification
of several former questions which asked the same thing (Counts 1-5) in a 2012 edition
of the form. The precise portion of the form is,

ATF Form 4473 (2016), Appendix (F)(3).

12

The government demonstrated that Appellant was not a Citizen of the United
States, but did not demonstrate that Appellant was not a National of the United
States, which would be necessary to demonstrate that he made a false statement by
his checkmark. After the issue of “National of the United States” (used in the
transcript interchangeably with “U.S. National”) was raised by Appellant in
questioning, the government merely established that not all Nationals of the United
States are citizens, and that Appellant was not a Citizen.
“The term 'National of the United States’ means (A) a citizen of the United
States, or (B) a person

who, though not a citizen of the United States, owes

permanent allegiance to the United States." 8 U.S.C. § 1101(a)(22). The INA is silent
as to what constitutes a "a person who . . . owes permanent allegiance to the United
States." "The term 'National of the United States' means (A) a citizen of the United
States, or (B) a person who, though not a citizen of the United States, owes permanent
allegiance to the United States." 8 U.S.C. § 1101(a)(22). As previously recognized,
"[t]he INA is silent as to what constitutes a ‘a person who…owes permanent
allegiance to the United States.’" The Fifth Circuit, agreeing with other circuits,
followed an interpretation of “owes permanent allegiance to the United States” to
mean that a defendant is a National only “by birth of completing the naturalization
process.” Opinion at 5. The general reasoning supporting that statement has been
adopted by several courts of appeals.
The Government’s extreme reliance on the Form 4473, including its
instructions and headings, fails here in the context of a Form 4473 response. The

13

statute, as well as the form, in its Counts 1-5 version, clearly distinguishes between
U.S. Citizens and Nationals; yet the definition of “owes permanent allegiance to the
United States” adopted by the Fifth Circuit (“…by completing the naturalization
process”)—which appears nowhere on the form—renders the instruction on the 2016
Form 4473 at 12.a. “Country of Citizenship” (in the image, above, and concerning
Counts 6-7), to wit, “Nationals of the United States may check U.S.A.,” entirely
surplus and renders the distinction between a National and a Citizen meaningless in
8 U.S.C. § 1101. A person who has completed the naturalization process is a citizen
of the United States of America. Accordingly, a National is something else and the
“allegiance” referred to in the statute must be something less; otherwise, Congress’
expressed words are being ignored.
This is not a small distinction. A court should interpret a statute so that every
word of the statute has meaning. "All parts of a statute, if possible, are to be given
effect." Fidelity Federal Sav. & Loan Assn. v. De La Cuesta, 458 U.S. 141, 163, 73 L.
Ed. 2d 664, 102 S. Ct. 3014 (1982) [citations omitted]. See also Beisler v. C.I.R., 814
F.2d 1304, 1307 (9th Cir. 1987) ("We should avoid an interpretation of a statute that
renders any part of it superfluous and does not give effect to all of the words used by
Congress.") [citation omitted]. The first and most important canon of statutory
construction is the presumption “that a legislature says in a statute what it means
and means in a statute what it says there.” Conn. Nat'l Bank v. Germain, 503 U.S.
249, 253-54, 112 S. Ct. 1146, 117 L. Ed. 2d 391 (1992). “When the words of a statute
are unambiguous, then, this first canon is also the last: 'judicial inquiry is complete.'"

14

Id. at 254 (quoting Rubin v. United States, 449 U.S. 424, 430, 101 S. Ct. 698, 66 L.
Ed. 2d 633 (1981)). When the statute is ambiguous, however, canons may provide
"rules of thumb that help courts determine the meaning of legislation.” Id. at 253.
The superfluity canon guides a court to infer that Congress did not intend to make
any portion of a statute superfluous, and therefore “we must give effect to every word
of a statute wherever possible.” Leocal v. Ashcroft, 543 U.S. 1, 12, 125 S. Ct. 377, 160
L. Ed. 2d 271 (2004).
Here, the statute in question is 8 U.S.C. § 1101. “The term 'National of the
United States’ means (A) a citizen of the United States, or (B) a person who, though

not a citizen of the United States, owes permanent allegiance to the United States."
8 U.S.C. § 1101(a)(22) (emphasis added). Thus, all Citizens are Nationals, but not all
Nationals are Citizens. The Government, at trial, had the burden of proving that Mr.
Yoo was not a non-citizen National at trial.

Mr. Yoo presented evidence and

argument that he was a National; the Government merely presented evidence that
he was not a Citizen, and the Court conflated the two terms.
Counts 6 and 7 occurred roughly one year later than the first five Counts,
under a slightly modified version of the Form 4473.
There is a potential split amongst the circuits concerning the definition of
“National” and Mr. Yoo falls clearly in that divide. He is a permanent resident of the
United States and testified that he took an oath in an attempt to join the military.
A "national of the United States" may also be "a person who,
though not a citizen of the United States, owes permanent
allegiance to the United States." 8 U.S.C. § 1101(a)(22). The
district court found that because Dr. Soto was a permanent
15

resident alien of the United States who had applied for United
States citizenship, he was indeed "a national of the United
States." We agree--an application for citizenship is the most
compelling evidence of permanent allegiance to the United
States short of citizenship itself.

United States v. Morin, 80 F.3d 124, 126 (4th Cir. 1996). Morin was later abrogated
in Fernandez v. Keisler, 502 F.3d 337, 343-47, 349-51 (4th Cir. 2007), but based solely
on deference to a Board of Immigration Appeals interpretation that the phrase “owes
allegiance…reflects a legal relationship between an individual and a sovereign." See

In re Navas-Acosta, 23 I. & N. Dec. 586, 588 (BIA 2003). Thus, Courts of Appeals have
generally decided that manifestations of permanent allegiance do not, by themselves,
render a person a U.S. national.
A statute's silence on a given issue does not confer gap-filling power on an
agency unless the question is in fact a gap–an ambiguity tied up with the provisions
of the statute. United States v. Home Concrete & Supply, LLC, 566 U.S. 478, 487,
132 S. Ct. 1836, 1843 (2012). The BIA’s interpretation of the unambiguous phrase
“holds permanent allegiance to the United States” has thus spawned an
interpretation that renders only those born in certain places such as American
Samoa, and between certain dates in Puerto Rico, Guam, the U.S. Virgin Islands, and
the Philippines and actual Citizens as “Nationals.” On this basis, he was convicted.
Questions 14 and 12.a. on the respective forms (concerning nationality) did not
have any further instructions within the body of the form, leaving thousands of daily
form-fillers

to

their

own

devices

to

determine

what

a

“National” is and is not. Mr. Yoo demonstrated, at a trial, that he was permanent
resident of the United States and took an oath of allegiance to the United States when
16

he attempted to join the military.

Mr., Yoo’s testimony in that regard was

unchallenged, and the Government merely established that Mr. Yoo is not a Citizen.
The Courts of Appeals have adopted an agency interpretation of the definition
of “allegiance” when the term is not ambiguous, and did so in a way that renders the
distinction between “Citizen” and “National” in 8.U.S.C. § 1011(a)(22) superfluous.
Accordingly, Mr. Yoo respectfully petitions this Court to determined whether the
term is ambiguous and, if not whether a manifest injustice was done in his
convictions.

C. Do statutes, Courts, or the Bureau of Alcohol, Tobacco
Firearms and Explosives determine what information is
required to be kept by a federal firearms licensee for
purposes of 18 U.S.C. § 924(a)(1)(A)?
As noted above, thousands of Forms 4473’s are used every day in the United
States. Unlike a previous case determined by this Court, this is not a straw purchase
case; Mr. Yoo’s transactions and attempted transactions were for his own purchases
and no one else. In light of the Fifth Circuit’s reversal of Mr. Yoo’s conviction for
possession of a firearm by a prohibited person, Mr. Yoo’s purchases and attempted
purchases of firearms would have otherwise been, in hindsight, lawful. What remains
are Mr. Yoo’s convictions under 18 U.S.C. § 924(a)(1)(A) for making false statements
of his citizenship on seven forms. Mr. Yoo has maintained throughout this criminal
case that his nationality is not “information required to be kept,” within the meaning
of his remaining offenses of conviction.
To establish a violation of § 924(a)(1)(A), the government must
prove that: (1) the dealer was a federally licensed firearms
dealer at the time the events occurred; (2) the defendant made a
17

false statement or representation in a record that the licensed
firearms dealer was required by federal law to maintain; and (3)
the defendant made the false statement with knowledge of its
falsity.
(emphasis added). United States v. Pena, 541 F. App'x 453, 455 (5th Cir. 2013)
(quoting United States v. Abramski, 706 F.3d 307, 316-17 (4th Cir. 2013), aff'd, 134
S. Ct. 2259, 189 L. Ed. 2d 262 (2014)).
At trial, Petitioner argued that the Government’s proposed jury instructions
omitted the critical language “information required to be kept” on the Form 4473 as
a jury finding in regard to the offenses alleged under 18 U.S.C. § 924(a)(1)(A) and
922(a)(6). Citing the Abramski case, Petitioner argued that 18 U.S.C. § 922 (b)(5)
specified what information “must be kept” and proposed a corresponding charge for
the jury. Succinctly, the issue was whether “everything” on the ever-changing Form
4473 was “required to be kept” by FFLs, or only certain information on the Form 4473
was “required to be kept” for purposes of the indicted offenses.

Abramski was a “straw purchase” case, whereby one individual purchases a
firearm on behalf of another.
firearms for himself.

It was undisputed that Mr. Yoo was purchasing

Mr. Abramski was convicted under two statutes: 18 U.S.C. §

922(a)(6) and the statute at issue in this case, 18 U.S.C. § 924(a)(1)(A).

“That

provision is broader than §922(a)(6) in one respect: It does not require that the false
statement at issue be “material” in any way. At the same time, §924(a)(1)(A) includes
an element absent from §922(a)(6): The false statement must relate to “information
required by this chapter to be kept in [a dealer’s] records.” Abramski v. United States,
573 U.S. 169, 191, 134 S. Ct. 2259, 2274 (2014).
18

This Court declined to decide whether criminal liability attaches to ultra vires
questions on the Form 4573. Abramski v. United States, 573 U.S. 169, 192 n.11, 134
S. Ct. 2259, 2274 (2014). This Court considered question 11.a. of the form, which
asks,
“Are you the actual transferee/buyer of the firearm(s) listed on
this form? Warning: You are not the actual buyer if you are
acquiring the firearm(s) on behalf of another person. If you are
not the actual buyer, the dealer cannot transfer the firearm(s) to
you.”
The Court found this question to be fundamental to the lawfulness of a gun sale, and
therefore not ultra vires. Id. The question was also, obviously, of critical importance
in a straw purchase, such as the one under consideration in Abramski.
The statute makes clear that the federal firearms licensee must keep records
of sales of firearms on forms that the Attorney General prescribes. See 18 U.S.C. §
923(g)(1)(A). The form is generally prescribed in 27 C.F.R. § 478.124(a)-(b) and
embodied in the Form 4473. However, the information to be gathered is specified in
18 U.S.C. § 922(b)(5) (“name, age, and place of residence of such person if the person
is an individual.”) and the scheme for what information is gathered is specified in 18
U.S.C. § 922(s). The licensed transferor (FFL licensee) may not transfer a firearm to
a non-licensed person unless the transferor has “received from the transferee a
statement of the transferee containing the information described in paragraph (3).”
18 U.S.C. § 922(s)(1)(A)(i)(I). According to 18 U.S.C. § 922(s)(3),
The statement referred to in paragraph (1)(A)(i)(I) shall contain
only—(A)the name, address, and date of birth appearing on a
valid identification document (as defined in section
1028(d)(1) [4]) of the transferee containing a photograph of the
transferee and a description of the identification used;…
19

(emphasis added). Implicit in the use of the word “transferee” is the necessity of
determining who will receive the firearm. This principle was discussed in Abramski
and the Court concluded that a question on the form, “Are you the actual
transferee/buyer of the firearm(s) listed on this form?” spoke to the very purpose of
the exercise in completing the form (to determine the true buyer’s name, age, and
place of residence and, accordingly, was fundamental to the lawfulness of the firearm
sale.
However, as noted above, the Court did not address ultra vires questions on
the Form 4473, and considered Question 11.a. to be “miles away” from the sort of

ultra vires question (favorite color) suggested by Justice Scalia in his dissent. Here,
Mr. Yoo relies on 18 U.S.C. § 922 (b)(5) and 18 U.S.C. § 922(s)(3), the latter of which
states that the information the transferor must receive is “only” that listed—the list
does not include citizenship. Under the principle of expressio unius est exclusio

alterius, there can be no other result. It would be, and is, an odd result that Congress
specified that only certain information be gathered, then for the Attorney General to
prescribe that more information—including citizenship—be gathered and require
that it be gathered in order to complete a firearms transfer, then an answer to that
question is subject of criminal liability. As Mr. Yoo has argued and argues here, this
is a violation of due process under the Fifth Amendment.

XII.

CONCLUSION
Petitioner respectfully requests that this Court grant his Petition for Writ of

Certiorari so the stated issues may be fully briefed.
20

October 20, 2020.

/s/ L. Charles van Cleef
L. Charles van Cleef
Supreme Court Bar 227926
Van Cleef Law Office
P.O. Box 2432
Longview, Texas 75606-2432
903-248-8244 Telephone
charles@vancleef.pro
COUNSEL FOR PETITIONER

21

XIII.

APPENDIX
A. The opinions, orders, findings of fact, and conclusions of
law, whether written or orally given and transcribed,
entered in conjunction with the judgment sought to be
reviewed.
1) Court of Appeals’ Opinion

APPX 001

Case: 19-40465

Document: 00515440633

Page: 1

Date Filed: 06/04/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-40465

FILED
June 4, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
HEON JONG YOO, also known as Hank Yoo,
Defendant - Appellant

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 6:18-CR-16-1
Before DAVIS, GRAVES, and DUNCAN, Circuit Judges.
PER CURIAM:*
Heon Jong Yoo was convicted on eight counts under the Gun Control Act:
seven counts of making a false statement to a federally licensed gun dealer, in
violation of 18 U.S.C. § 924(a)(1)(A), and one count of possession of a firearm
by a prohibited person, in violation of § 922(g)(4). Because the evidence was
sufficient to establish each element of § 924(a)(1)(A), we AFFIRM Yoo’s
conviction as to Counts 1-7. But because Yoo was not “committed to a mental

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

APPX 002

Case: 19-40465

Document: 00515440633

Page: 2

Date Filed: 06/04/2020

No. 19-40465
institution” within the meaning of § 922(g)(4), we REVERSE the judgment of
conviction as to Count 8.
I.

BACKGROUND

Heon Jong Yoo was involuntarily committed to treatment under New
Jersey’s temporary, ex parte procedure twice. First, in April 2013, Yoo agreed
to be transported by the Rutgers University Police Department (RUPD) to a
hospital for evaluation. There, a screener, a physician, and a psychiatrist
determined that Yoo met the criteria for mental illness, was a danger to
himself or others, and should be involuntarily committed to a mental
institution. Based on their certifications, a New Jersey superior court judge
found probable cause to believe that Yoo was in need of involuntary
commitment. The judge issued a “Temporary Order for the Involuntary
Commitment of an Adult,” ordering that Yoo be committed to a hospital
“pending a court hearing” in about two weeks. Yoo was discharged from the
hospital four days before the scheduled hearing.
RUPD took Yoo to a hospital for another evaluation in September 2015.
Once again, a screener, physician, and psychiatrist determined that Yoo met
the criteria for mental illness and that he should be committed. And, once
again, a New Jersey superior court judge ordered that Yoo be temporarily
committed “pending a court hearing” 12 days later. Yoo was discharged six
days before the scheduled hearing.
A few months later, in January 2016, Yoo tried to buy a gun. But because
the National Instant Criminal Background Check System (NICS) revealed
that Yoo had been “adjudicated as mental defective/committed to a mental
institution,” his purchase was denied. The FBI explained, upon Yoo’s inquiry,
that he was a “prohibited person” under one of the 10 possible categories listed
in §§ 921 and 922, but did not specify which one applied.
2
APPX 003

Case: 19-40465

Document: 00515440633

Page: 3

Date Filed: 06/04/2020

No. 19-40465
Yoo kept trying (often successfully) to buy firearms from 2016-2017.
Each time, he had to fill out the Form 4473 issued by the Bureau of Alcohol,
Tobacco, Firearms, and Explosives (ATF). In response to a question on that
form, Yoo stated that he was a citizen of the United States seven different
times. He correctly identified his country of citizenship as South Korea—not
the United States—twice.
Ultimately, Yoo was convicted of eight crimes under the Gun Control Act:
seven counts of making a false statement to a federally licensed firearms
dealer, in violation of § 924(a)(1)(A) (Counts 1-7), and one count of possession
of a firearm by a prohibited person, in violation of § 922(g)(4) (Count 8). Yoo
timely appeals his conviction.
II.

§ 924(a)(1)(A)

To establish a violation of § 924(a)(1)(A), the Government must prove
that: “(1) the dealer was a federally licensed firearms dealer at the time the
events occurred; (2) the defendant made a false statement or representation in
a record that the licensed firearms dealer was required by federal law to
maintain; and (3) the defendant made the false statement with knowledge of
its falsity.” 1
A.
First, Yoo argues the Government failed to establish that the gun dealers
named in Counts 1-7 were federally licensed. Because this element is
jurisdictional, 2 we must determine whether the evidence was sufficient to
establish it. 3

United States v. Pena, 541 F. App’x 453, 455 (5th Cir. 2013) (quoting United States
v. Abramski, 706 F.3d 307, 316-17 (4th Cir. 2013), aff’d 573 U.S. 169 (2014)).
2 United States v. Reid, 595 F. App’x 280, 283 (5th Cir. 2014).
3 United States v. Schultz, 17 F.3d 723, 725 (5th Cir. 1994).
1

3

APPX 004

Case: 19-40465

Document: 00515440633

Page: 4

Date Filed: 06/04/2020

No. 19-40465
The Government need not produce each dealer’s federal license. 4 For
example, we have held that an ATF agent’s testimony that he “knew that the
[dealer] was a licensed firearms dealer,” 5 and an employee’s testimony that the
dealer “had a valid license during the relevant period” 6 was enough.
Here, there was sufficient evidence that Superior Firearms, First Cash
Pawn, Academy Sports, and Cash America Pawn were federal firearms
licensees (FFLs) at the time of Yoo’s offenses. The Form 4473 used by the
dealers implicated in Counts 1-5 states on its face that “This form should only
be used for sales of a firearm where the seller is licensed under 18 U.S.C. §
923.” Moreover, the jury heard testimony from employees of each dealer about
its status as an FFL. 7
B.
Next, Yoo argues the evidence was insufficient to prove that he made a
false statement by selecting “USA” in response to the Form 4473’s “country of
citizenship” question. An October 2016 revised version of the Form 4473 states
that “Nationals of the United States” may select “USA.” Yoo argues that the
Government failed to prove he wasn’t a U.S. national.
This argument only applies to Counts 6 and 7. The dealers associated
with Counts 1-5 used the Form 4473 version revised in April 2012—and that
version did not allow U.S. nationals to identify as U.S. citizens.
United States v. Frazier, 547 F.2d 272, 273 (5th Cir. 1977).
Id.
6 United States v. Ballard, 18 F.3d 935 (5th Cir. 1994).
7 The owner of Superior Firearms testified that “[w]e are a federal firearms licensed
gun dealer,” that he has “own[ed] the FFL” for nine years, and that, “as an FFL,” Superior
Firearms is required to keep each Form 4473. The jury heard testimony that only federally
licensed dealers can submit the Form 4473 to the ATF for a background check, and the owner
of Superior Firearms testified that he “got an immediate denial from the ATF.” Employees
testified that First Cash Pawn (involved in Counts 2, 3, and 4) is an FFL. Academy Sports
employees (Count 5) also testified that it is in FFL. Likewise, employees of Cash America
Pawn (Counts 6 and 7) testified that it is an FFL and that it is required to keep each Form
4473.
4
5

4

APPX 005

Case: 19-40465

Document: 00515440633

Page: 5

Date Filed: 06/04/2020

No. 19-40465
The Government produced evidence that a U.S. national is a person “who
[was] born in the territories of the United States, specifically, American Samoa
and the Commonwealth of Northern Mariana Islands.” 8 Yoo argues now, as he
did at trial, that a definition of “national” from the Immigration and
Nationality Act should apply. Under that definition, a national is “(A) a citizen
of the United States, or (B) a person who, though not a citizen of the United
States, owes permanent allegiance to the United States.” 9
Yoo’s argument fails under either definition. In Omolo v. Gonzales, we
considered both definitions and held that “a person may become a national only
by birth or by completing the naturalization process.” 10 Yoo’s administrative
file, which was introduced into evidence, showed that he had not completed the
naturalization process. Accordingly, the evidence was sufficient for the jury to
find that Yoo was not a national of the United States.
C.
Recall that under § 924(a)(1)(A), it is a crime to make a false statement
“with respect to the information required by this chapter to be kept in the
records” of a federally licensed gun dealer. Yoo argues that an applicant’s
country of citizenship is not “information required by this chapter.” Yoo is
incorrect.
“This chapter” means chapter 44 of title 18 of the United States Code. A
statute within chapter 44 directs gun dealers to “maintain such records . . . as
the Attorney General may by regulations prescribe.” 11 “Because of that
statutory section, the information that the Attorney General’s regulations
compel a dealer to keep is information ‘required by this chapter.’” 12 One of
This definition derives from 8 U.S.C. § 1408.
8 U.S.C. § 1101(a)(22).
10 452 F.3d 404, 409 (5th Cir. 2006).
11 18 U.S.C. § 923(g)(1)(A).
12 Abramski v. United States, 573 U.S. 169, 192 (2014).
8
9

5

APPX 006

Case: 19-40465

Document: 00515440633

Page: 6

Date Filed: 06/04/2020

No. 19-40465
those regulations instructs dealers to “obtain a 4473 from the transferee
showing,” among other things, “the transferee’s country of citizenship[.]” 13
Moreover, since the regulations require that licensed dealers retain each Form
4473, “a false answer on that form . . . pertains to information a dealer is
statutorily required to maintain.” 14
For these reasons, Yoo’s convictions on Counts 1-7 of the superseding
indictment are AFFIRMED.
III.

§ 922(g)(4)

Under § 922(g)(4), it is a crime for any person “who has been adjudicated
as a mental defective or who has been committed to a mental institution” to
“possess[,] in or affecting commerce, any firearm or ammunition.” 15 Yoo argues
he was not “committed” to a mental institution as a matter of law. 16
Whether Yoo has been “committed” within the meaning of § 922(g)(4) is
a question of federal law, but courts look to state commitment law for
guidance. 17 In New Jersey, an action for commitment to treatment can be
commenced by a screening service. 18 First, a mental health screener must
determine whether the person meets the criteria for “mental illness” and
whether they pose a threat to themselves, others, or property. If the screener
finds that the person meets that standard and that there are no less restrictive
alternatives, a “screening document” is prepared. Next, a physician evaluates
the person and issues a “screening certificate” if it finds the same criteria

27 C.F.R. § 478.124(c)(1).
Abramski, 573 U.S. at 192.
15 18 U.S.C. § 922(g)(4).
16 Section 922(g)(4) does not define “committed,” but ATF regulations provide the
following guidance: “A formal commitment of a person to a mental institution by a court,
board, commission, or other lawful authority . . . The term does not include a person in a
mental institution for observation or a voluntary admission to a mental institution.” 27
C.F.R. § 478.11.
17 United States v. Giardina, 861 F.2d 1334, 1335 (5th Cir. 1988).
18 N.J. Ct. R. § 4:74-7.
13
14

6

APPX 007

Case: 19-40465

Document: 00515440633

Page: 7

Date Filed: 06/04/2020

No. 19-40465
satisfied. 19 Finally, a psychiatrist evaluates the person under the same
standard, and if she agrees, issues a “clinical certificate.”
The county adjuster presents the screening document, screening
certificate, and clinical certificate to a New Jersey superior court judge, who
“shall immediately review them in order to determine whether there is
probable cause to believe that the person is in need of involuntary commitment
to treatment.” 20 If the court finds probable cause based on those documents, “it
shall issue a temporary order authorizing the assignment of the person to an
outpatient treatment provider or the admission or retention of the person in
the custody of the facility . . . pending a final hearing.” 21
The final commitment hearing must take place within 20 days of the
order of temporary commitment. At the final hearing, each patient has the
right to be present, to be represented by counsel, to present evidence, and to
cross-examine witnesses. 22 After that hearing, the court shall enter a final
order of commitment if it finds “by clear and convincing evidence presented at
the hearing that the patient is in need of continued involuntary commitment
to treatment.” 23
Yoo went through the screening process twice. Both times, a New Jersey
superior court judge found probable cause, based on the certificates completed
by a screener, physician, and psychiatrist, to issue an order of temporary

At this point, the person may be involuntarily admitted to a psychiatric unit, where
they must be evaluated by a psychiatrist within 72 hours.
20 N.J.S.A. § 30:4-27.10(f).
21 N.J.S.A. § 30:4-27.10(g); see also N.J. Ct. R. 4:74-7(c) (“The court may enter an order
of temporary commitment to treatment . . . pending final hearing if it finds probable cause,
based on the documents filed . . . to believe that the person is in need of involuntary
commitment to treatment”).
22 N.J.S.A. § 30:4-27.14.
23 N.J. Ct. R. § 4:74-7(f)(1); see also § 4:74-7(e) (“No final order of commitment to
treatment shall be entered except upon hearing conducted in accordance with the provisions
of these rules”).
19

7

APPX 008

Case: 19-40465

Document: 00515440633

Page: 8

Date Filed: 06/04/2020

No. 19-40465
commitment. But both times, Yoo was discharged before the final commitment
hearing.
So, the question narrows to whether New Jersey’s ex parte procedure for
temporary orders of involuntary commitment constitutes “commitment to a
mental institution” under § 922(g)(4). The only federal court to consider the
issue (the District of Maine) said yes. 24 At the time, the First Circuit (where
the district court was located) had held that temporary involuntary
commitment without an adversarial hearing is “commitment” under the
statute. 25
The First Circuit overturned that line of cases in United States v.
Rehlander. 26 There, both defendants had been hospitalized under Maine’s ex
parte, emergency procedure, 27 but were never committed under Maine’s fullscale, adversarial procedure. 28 The court reasoned that, after District of
Columbia v. Heller, 29 the right to possess a firearm “is no longer something
that can be withdrawn by government on a permanent and irrevocable basis
without due process.” 30 And, in enacting § 922, “nothing suggests that
Congress had in mind temporary hospitalizations supported only by ex parte
procedures.” 31 Accordingly, the court concluded that “section 922 should not be
United States v. Miller, 366 F. Supp. 2d 128 (D. Me. 2005).
See United States v. Chamberlain, 159 F.3d 656, 665 (1st Cir. 1998); United States
v. Holt, 464 F.3d 101, 105-6 (1st Cir. 2006).
26 666 F.3d 45 (1st Cir. 2012).
27 This procedure required (1) an application by a health officer or law enforcement
officer, (2) a medical practitioner’s certificate, and (3) endorsement by a judge that the
application and certificate are “regular and in accordance with the law.” Me. Rev. Stat. tit.
34-B, § 3863.
28 The formal commitment procedure requires an adversary hearing, counsel for the
patient and an opportunity to testify and to call and cross-examine witnesses. The court must
determine whether there is clear and convincing evidence that the patient is mentally ill and
poses a likelihood of serious harm, and whether better alternative arrangements exist.
29 554 U.S. 570 (2008) (announcing an individual constitutional right to possess a
firearm).
30 Rehlander, 666 F.3d at 48.
31 Id. at 50.
24
25

8

APPX 009

Case: 19-40465

Document: 00515440633

Page: 9

Date Filed: 06/04/2020

No. 19-40465
read to encompass a temporary hospitalization attended only by [Maine’s] ex
parte procedures[.]” 32
Similarly, we held that Louisiana’s (slightly different) ex parte procedure
for temporary involuntary hospitalization did not constitute “commitment” in
United States v. Giardina. 33 At the time, Louisiana law allowed a “mentally ill
person” to be involuntarily admitted for “observation, diagnosis, and
treatment” for up to 15 days under an emergency certificate issued by a
physician. 34 A court order was required to detain the person any longer. Like
Yoo, Giardina was discharged before those 15 days were up. We concluded that
“[t]emporary, emergency detentions for treatment of mental disorders or
difficulties, which do not lead to formal commitments under state law, do not
constitute the commitment envisioned by 18 U.S.C. § 922.” 35
We conclude that Yoo’s temporary hospitalization based on an ex parte
order, signed by a judge without a hearing, does not constitute “commitment
to a mental institution” within the meaning of § 922(g)(4). 36 Accordingly, the
judgment of conviction as to Count 8 is REVERSED.
IV.

CONCLUSION

For these reasons, Yoo’s conviction as to Counts 1-7 are AFFIRMED, and
his conviction as to Count 8 is REVERSED.

Id. at 49.
861 F.2d 1334 (5th Cir. 1988).
34 Id. at 1336.
35 Id. at 1337.
36 See also United States v. McIlwain, 772 F.3d 688, 697 (11th Cir. 2014) (finding
“commitment” where defendant “received a formal hearing, was represented by an attorney,
and the state probate court heard sworn testimony and made substantive findings of fact that
it included in its formal order of commitment”); United States v. Hansel, 474 F.2d 1120, 1123
(8th Cir. 1973) (“There is nothing in [§ 922(g)(4)] which indicates an intent to prohibit the
possession of firearms by persons who had been hospitalized for observation and
examination, where they were found not to be mentally ill”).
32
33

9

APPX 010

B. Any other opinions, orders, findings of fact, and conclusions
of law entered in the case by courts or administrative
agencies, and, if reference thereto is necessary to ascertain
the grounds of the judgment, of those in companion cases
(each document shall include the caption showing the name
of the issuing court or agency, the title and number of the
case, and the date of entry).
1) None

APPX 011

C. Any order on rehearing, including the caption showing the
name of the issuing court, the title and number of the case,
and the date of entry.
1) Order on Petition for Rehearing

APPX 012

Case: 19-40465

Document: 00515471641

APPX 013

Page: 1

Date Filed: 06/30/2020

D. The judgment sought to be reviewed if the date of its entry
is different from the date of the opinion or order required in
sub subparagraph (i) of this subparagraph.
1) Court of Appeals’ Judgment

APPX 014

Case: 19-40465

Document: 00515440644

Page: 1

Date Filed: 06/04/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________________
No. 19-40465
_______________________
D.C. Docket No. 6:18-CR-16-1

United States Court of Appeals
Fifth Circuit

FILED
June 4, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
HEON JONG YOO, also known as Hank Yoo,
Defendant - Appellant
Appeal from the United States District Court for the
Eastern District of Texas
Before DAVIS, GRAVES, and DUNCAN, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on file.
It is ordered and adjudged that the judgment of the District Court is
affirmed in part and reversed in part.

APPX 015

2) Trial Court’s Judgment

APPX 016

Case 6:18-cr-00016-RWS-KNM Document 478 Filed 05/15/19 Page 1 of 7 PageID #: 4847

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS TYLER DIVISION

UNITED STATES OF AMERICA
v.
HEON JONG YOO

§
§
§
§
§
§
§

JUDGMENT IN A CRIMINAL CASE

Case Number: 6:18-CR-00016-001
USM Number: 27731-078
Pro Se (Jeff Lynn Haas, stand-by counsel)
Defendant’s Attorney

THE DEFENDANT:
☐ pleaded guilty to count(s)
pleaded guilty to count(s) before a U.S. Magistrate

☐ Judge, which was accepted by the court.

pleaded nolo contendere to count(s) which was

☐ accepted by the court
☒ was found guilty on count(s) after a plea of not guilty 1s-8s of the Superseding Indictment
The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense
18:924(a)(1)(A) False Statement With Respect To Information Required To Be Kept By Federal
Firearms Licensee
18:922(g)(4) and 924(a)(2) Possession of Firearm by Prohibited Person

Offense Ended

Count

04/06/2018

1s-7s

04/06/2018

8s

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

☐ The defendant has been found not guilty on count(s)
☒ Count(s) 1-7 of the Indictment ☐ is ☒ are dismissed on the motion of the United States
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

May 14, 2019
Date of Imposition of Judgment

Signature of Judge

ROBERT W. SCHROEDER III
UNITED STATES DISTRICT JUDGE
Name and Title of Judge

May 15, 2019
Date

19-40465.2220

APPX 017

Case 6:18-cr-00016-RWS-KNM Document 478 Filed 05/15/19 Page 2 of 7 PageID #: 4848
AO 245B (Rev. 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 2 of 7

HEON JONG YOO
6:18-CR-00016-RWS-KNM(1)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of:
97 months: 60 months on each of Counts 1 through 7 of the Superseding Indictment and 97 months as to Count 8 of the Superseding
Indictment, all to be served concurrently.

☒ The court makes the following recommendations to the Bureau of Prisons:
That the defendant receive appropriate mental health treatment while imprisoned.
That the defendant be credited for time served from April 6, 2018.
That the Bureau of Prisons designate FCI Texarkana or FCI Seagoville as the place of confinement if determined to be
appropriate and space is available.

☒ The defendant is remanded to the custody of the United States Marshal.
☐ The defendant shall surrender to the United States Marshal for this district:
☐ at

☐

☐

a.m.

p.m.

on

☐ as notified by the United States Marshal.
☐ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
☐ before 2 p.m. on
☐ as notified by the United States Marshal.
☐ as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on

at

to

, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

19-40465.2221

APPX 018

Case 6:18-cr-00016-RWS-KNM Document 478 Filed 05/15/19 Page 3 of 7 PageID #: 4849
AO 245B (Rev. 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 3 of 7

HEON JONG YOO
6:18-CR-00016-RWS-KNM(1)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: three (3) years. This term consists of
three (3) years on each count to be served concurrently.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

☐ The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
4.

☐

substance abuse. (check if applicable)
You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)
You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)

☒
6. ☐ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et
5.

seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
7.

☐ You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

19-40465.2222

APPX 019

Case 6:18-cr-00016-RWS-KNM Document 478 Filed 05/15/19 Page 4 of 7 PageID #: 4850
AO 245B (Rev. 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 4 of 7

HEON JONG YOO
6:18-CR-00016-RWS-KNM(1)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at www.txep.uscourts.gov.
Defendant’s Signature

Date

19-40465.2223

APPX 020

Case 6:18-cr-00016-RWS-KNM Document 478 Filed 05/15/19 Page 5 of 7 PageID #: 4851
AO 245B (Rev. 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 5 of 7

HEON JONG YOO
6:18-CR-00016-RWS-KNM(1)

SPECIAL CONDITIONS OF SUPERVISION
As a condition of supervised release, immediately upon release from confinement, you must be surrendered to a
duly authorized immigration official for deportation proceedings in accordance with the established procedures
provided by the Immigration and Nationality Act, 8 U.S.C. § 1101, et seq. If ordered deported, you must remain
outside of the United States. In the event you are not deported, or for any reason re-enter the country after
having been deported, you must comply with all conditions of supervised release, to include reporting to the
nearest United States Probation Office within 72 hours of release by immigration officials or re-entry into the
country.
You must provide the probation officer with access to any requested financial information for purposes of
monitoring your efforts to obtain and maintain lawful employment.
You must participate in any combination of psychiatric, psychological, or mental health treatment programs and
follow the rules and regulations of that program, until discharged. This includes taking any mental health
medication as prescribed by your treating physician. The probation officer, in consultation with the treatment
provider, will supervise your participation in the program. You must pay any cost associated with treatment and
testing.

19-40465.2224

APPX 021

Case 6:18-cr-00016-RWS-KNM Document 478 Filed 05/15/19 Page 6 of 7 PageID #: 4852
AO 245B (Rev. 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 6 of 7

HEON JONG YOO
6:18-CR-00016-RWS-KNM(1)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
JVTA Assessment*
Fine
Assessment
TOTALS
$800.00
$.00

Restitution
$.00

☐ The determination of restitution is deferred until

An Amended Judgment in a Criminal Case (AO245C) will be entered
after such determination.
☐The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.

☐ Restitution amount ordered pursuant to plea agreement $
☐ The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
☐

the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
☐ the interest requirement is waived for the
☐ fine
☐ restitution

☐ the interest requirement for the

☐ fine

☐ restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

19-40465.2225

APPX 022

Case 6:18-cr-00016-RWS-KNM Document 478 Filed 05/15/19 Page 7 of 7 PageID #: 4853
AO 245B (Rev. 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 7 of 7

HEON JONG YOO
6:18-CR-00016-RWS-KNM(1)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

☒ Lump sum payments of $ 800.00 due immediately, balance due
☐ not later than
☒ in accordance

, or

☐

C,

☐

D,

B

☐ Payment to begin immediately (may be combined with

C

☐ Payment in equal

☐

E, or

☒

F below; or

☐

C,

☐

D, or

☐

(e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence

F below); or

over a period of

(e.g., 30 or 60 days) after the date of this judgment;

or
D

☐ Payment in equal 20 (e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence
imprisonment to a term of supervision; or

over a period of

(e.g., 30 or 60 days) after release from

E

☐ Payment during the term of supervised release will commence within

F

☒ Special instructions regarding the payment of criminal monetary penalties:

(e.g., 30 or 60 days) after release
from imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that
time; or

It is ordered that the Defendant shall pay to the United States a special assessment of $800.00 for Counts 1s, 2s,
3s, 4s, 5s, 6s, 7s and 8s , which shall be due immediately. Said special assessment shall be paid to the Clerk, U.S.
District Court.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to: the Clerk, U.S. District Court. Fine & Restitution, 211 West Ferguson Street
Rm 106, Tyler, TX 75701.

The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.


☐ Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.
☐ Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant's restitution obligation.
The defendant shall pay the cost of prosecution.

☐
☐ The defendant shall pay the following court cost(s):
☒ The defendant shall forfeit the defendant’s interest in the following property to the United States:
Any and all firearms, ammunition and accessories seized from the defendant, including, but not limited to, the following:
(1) Para 1911 Expert .45 caliber pistol (Serial No. 000210NW)
(2) 458 rounds of unknown manufacturer and caliber ammunition
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

19-40465.2226

APPX 023

E. Material required by subparagraphs 1(f) or 1(g)(i)
1) 18 U.S.C. § 922

APPX 024

18 USCS § 922, Part 1 of 3
Current through Public Law 116-158, approved August 14, 2020.

United States Code Service > TITLE 18. CRIMES AND CRIMINAL PROCEDURE (§§ 1 — 6005) >
Part I. Crimes (Chs. 1 — 123) > CHAPTER 44. Firearms (§§ 921 — 931)

§ 922. Unlawful acts [Caution: See prospective amendment note below.]
(a)It shall be unlawful—
(1)for any person—
(A)except a licensed importer, licensed manufacturer, or licensed dealer, to engage in the business
of importing, manufacturing, or dealing in firearms, or in the course of such business to ship,
transport, or receive any firearm in interstate or foreign commerce; or
(B)except a licensed importer or licensed manufacturer, to engage in the business of importing or
manufacturing ammunition, or in the course of such business, to ship, transport, or receive any
ammunition in interstate or foreign commerce;
(2)for any importer, manufacturer, dealer, or collector licensed under the provisions of this chapter [18
USCS §§ 921 et seq.] to ship or transport in interstate or foreign commerce any firearm to any person
other than a licensed importer, licensed manufacturer, licensed dealer, or licensed collector, except
that—
(A)this paragraph and subsection (b)(3) shall not be held to preclude a licensed importer, licensed
manufacturer, licensed dealer, or licensed collector from returning a firearm or replacement firearm
of the same kind and type to a person from whom it was received; and this paragraph shall not be
held to preclude an individual from mailing a firearm owned in compliance with Federal, State, and
local law to a licensed importer, licensed manufacturer, licensed dealer, or licensed collector;
(B)this paragraph shall not be held to preclude a licensed importer, licensed manufacturer, or
licensed dealer from depositing a firearm for conveyance in the mails to any officer, employee,
agent, or watchman who, pursuant to the provisions of section 1715 of this title [18 USCS § 1715],
is eligible to receive through the mails pistols, revolvers, and other firearms capable of being
concealed on the person, for use in connection with his official duty; and
(C)nothing in this paragraph shall be construed as applying in any manner in the District of
Columbia, the Commonwealth of Puerto Rico, or any possession of the United States differently
than it would apply if the District of Columbia, the Commonwealth of Puerto Rico, or the possession
were in fact a State of the United States;
(3)for any person other than a licensed importer, licensed manufacturer, licensed dealer, or licensed
collector to transport into or receive in the State where he resides (or if the person is a corporation or
other business entity, the State where it maintains a place of business) any firearm purchased or
otherwise obtained by such person outside that State, except that this paragraph (A) shall not preclude
any person who lawfully acquires a firearm by bequest or intestate succession in a State other than his
State of residence from transporting the firearm into or receiving it in that State, if it is lawful for such
person to purchase or possess such firearm in that State, (B) shall not apply to the transportation or
receipt of a firearm obtained in conformity with subsection (b)(3) of this section, and (C) shall not apply
to the transportation of any firearm acquired in any State prior to the effective date of this chapter
[effective Dec. 16, 1968];

APPX 025

18 USCS § 922, Part 1 of 3
(4)for any person, other than a licensed importer, licensed manufacturer, licensed dealer, or licensed
collector, to transport in interstate or foreign commerce any destructive device, machinegun (as defined
in section 5845 of the Internal Revenue Code of 1954 [1986] [26 USCS § 5845]), short-barreled
shotgun, or short-barreled rifle, except as specifically authorized by the Attorney General consistent
with public safety and necessity;
(5)for any person (other than a licensed importer, licensed manufacturer, licensed dealer, or licensed
collector) to transfer, sell, trade, give, transport, or deliver any firearm to any person (other than a
licensed importer, licensed manufacturer, licensed dealer, or licensed collector) who the transferor
knows or has reasonable cause to believe does not reside in (or if the person is a corporation or other
business entity, does not maintain a place of business in) the State in which the transferor resides;
except that this paragraph shall not apply to (A) the transfer, transportation, or delivery of a firearm
made to carry out a bequest of a firearm to, or an acquisition by intestate succession of a firearm by, a
person who is permitted to acquire or possess a firearm under the laws of the State of his residence,
and (B) the loan or rental of a firearm to any person for temporary use for lawful sporting purposes;
(6)for any person in connection with the acquisition or attempted acquisition of any firearm or
ammunition from a licensed importer, licensed manufacturer, licensed dealer, or licensed collector,
knowingly to make any false or fictitious oral or written statement or to furnish or exhibit any false,
fictitious, or misrepresented identification, intended or likely to deceive such importer, manufacturer,
dealer, or collector with respect to any fact material to the lawfulness of the sale or other disposition of
such firearm or ammunition under the provisions of this chapter [18 USCS §§ 921 et seq.];
(7)for any person to manufacture or import armor piercing ammunition, unless—
(A)the manufacture of such ammunition is for the use of the United States, any department or
agency of the United States, any State, or any department, agency, or political subdivision of a
State;
(B)the manufacture of such ammunition is for the purpose of exportation; or
(C)the manufacture or importation of such ammunition is for the purpose of testing or
experimentation and has been authorized by the Attorney General;
(8)for any manufacturer or importer to sell or deliver armor piercing ammunition, unless such sale or
delivery—
(A)is for the use of the United States, any department or agency of the United States, any State, or
any department, agency, or political subdivision of a State;
(B)is for the purpose of exportation; or
(C)is for the purpose of testing or experimentation and has been authorized by the Attorney
General; [and]
(9)for any person, other than a licensed importer, licensed manufacturer, licensed dealer, or licensed
collector, who does not reside in any State to receive any firearms unless such receipt is for lawful
sporting purposes.
(b)It shall be unlawful for any licensed importer, licensed manufacturer, licensed dealer, or licensed collector to
sell or deliver—
(1)any firearm or ammunition to any individual who the licensee knows or has reasonable cause to
believe is less than eighteen years of age, and, if the firearm, or ammunition is other than a shotgun or
rifle, or ammunition for a shotgun or rifle, to any individual who the licensee knows or has reasonable
cause to believe is less than twenty-one years of age;
(2)any firearm to any person in any State where the purchase or possession by such person of such
firearm would be in violation of any State law or any published ordinance applicable at the place of

APPX 026

18 USCS § 922, Part 1 of 3
sale, delivery or other disposition, unless the licensee knows or has reasonable cause to believe that
the purchase or possession would not be in violation of such State law or such published ordinance;
(3)any firearm to any person who the licensee knows or has reasonable cause to believe does not
reside in (or if the person is a corporation or other business entity, does not maintain a place of
business in) the State in which the licensee’s place of business is located, except that this paragraph
(A) shall not apply to the sale or delivery of any rifle or shotgun to a resident of a State other than a
State in which the licensee’s place of business is located if the transferee meets in person with the
transferor to accomplish the transfer, and the sale, delivery, and receipt fully comply with the legal
conditions of sale in both such States (and any licensed manufacturer, importer or dealer shall be
presumed, for purposes of this subparagraph, in the absence of evidence to the contrary, to have had
actual knowledge of the State laws and published ordinances of both States), and (B) shall not apply to
the loan or rental of a firearm to any person for temporary use for lawful sporting purposes;
(4)to any person any destructive device, machinegun (as defined in section 5845 of the Internal
Revenue Code of 1954 [1986] [26 USCS § 5845]), short-barreled shotgun, or short-barreled rifle,
except as specifically authorized by the Attorney General consistent with public safety and necessity;
and
(5)any firearm or armor-piercing ammunition to any person unless the licensee notes in his records,
required to be kept pursuant to section 923 of this chapter [18 USCS § 923], the name, age, and place
of residence of such person if the person is an individual, or the identity and principal and local places
of business of such person if the person is a corporation or other business entity.
Paragraphs (1), (2), (3), and (4) of this subsection shall not apply to transactions between licensed
importers, licensed manufacturers, licensed dealers, and licensed collectors. Paragraph (4) of this
subsection shall not apply to a sale or delivery to any research organization designated by the Attorney
General.
(c)In any case not otherwise prohibited by this chapter [18 USCS §§ 921 et seq.], a licensed importer, licensed
manufacturer, or licensed dealer may sell a firearm to a person who does not appear in person at the licensee’s
business premises (other than another licensed importer, manufacturer, or dealer) only if—
(1)the transferee submits to the transferor a sworn statement in the following form:
“Subject to penalties provided by law, I swear that, in the case of any firearm other than a shotgun
or a rifle, I am twenty-one years or more of age, or that, in the case of a shotgun or a rifle, I am
eighteen years or more of age; that I am not prohibited by the provisions of chapter 44 of title 18,
United States Code [18 USCS §§ 921 et seq.], from receiving a firearm in interstate or foreign
commerce; and that my receipt of this firearm will not be in violation of any statute of the State and
published ordinance applicable to the locality in which I reside. Further, the true title, name, and
address of the principal law enforcement officer of the locality to which the firearm will be delivered
are .....................................................
Signature.................................. Date...................”
and containing blank spaces for the attachment of a true copy of any permit or other information
required pursuant to such statute or published ordinance;
(2)the transferor has, prior to the shipment or delivery of the firearm, forwarded by registered or certified
mail (return receipt requested) a copy of the sworn statement, together with a description of the firearm,
in a form prescribed by the Attorney General, to the chief law enforcement officer of the transferee’s
place of residence, and has received a return receipt evidencing delivery of the statement or has had
the statement returned due to the refusal of the named addressee to accept such letter in accordance
with United States Post Office Department [United States Postal Service] regulations; and
(3)the transferor has delayed shipment or delivery for a period of at least seven days following receipt
of the notification of the acceptance or refusal of delivery of the statement.

APPX 027

18 USCS § 922, Part 1 of 3
A copy of the sworn statement and a copy of the notification to the local law enforcement officer, together
with evidence of receipt or rejection of that notification shall be retained by the licensee as a part of the
records required to be kept under section 923(g) [18 USCS § 923(g)].
(d)It shall be unlawful for any person to sell or otherwise dispose of any firearm or ammunition to any person
knowing or having reasonable cause to believe that such person—
(1)is under indictment for, or has been convicted in any court of, a crime punishable by imprisonment
for a term exceeding one year;
(2)is a fugitive from justice;
(3)is an unlawful user of or addicted to any controlled substance (as defined in section 102 of the
Controlled Substances Act (21 U.S.C. 802));
(4)has been adjudicated as a mental defective or has been committed to any mental institution;
(5)who, being an alien—
(A)is illegally or unlawfully in the United States; or
(B)except as provided in subsection (y)(2), has been admitted to the United States under a
nonimmigrant visa (as that term is defined in section 101(a)(26) of the Immigration and Nationality
Act (8 U.S.C. 1101(a)(26)));
(6)[who] has been discharged from the Armed Forces under dishonorable conditions;
(7)who, having been a citizen of the United States, has renounced his citizenship;
(8)is subject to a court order that restrains such person from harassing, stalking, or threatening an
intimate partner of such person or child of such intimate partner or person, or engaging in other conduct
that would place an intimate partner in reasonable fear of bodily injury to the partner or child, except
that this paragraph shall only apply to a court order that—
(A)was issued after a hearing of which such person received actual notice, and at which such
person had the opportunity to participate; and
(B)
(i)includes a finding that such person represents a credible threat to the physical safety of such
intimate partner or child; or
(ii)by its terms explicitly prohibits the use, attempted use, or threatened use of physical force
against such intimate partner or child that would reasonably be expected to cause bodily injury;
or
(9)has been convicted in any court of a misdemeanor crime of domestic violence.
This subsection shall not apply with respect to the sale or disposition of a firearm or ammunition to a
licensed importer, licensed manufacturer, licensed dealer, or licensed collector who pursuant to subsection
(b) of section 925 of this chapter [18 USCS § 925] is not precluded from dealing in firearms or ammunition,
or to a person who has been granted relief from disabilities pursuant to subsection (c) of section 925 of this
chapter [18 USCS § 925].
(e)It shall be unlawful for any person knowingly to deliver or cause to be delivered to any common or contract
carrier for transportation or shipment in interstate or foreign commerce, to persons other than licensed
importers, licensed manufacturers, licensed dealers, or licensed collectors, any package or other container in
which there is any firearm or ammunition without written notice to the carrier that such firearm or ammunition is
being transported or shipped; except that any passenger who owns or legally possesses a firearm or
ammunition being transported aboard any common or contract carrier for movement with the passenger in
interstate or foreign commerce may deliver said firearm or ammunition into the custody of the pilot, captain,
conductor or operator of such common or contract carrier for the duration of the trip without violating any of the

APPX 028

18 USCS § 922, Part 1 of 3
provisions of this chapter [18 USCS §§ 921 et seq.]. No common or contract carrier shall require or cause any
label, tag, or other written notice to be placed on the outside of any package, luggage, or other container that
such package, luggage, or other container contains a firearm.
(f)
(1)It shall be unlawful for any common or contract carrier to transport or deliver in interstate or foreign
commerce any firearm or ammunition with knowledge or reasonable cause to believe that the
shipment, transportation, or receipt thereof would be in violation of the provisions of this chapter [18
USCS §§ 921 et seq.].
(2)It shall be unlawful for any common or contract carrier to deliver in interstate or foreign commerce
any firearm without obtaining written acknowledgement of receipt from the recipient of the package or
other container in which there is a firearm.
(g)It shall be unlawful for any person—
(1)who has been convicted in any court of, a crime punishable by imprisonment for a term exceeding
one year;
(2)who is a fugitive from justice;
(3)who is an unlawful user of or addicted to any controlled substance (as defined in section 102 of the
Controlled Substances Act (21 U.S.C. 802));
(4)who has been adjudicated as a mental defective or who has been committed to a mental institution;
(5)who, being an alien—
(A)is illegally or unlawfully in the United States; or
(B)except as provided in subsection (y)(2), has been admitted to the United States under a
nonimmigrant visa (as that term is defined in section 101(a)(26) of the Immigration and Nationality
Act (8 U.S.C. 1101(a)(26)));
(6)who has been discharged from the Armed Forces under dishonorable conditions;
(7)who, having been a citizen of the United States, has renounced his citizenship;
(8)who is subject to a court order that—
(A)was issued after a hearing of which such person received actual notice, and at which such
person had an opportunity to participate;
(B)restrains such person from harassing, stalking, or threatening an intimate partner of such person
or child of such intimate partner or person, or engaging in other conduct that would place an
intimate partner in reasonable fear of bodily injury to the partner or child; and
(C)
(i)includes a finding that such person represents a credible threat to the physical safety of such
intimate partner or child; or
(ii)by its terms explicitly prohibits the use, attempted use, or threatened use of physical force
against such intimate partner or child that would reasonably be expected to cause bodily injury;
or
(9)who has been convicted in any court of a misdemeanor crime of domestic violence,
to ship or transport in interstate or foreign commerce, or possess in or affecting commerce, any firearm or
ammunition; or to receive any firearm or ammunition which has been shipped or transported in interstate or
foreign commerce.

APPX 029

18 USCS § 922, Part 1 of 3
(h)It shall be unlawful for any individual, who to that individual’s knowledge and while being employed for any
person described in any paragraph of subsection (g) of this section, in the course of such employment—
(1)to receive, possess, or transport any firearm or ammunition in or affecting interstate or foreign
commerce; or
(2)to receive any firearm or ammunition which has been shipped or transported in interstate or foreign
commerce.
(i)It shall be unlawful for any person to transport or ship in interstate or foreign commerce, any stolen firearm or
stolen ammunition, knowing or having reasonable cause to believe that the firearm or ammunition was stolen.
(j)It shall be unlawful for any person to receive, possess, conceal, store, barter, sell, or dispose of any stolen
firearm or stolen ammunition, or pledge or accept as security for a loan any stolen firearm or stolen ammunition,
which is moving as, which is a part of, which constitutes, or which has been shipped or transported in, interstate
or foreign commerce, either before or after it was stolen, knowing or having reasonable cause to believe that
the firearm or ammunition was stolen.
(k)It shall be unlawful for any person knowingly to transport, ship, or receive, in interstate or foreign commerce,
any firearm which has had the importer’s or manufacturer’s serial number removed, obliterated, or altered, or to
possess or receive any firearm which has had the importer’s or manufacturer’s serial number removed,
obliterated, or altered and has, at any time, been shipped or transported in interstate or foreign commerce.
(l)Except as provided in section 925(d) of this chapter [18 USCS § 925(d)], it shall be unlawful for any person
knowingly to import or bring into the United States or any possession thereof any firearm or ammunition; and it
shall be unlawful for any person knowingly to receive any firearm or ammunition which has been imported or
brought into the United States or any possession thereof in violation of the provisions of this chapter [18 USCS
§§ 921 et seq.].
(m)It shall be unlawful for any licensed importer, licensed manufacturer, licensed dealer, or licensed collector
knowingly to make any false entry in, to fail to make appropriate entry in, or to fail to properly maintain, any
record which he is required to keep pursuant to section 923 of this chapter [18 USCS § 923] or regulations
promulgated thereunder.
(n)It shall be unlawful for any person who is under indictment for a crime punishable by imprisonment for a term
exceeding one year to ship or transport in interstate or foreign commerce any firearm or ammunition or receive
any firearm or ammunition which has been shipped or transported in interstate or foreign commerce.
(o)
(1)Except as provided in paragraph (2), it shall be unlawful for any person to transfer or possess a
machinegun.
(2)This subsection does not apply with respect to—
(A)a transfer to or by, or possession by or under the authority of, the United States or any
department or agency thereof or a State, or a department, agency, or political subdivision thereof;
or
(B)any lawful transfer or lawful possession of a machinegun that was lawfully possessed before the
date this subsection takes effect [effective May 19, 1986].
(p)
(1)It shall be unlawful for any person to manufacture, import, sell, ship, deliver, possess, transfer, or
receive any firearm—
(A)that, after removal of grips, stocks, and magazines, is not as detectable as the Security
Exemplar, by walk-through metal detectors calibrated and operated to detect the Security
Exemplar; or

APPX 030

18 USCS § 922, Part 1 of 3
(B)any major component of which, when subjected to inspection by the types of x-ray machines
commonly used at airports, does not generate an image that accurately depicts the shape of the
component. Barium sulfate or other compounds may be used in the fabrication of the component.
(2)For purposes of this subsection—
(A)the term “firearm” does not include the frame or receiver of any such weapon;
(B)the term “major component” means, with respect to a firearm, the barrel, the slide or cylinder, or
the frame or receiver of the firearm; and
(C)the term “Security Exemplar” means an object, to be fabricated at the direction of the Attorney
General, that is—
(i)constructed of, during the 12-month period beginning on the date of the enactment of this
subsection, 3.7 ounces of material type 17-4 PH stainless steel in a shape resembling a
handgun; and
(ii)suitable for testing and calibrating metal detectors:
Provided, however , That at the close of such 12-month period, and at appropriate times thereafter
the Attorney General shall promulgate regulations to permit the manufacture, importation, sale,
shipment, delivery, possession, transfer, or receipt of firearms previously prohibited under this
subparagraph that are as detectable as a “Security Exemplar” which contains 3.7 ounces of
material type 17-4 PH stainless steel, in a shape resembling a handgun, or such lesser amount as
is detectable in view of advances in state-of-the-art developments in weapons detection
technology.
(3)Under such rules and regulations as the Attorney General shall prescribe, this subsection shall not
apply to the manufacture, possession, transfer, receipt, shipment, or delivery of a firearm by a licensed
manufacturer or any person acting pursuant to a contract with a licensed manufacturer, for the purpose
of examining and testing such firearm to determine whether paragraph (1) applies to such firearm. The
Attorney General shall ensure that rules and regulations adopted pursuant to this paragraph do not
impair the manufacture of prototype firearms or the development of new technology.
(4)The Attorney General shall permit the conditional importation of a firearm by a licensed importer or
licensed manufacturer, for examination and testing to determine whether or not the unconditional
importation of such firearm would violate this subsection.
(5)This subsection shall not apply to any firearm which—
(A)has been certified by the Secretary of Defense or the Director of Central Intelligence, after
consultation with the Attorney General and the Administrator of the Federal Aviation Administration,
as necessary for military or intelligence applications; and
(B)is manufactured for and sold exclusively to military or intelligence agencies of the United States.
(6)This subsection shall not apply with respect to any firearm manufactured in, imported into, or
possessed in the United States before the date of the enactment of the Undetectable Firearms Act of
1988 [enacted Nov. 10, 1988].
(q)
(1)The Congress finds and declares that—
(A)crime, particularly crime involving drugs and guns, is a pervasive, nationwide problem;
(B)crime at the local level is exacerbated by the interstate movement of drugs, guns, and criminal
gangs;

APPX 031

18 USCS § 922, Part 1 of 3
(C)firearms and ammunition move easily in interstate commerce and have been found in increasing
numbers in and around schools, as documented in numerous hearings in both the Committee on
the Judiciary [of] the House of Representatives and the Committee on the Judiciary of the Senate;
(D)in fact, even before the sale of a firearm, the gun, its component parts, ammunition, and the raw
materials from which they are made have considerably moved in interstate commerce;
(E)while criminals freely move from State to State, ordinary citizens and foreign visitors may fear to
travel to or through certain parts of the country due to concern about violent crime and gun
violence, and parents may decline to send their children to school for the same reason;
(F)the occurrence of violent crime in school zones has resulted in a decline in the quality of
education in our country;
(G)this decline in the quality of education has an adverse impact on interstate commerce and the
foreign commerce of the United States;
(H)States, localities, and school systems find it almost impossible to handle gun-related crime by
themselves—even States, localities, and school systems that have made strong efforts to prevent,
detect, and punish gun-related crime find their efforts unavailing due in part to the failure or inability
of other States or localities to take strong measures; and
(I)the Congress has the power, under the interstate commerce clause and other provisions of the
Constitution, to enact measures to ensure the integrity and safety of the Nation’s schools by
enactment of this subsection.
(2)
(A)It shall be unlawful for any individual knowingly to possess a firearm that has moved in or that
otherwise affects interstate or foreign commerce at a place that the individual knows, or has
reasonable cause to believe, is a school zone.
(B)Subparagraph (A) does not apply to the possession of a firearm—
(i)on private property not part of school grounds;
(ii)if the individual possessing the firearm is licensed to do so by the State in which the school
zone is located or a political subdivision of the State, and the law of the State or political
subdivision requires that, before an individual obtains such a license, the law enforcement
authorities of the State or political subdivision verify that the individual is qualified under law to
receive the license;
(iii)that is—
(I)not loaded; and
(II)in a locked container, or a locked firearms rack that is on a motor vehicle;
(iv)by an individual for use in a program approved by a school in the school zone;
(v)by an individual in accordance with a contract entered into between a school in the school
zone and the individual or an employer of the individual;
(vi)by a law enforcement officer acting in his or her official capacity; or
(vii)that is unloaded and is possessed by an individual while traversing school premises for the
purpose of gaining access to public or private lands open to hunting, if the entry on school
premises is authorized by school authorities.
(3)
(A)Except as provided in subparagraph (B), it shall be unlawful for any person, knowingly or with
reckless disregard for the safety of another, to discharge or attempt to discharge a firearm that has

APPX 032

18 USCS § 922, Part 1 of 3
moved in or that otherwise affects interstate or foreign commerce at a place that the person knows
is a school zone.
(B)Subparagraph (A) does not apply to the discharge of a firearm—
(i)on private property not part of school grounds;
(ii)as part of a program approved by a school in the school zone, by an individual who is
participating in the program;
(iii)by an individual in accordance with a contract entered into between a school in a school
zone and the individual or an employer of the individual; or
(iv)by a law enforcement officer acting in his or her official capacity.
(4)Nothing in this subsection shall be construed as preempting or preventing a State or local
government from enacting a statute establishing gun free school zones as provided in this subsection.
(r)It shall be unlawful for any person to assemble from imported parts any semiautomatic rifle or any shotgun
which is identical to any rifle or shotgun prohibited from importation under section 925(d)(3) of this chapter [18
USCS § 925(d)(3)] as not being particularly suitable for or readily adaptable to sporting purposes except that
this subsection shall not apply to—
(1)the assembly of any such rifle or shotgun for sale or distribution by a licensed manufacturer to the
United States or any department or agency thereof or to any State or any department, agency, or
political subdivision thereof; or
(2)the assembly of any such rifle or shotgun for the purposes of testing or experimentation authorized
by the Attorney General.
(s)
(1)Beginning on the date that is 90 days after the date of enactment of this subsection [enacted Nov.
30, 1993] and ending on the day before the date that is 60 months after such date of enactment, it shall
be unlawful for any licensed importer, licensed manufacturer, or licensed dealer to sell, deliver, or
transfer a handgun (other than the return of a handgun to the person from whom it was received) to an
individual who is not licensed under section 923 [18 USCS § 923], unless—
(A)after the most recent proposal of such transfer by the transferee—
(i)the transferor has—
(I)received from the transferee a statement of the transferee containing the information
described in paragraph (3);
(II)verified the identity of the transferee by examining the identification document
presented;
(III)within 1 day after the transferee furnishes the statement, provided notice of the contents
of the statement to the chief law enforcement officer of the place of residence of the
transferee; and
(IV)within 1 day after the transferee furnishes the statement, transmitted a copy of the
statement to the chief law enforcement officer of the place of residence of the transferee;
and
(ii)
(I)5 business days (meaning days on which State offices are open) have elapsed from the
date the transferor furnished notice of the contents of the statement to the chief law
enforcement officer, during which period the transferor has not received information from
the chief law enforcement officer that receipt or possession of the handgun by the
transferee would be in violation of Federal, State, or local law; or

APPX 033

18 USCS § 922, Part 1 of 3
(II)the transferor has received notice from the chief law enforcement officer that the officer
has no information indicating that receipt or possession of the handgun by the transferee
would violate Federal, State, or local law;
(B)the transferee has presented to the transferor a written statement, issued by the chief law
enforcement officer of the place of residence of the transferee during the 10-day period ending on
the date of the most recent proposal of such transfer by the transferee, stating that the transferee
requires access to a handgun because of a threat to the life of the transferee or of any member of
the household of the transferee;
(C)
(i)the transferee has presented to the transferor a permit that—
(I)allows the transferee to possess or acquire a handgun; and
(II)was issued not more than 5 years earlier by the State in which the transfer is to take
place; and
(ii)the law of the State provides that such a permit is to be issued only after an authorized
government official has verified that the information available to such official does not indicate
that possession of a handgun by the transferee would be in violation of the law;
(D)the law of the State requires that, before any licensed importer, licensed manufacturer, or
licensed dealer completes the transfer of a handgun to an individual who is not licensed under
section 923 [18 USCS § 923], an authorized government official verify that the information available
to such official does not indicate that possession of a handgun by the transferee would be in
violation of law;
(E)the Attorney General has approved the transfer under section 5812 of the Internal Revenue
Code of 1986 [26 USCS § 5812]; or
(F)on application of the transferor, the Attorney General has certified that compliance with
subparagraph (A)(i)(III) is impracticable because—
(i)the ratio of the number of law enforcement officers of the State in which the transfer is to
occur to the number of square miles of land area of the State does not exceed 0.0025;
(ii)the business premises of the transferor at which the transfer is to occur are extremely
remote in relation to the chief law enforcement officer; and
(iii)there is an absence of telecommunications facilities in the geographical area in which the
business premises are located.
(2)A chief law enforcement officer to whom a transferor has provided notice pursuant to paragraph
(1)(A)(i)(III) shall make a reasonable effort to ascertain within 5 business days whether receipt or
possession would be in violation of the law, including research in whatever State and local
recordkeeping systems are available and in a national system designated by the Attorney General.
(3)The statement referred to in paragraph (1)(A)(i)(I) shall contain only—
(A)the name, address, and date of birth appearing on a valid identification document (as defined in
section 1028(d)(1) [18 USCS § 1028(d)(1)]) of the transferee containing a photograph of the
transferee and a description of the identification used;
(B)a statement that the transferee—
(i)is not under indictment for, and has not been convicted in any court of, a crime punishable by
imprisonment for a term exceeding 1 year, and has not been convicted in any court of a
misdemeanor crime of domestic violence;
(ii)is not a fugitive from justice;

APPX 034

18 USCS § 922, Part 1 of 3
(iii)is not an unlawful user of or addicted to any controlled substance (as defined in section 102
of the Controlled Substances Act [21 USCS § 802]);
(iv)has not been adjudicated as a mental defective or been committed to a mental institution;
(v)is not an alien who—
(I)is illegally or unlawfully in the United States; or
(II)subject to subsection (y)(2), has been admitted to the United States under a
nonimmigrant visa (as that term is defined in section 101(a)(26) of the Immigration and
Nationality Act (8 U.S.C. 1101(a)(26)));
(vi)has not been discharged from the Armed Forces under dishonorable conditions; and
(vii)is not a person who, having been a citizen of the United States, has renounced such
citizenship;
(C)the date the statement is made; and
(D)notice that the transferee intends to obtain a handgun from the transferor.
(4)Any transferor of a handgun who, after such transfer, receives a report from a chief law enforcement
officer containing information that receipt or possession of the handgun by the transferee violates
Federal, State, or local law shall, within 1 business day after receipt of such request, communicate any
information related to the transfer that the transferor has about the transfer and the transferee to—
(A)the chief law enforcement officer of the place of business of the transferor; and
(B)the chief law enforcement officer of the place of residence of the transferee.
(5)Any transferor who receives information, not otherwise available to the public, in a report under this
subsection shall not disclose such information except to the transferee, to law enforcement authorities,
or pursuant to the direction of a court of law.
(6)
(A)Any transferor who sells, delivers, or otherwise transfers a handgun to a transferee shall retain
the copy of the statement of the transferee with respect to the handgun transaction, and shall retain
evidence that the transferor has complied with subclauses (III) and (IV) of paragraph (1)(A)(i) with
respect to the statement.
(B)Unless the chief law enforcement officer to whom a statement is transmitted under paragraph
(1)(A)(i)(IV) determines that a transaction would violate Federal, State, or local law—
(i)the officer shall, within 20 business days after the date the transferee made the statement on
the basis of which the notice was provided, destroy the statement, any record containing
information derived from the statement, and any record created as a result of the notice
required by paragraph (1)(A)(i)(III);
(ii)the information contained in the statement shall not be conveyed to any person except a
person who has a need to know in order to carry out this subsection; and
(iii)the information contained in the statement shall not be used for any purpose other than to
carry out this subsection.
(C)If a chief law enforcement officer determines that an individual is ineligible to receive a handgun
and the individual requests the officer to provide the reason for such determination, the officer shall
provide such reasons to the individual in writing within 20 business days after receipt of the
request.
(7)A chief law enforcement officer or other person responsible for providing criminal history background
information pursuant to this subsection shall not be liable in an action at law for damages—

APPX 035

18 USCS § 922, Part 1 of 3
(A)for failure to prevent the sale or transfer of a handgun to a person whose receipt or possession
of the handgun is unlawful under this section; or
(B)for preventing such a sale or transfer to a person who may lawfully receive or possess a
handgun.
(8)For purposes of this subsection, the term “chief law enforcement officer” means the chief of police,
the sheriff, or an equivalent officer or the designee of any such individual.
(9)The Attorney General shall take necessary actions to ensure that the provisions of this subsection
are published and disseminated to licensed dealers, law enforcement officials, and the public.
(t)
(1)Beginning on the date that is 30 days after the Attorney General notifies licensees under section
103(d) of the Brady Handgun Violence Prevention Act [note to this section] that the national instant
criminal background check system is established, a licensed importer, licensed manufacturer, or
licensed dealer shall not transfer a firearm to any other person who is not licensed under this chapter
[18 USCS §§ 921 et seq.], unless—
(A)before the completion of the transfer, the licensee contacts the national instant criminal
background check system established under section 103 of that Act [note to this section];
(B)
(i)the system provides the licensee with a unique identification number; or
(ii)3 business days (meaning a day on which State offices are open) have elapsed since the
licensee contacted the system, and the system has not notified the licensee that the receipt of
a firearm by such other person would violate subsection (g) or (n) of this section; and
(C)the transferor has verified the identity of the transferee by examining a valid identification
document (as defined in section 1028(d) of this title [18 USCS § 1028(d)]) of the transferee
containing a photograph of the transferee.
(2)If receipt of a firearm would not violate section 922 (g) or (n) [18 USCS § 922(g) or (n)] or State law,
the system shall—
(A)assign a unique identification number to the transfer;
(B)provide the licensee with the number; and
(C)destroy all records of the system with respect to the call (other than the identifying number and
the date the number was assigned) and all records of the system relating to the person or the
transfer.
(3)Paragraph (1) shall not apply to a firearm transfer between a licensee and another person if—
(A)
(i)such other person has presented to the licensee a permit that—
(I)allows such other person to possess or acquire a firearm; and
(II)was issued not more than 5 years earlier by the State in which the transfer is to take
place; and
(ii)the law of the State provides that such a permit is to be issued only after an authorized
government official has verified that the information available to such official does not indicate
that possession of a firearm by such other person would be in violation of law;
(B)the Attorney General has approved the transfer under section 5812 of the Internal Revenue
Code of 1986 [26 USCS § 5812]; or

APPX 036

18 USCS § 922, Part 1 of 3
(C)on application of the transferor, the Attorney General has certified that compliance with
paragraph (1)(A) is impracticable because—
(i)the ratio of the number of law enforcement officers of the State in which the transfer is to
occur to the number of square miles of land area of the State does not exceed 0.0025;
(ii)the business premises of the licensee at which the transfer is to occur are extremely remote
in relation to the chief law enforcement officer (as defined in subsection (s)(8)); and
(iii)there is an absence of telecommunications facilities in the geographical area in which the
business premises are located.
(4)If the national instant criminal background check system notifies the licensee that the information
available to the system does not demonstrate that the receipt of a firearm by such other person would
violate subsection (g) or (n) or State law, and the licensee transfers a firearm to such other person, the
licensee shall include in the record of the transfer the unique identification number provided by the
system with respect to the transfer.
(5)If the licensee knowingly transfers a firearm to such other person and knowingly fails to comply with
paragraph (1) of this subsection with respect to the transfer and, at the time such other person most
recently proposed the transfer, the national instant criminal background check system was operating
and information was available to the system demonstrating that receipt of a firearm by such other
person would violate subsection (g) or (n) of this section or State law, the Attorney General may, after
notice and opportunity for a hearing, suspend for not more than 6 months or revoke any license issued
to the licensee under section 923 [18 USCS § 923], and may impose on the licensee a civil fine of not
more than $5,000.
(6)Neither a local government nor an employee of the Federal Government or of any State or local
government, responsible for providing information to the national instant criminal background check
system shall be liable in an action at law for damages—
(A)for failure to prevent the sale or transfer of a firearm to a person whose receipt or possession of
the firearm is unlawful under this section; or
(B)for preventing such a sale or transfer to a person who may lawfully receive or possess a firearm.
(u)It shall be unlawful for a person to steal or unlawfully take or carry away from the person or the premises of a
person who is licensed to engage in the business of importing, manufacturing, or dealing in firearms, any
firearm in the licensee’s business inventory that has been shipped or transported in interstate or foreign
commerce.
(v), (w)[Repealed]
(x)
(1)It shall be unlawful for a person to sell, deliver, or otherwise transfer to a person who the transferor
knows or has reasonable cause to believe is a juvenile—
(A)a handgun; or
(B)ammunition that is suitable for use only in a handgun.
(2)It shall be unlawful for any person who is a juvenile to knowingly possess—
(A)a handgun; or
(B)ammunition that is suitable for use only in a handgun.
(3)This subsection does not apply to—
(A)a temporary transfer of a handgun or ammunition to a juvenile or to the possession or use of a
handgun or ammunition by a juvenile if the handgun and ammunition are possessed and used by
the juvenile—

APPX 037

18 USCS § 922, Part 1 of 3
(i)in the course of employment, in the course of ranching or farming related to activities at the
residence of the juvenile (or on property used for ranching or farming at which the juvenile, with
the permission of the property owner or lessee, is performing activities related to the operation
of the farm or ranch), target practice, hunting, or a course of instruction in the safe and lawful
use of a handgun;
(ii)with the prior written consent of the juvenile’s parent or guardian who is not prohibited by
Federal, State, or local law from possessing a firearm, except—
(I)during transportation by the juvenile of an unloaded handgun in a locked container
directly from the place of transfer to a place at which an activity described in clause (i) is to
take place and transportation by the juvenile of that handgun, unloaded and in a locked
container, directly from the place at which such an activity took place to the transferor; or
(II)with respect to ranching or farming activities as described in clause (i), a juvenile may
possess and use a handgun or ammunition with the prior written approval of the juvenile’s
parent or legal guardian and at the direction of an adult who is not prohibited by Federal,
State or local law from possessing a firearm;
(iii)the juvenile has the prior written consent in the juvenile’s possession at all times when a
handgun is in the possession of the juvenile; and
(iv)in accordance with State and local law;
(B)a juvenile who is a member of the Armed Forces of the United States or the National Guard who
possesses or is armed with a handgun in the line of duty;
(C)a transfer by inheritance of title (but not possession) of a handgun or ammunition to a juvenile;
or
(D)the possession of a handgun or ammunition by a juvenile taken in defense of the juvenile or
other persons against an intruder into the residence of the juvenile or a residence in which the
juvenile is an invited guest.
(4)A handgun or ammunition, the possession of which is transferred to a juvenile in circumstances in
which the transferor is not in violation of this subsection shall not be subject to permanent confiscation
by the Government if its possession by the juvenile subsequently becomes unlawful because of the
conduct of the juvenile, but shall be returned to the lawful owner when such handgun or ammunition is
no longer required by the Government for the purposes of investigation or prosecution.
(5)For purposes of this subsection, the term “juvenile” means a person who is less than 18 years of
age.
(6)
(A)In a prosecution of a violation of this subsection, the court shall require the presence of a
juvenile defendant’s parent or legal guardian at all proceedings.
(B)The court may use the contempt power to enforce subparagraph (A).
(C)The court may excuse attendance of a parent or legal guardian of a juvenile defendant at a
proceeding in a prosecution of a violation of this subsection for good cause shown.
(y) Provisions relating to aliens admitted under nonimmigrant visas.
(1)Definitions. In this subsection—
(A)the term “alien” has the same meaning as in section 101(a)(3) of the Immigration and Nationality
Act (8 U.S.C. 1101(a)(3)); and
(B)the term “nonimmigrant visa” has the same meaning as in section 101(a)(26) of the Immigration
and Nationality Act (8 U.S.C. 1101(a)(26)).

APPX 038

18 USCS § 922, Part 1 of 3
(2)Exceptions. Subsections (d)(5)(B), (g)(5)(B), and (s)(3)(B)(v)(II) do not apply to any alien who has
been lawfully admitted to the United States under a nonimmigrant visa, if that alien is—
(A)admitted to the United States for lawful hunting or sporting purposes or is in possession of a
hunting license or permit lawfully issued in the United States;
(B)an official representative of a foreign government who is—
(i)accredited to the United States Government or the Government’s mission to an international
organization having its headquarters in the United States; or
(ii)en route to or from another country to which that alien is accredited;
(C)an official of a foreign government or a distinguished foreign visitor who has been so designated
by the Department of State; or
(D)a foreign law enforcement officer of a friendly foreign government entering the United States on
official law enforcement business.
(3)Waiver.
(A)Conditions for waiver. Any individual who has been admitted to the United States under a
nonimmigrant visa may receive a waiver from the requirements of subsection (g)(5), if—
(i)the individual submits to the Attorney General a petition that meets the requirements of
subparagraph (C); and
(ii)the Attorney General approves the petition.
(B)Petition. Each petition under subparagraph (B) shall—
(i)demonstrate that the petitioner has resided in the United States for a continuous period of not
less than 180 days before the date on which the petition is submitted under this paragraph; and
(ii)include a written statement from the embassy or consulate of the petitioner, authorizing the
petitioner to acquire a firearm or ammunition and certifying that the alien would not, absent the
application of subsection (g)(5)(B), otherwise be prohibited from such acquisition under
subsection (g).
(C)Approval of petition. The Attorney General shall approve a petition submitted in accordance with
this paragraph, if the Attorney General determines that waiving the requirements of subsection
(g)(5)(B) with respect to the petitioner—
(i)would be in the interests of justice; and
(ii)would not jeopardize the public safety.
(z) Secure gun storage or safety device.
(1)In general. Except as provided under paragraph (2), it shall be unlawful for any licensed importer,
licensed manufacturer, or licensed dealer to sell, deliver, or transfer any handgun to any person other
than any person licensed under this chapter [18 USCS §§ 921 et seq.], unless the transferee is
provided with a secure gun storage or safety device (as defined in section 921(a)(34) [18 USCS §
921(a)(34)]) for that handgun.
(2)Exceptions. Paragraph (1) shall not apply to—
(A)
(i)the manufacture for, transfer to, or possession by, the United States, a department or agency
of the United States, a State, or a department, agency, or political subdivision of a State, of a
handgun; or

APPX 039

18 USCS § 922, Part 1 of 3
(ii)the transfer to, or possession by, a law enforcement officer employed by an entity referred to
in clause (i) of a handgun for law enforcement purposes (whether on or off duty); or
(B)the transfer to, or possession by, a rail police officer directly employed by or contracted by a rail
carrier and certified or commissioned as a police officer under the laws of a State of a handgun for
purposes of law enforcement (whether on or off duty);
(C)the transfer to any person of a handgun listed as a curio or relic by the Secretary pursuant to
section 921(a)(13) [18 USCS § 921(a)(13)]; or
(D)the transfer to any person of a handgun for which a secure gun storage or safety device is
temporarily unavailable for the reasons described in the exceptions stated in section 923(e) [18
USCS § 923(e)], if the licensed manufacturer, licensed importer, or licensed dealer delivers to the
transferee within 10 calendar days from the date of the delivery of the handgun to the transferee a
secure gun storage or safety device for the handgun.
(3)Liability for use.
(A)In general. Notwithstanding any other provision of law, a person who has lawful possession and
control of a handgun, and who uses a secure gun storage or safety device with the handgun, shall
be entitled to immunity from a qualified civil liability action.
(B)Prospective actions. A qualified civil liability action may not be brought in any Federal or State
court.
(C)Defined term. As used in this paragraph, the term “qualified civil liability action”—
(i)means a civil action brought by any person against a person described in subparagraph (A)
for damages resulting from the criminal or unlawful misuse of the handgun by a third party, if—
(I)the handgun was accessed by another person who did not have the permission or
authorization of the person having lawful possession and control of the handgun to have
access to it; and
(II)at the time access was gained by the person not so authorized, the handgun had been
made inoperable by use of a secure gun storage or safety device; and
(ii)shall not include an action brought against the person having lawful possession and control
of the handgun for negligent entrustment or negligence per se.
[Appendix A repealed]

History

HISTORY:
Added June 19, 1968, P. L. 90-351, Title IV, § 902, 82 Stat. 228; Oct. 22, 1968, P. L. 90-618, Title I, § 102, 82 Stat.
1216; Dec. 21, 1982, P. L. 97-377, Title I, § 165(a), 96 Stat. 1923; May 19, 1986, P. L. 99-308, § 102, 100 Stat.
451; Aug. 28, 1986, P. L. 99-408, § 2, 100 Stat. 920; Nov. 11, 1988, P. L. 100-649, § 2(a), 102 Stat. 3816; Nov. 18,
1988, P. L. 100-690, Title VII, Subtitle B, § 7060(c), 102 Stat. 4404; Nov. 29, 1990, P. L. 101-647, Title XVII, §
1702(b)(1), Title XXII, §§ 2201, 2202, 2204(b), Title XXXV, § 3524 104 Stat. 4844, 4856, 4857, 4924; Nov. 30,
1993, P. L. 103-159, Title I, § 102(a)(1), (b), Title III, § 302(a)–(c), 107 Stat. 1536, 1539, 1545; Sept. 13, 1994, P. L.
103-322, Title XI, Subtitle A, §§ 110102(a), 110103(a), 110106, Subtitle B, § 110201(a), Subtitle D, § 110401(b),
(c), Subtitle E, §§ 110511, 110514, Title XXXII, Subtitle I, §§ 320904, 320927, Title XXXIII, § 330011(i), 108 Stat.
1996, 1998, 2000, 2010, 2014, 2019, 2125, 2131, 2145; Oct. 11, 1996, P. L. 104-294, Title VI, § 603(b), (c)(1), (d),
(e), (f)(1), (g), 110 Stat. 3503, 3504; Sept. 30, 1996, P. L. 104-208, Div A, Title I, § 101(f) [Title VI, §§ 657, 658(b)],
110 Stat. 3009-369, 3009-372; Oct. 21, 1998, P. L. 105-277, Div A, § 101(b) [Title I, § 121], 112 Stat. 2681-71; Nov.

APPX 040

18 USCS § 922, Part 1 of 3
2, 2002, P. L. 107-273, Div B, Title IV, § 4003(a)(1), 116 Stat. 1811; Nov. 25, 2002, P. L. 107-296, Title XI, Subtitle
B, § 1112(f)(4), (6), 116 Stat. 2276; Oct. 26, 2005, P. L. 109-92, §§ 5(c)(1), 6(a), 119 Stat. 2099, 2101; Dec. 4,
2015, P. L. 114-94, Div A, Title XI, Subtitle D, § 11412(c)(2), 129 Stat. 1688.

United States Code Service
Copyright © 2020 Matthew Bender & Company, Inc.
a member of the LexisNexis Group (TM)
All rights reserved. All rights reserved.

End of Document

APPX 041

2) 18 U.S.C. § 924

APPX 042

18 USCS § 924, Part 1 of 4
Current through Public Law 116-158, approved August 14, 2020.

United States Code Service > TITLE 18. CRIMES AND CRIMINAL PROCEDURE (§§ 1 — 6005) >
Part I. Crimes (Chs. 1 — 123) > CHAPTER 44. Firearms (§§ 921 — 931)

§ 924. Penalties [Caution: See prospective amendment notes below.]
(a)
(1)Except as otherwise provided in this subsection, subsection (b), (c), (f), or (p) of this section, or in
section 929 [18 USCS § 929], whoever—
(A)knowingly makes any false statement or representation with respect to the information required
by this chapter [18 USCS §§ 921 et seq.] to be kept in the records of a person licensed under this
chapter [18 USCS §§ 921 et seq.] or in applying for any license or exemption or relief from disability
under the provisions of this chapter [18 USCS §§ 921 et seq.];
(B)knowingly violates subsection (a)(4), (f), (k), or (q) of section 922 [18 USCS § 922];
(C)knowingly imports or brings into the United States or any possession thereof any firearm or
ammunition in violation of section 922(l) [18 USCS § 922(1)]; or
(D)willfully violates any other provision of this chapter [18 USCS §§ 921 et seq.],
shall be fined under this title, imprisoned not more than five years, or both.
(2)Whoever knowingly violates subsection (a)(6), (d), (g), (h), (i), (j), or (o) of section 922 [18 USCS §
922] shall be fined as provided in this title, imprisoned not more than 10 years, or both.
(3)Any licensed dealer, licensed importer, licensed manufacturer, or licensed collector who knowingly—
(A)makes any false statement or representation with respect to the information required by the
provisions of this chapter [18 USCS §§ 921 et seq.] to be kept in the records of a person licensed
under this chapter [18 USCS §§ 921 et seq.], or
(B)violates subsection (m) of section 922 [18 USCS § 922],
shall be fined under this title, imprisoned not more than one year, or both.
(4)Whoever violates section 922(q) [18 USCS § 922(q)] shall be fined under this title, imprisoned for not
more than 5 years, or both. Notwithstanding any other provision of law, the term of imprisonment
imposed under this paragraph shall not run concurrently with any other term of imprisonment imposed
under any other provision of law. Except for the authorization of a term of imprisonment of not more
than 5 years made in this paragraph, for the purpose of any other law a violation of section 922(q) [18
USCS § 922(q)] shall be deemed to be a misdemeanor.
(5)Whoever knowingly violates subsection (s) or (t) of section 922 [18 USCS § 922] shall be fined not
more than $1,000, imprisoned for not more than 1 year, or both.
(6)
(A)
(i)A juvenile who violates section 922(x) [18 USCS § 922(x)] shall be fined under this title,
imprisoned not more than 1 year, or both, except that a juvenile described in clause (ii) shall be

APPX 043

18 USCS § 924, Part 1 of 4
sentenced to probation on appropriate conditions and shall not be incarcerated unless the
juvenile fails to comply with a condition of probation.
(ii)A juvenile is described in this clause if—
(I)the offense of which the juvenile is charged is possession of a handgun or ammunition in
violation of section 922(x)(2); and
(II)the juvenile has not been convicted in any court of an offense (including an offense
under section 922(x) [18 USCS § 922(x)] or a similar State law, but not including any other
offense consisting of conduct that if engaged in by an adult would not constitute an
offense) or adjudicated as a juvenile delinquent for conduct that if engaged in by an adult
would constitute an offense.
(B)A person other than a juvenile who knowingly violates section 922(x) [18 USCS § 922(x)]—
(i)shall be fined under this title, imprisoned not more than 1 year, or both; and
(ii)if the person sold, delivered, or otherwise transferred a handgun or ammunition to a juvenile
knowing or having reasonable cause to know that the juvenile intended to carry or otherwise
possess or discharge or otherwise use the handgun or ammunition in the commission of a
crime of violence, shall be fined under this title, imprisoned not more than 10 years, or both.
(7)Whoever knowingly violates section 931 [18 USCS § 931] shall be fined under this title, imprisoned
not more than 3 years, or both.
(b)Whoever, with intent to commit therewith an offense punishable by imprisonment for a term exceeding one
year, or with knowledge or reasonable cause to believe that an offense punishable by imprisonment for a term
exceeding one year is to be committed therewith, ships, transports, or receives a firearm or any ammunition in
interstate or foreign commerce shall be fined under this title, or imprisoned not more than ten years, or both.
(c)
(1)
(A)Except to the extent that a greater minimum sentence is otherwise provided by this subsection
or by any other provision of law, any person who, during and in relation to any crime of violence or
drug trafficking crime (including a crime of violence or drug trafficking crime that provides for an
enhanced punishment if committed by the use of a deadly or dangerous weapon or device) for
which the person may be prosecuted in a court of the United States, uses or carries a firearm, or
who, in furtherance of any such crime, possesses a firearm, shall, in addition to the punishment
provided for such crime of violence or drug trafficking crime—
(i)be sentenced to a term of imprisonment of not less than 5 years;
(ii)if the firearm is brandished, be sentenced to a term of imprisonment of not less than 7 years;
and
(iii)if the firearm is discharged, be sentenced to a term of imprisonment of not less than 10
years.
(B)If the firearm possessed by a person convicted of a violation of this subsection—
(i)is a short-barreled rifle, short-barreled shotgun, or semiautomatic assault weapon, the person
shall be sentenced to a term of imprisonment of not less than 10 years; or
(ii)is a machinegun or a destructive device, or is equipped with a firearm silencer or firearm
muffler, the person shall be sentenced to a term of imprisonment of not less than 30 years.
(C)In the case of a violation of this subsection that occurs after a prior conviction under this
subsection has become final, the person shall—
(i)be sentenced to a term of imprisonment of not less than 25 years; and

APPX 044

18 USCS § 924, Part 1 of 4
(ii)if the firearm involved is a machinegun or a destructive device, or is equipped with a firearm
silencer or firearm muffler, be sentenced to imprisonment for life.
(D)Notwithstanding any other provision of law—
(i)a court shall not place on probation any person convicted of a violation of this subsection;
and
(ii)no term of imprisonment imposed on a person under this subsection shall run concurrently
with any other term of imprisonment imposed on the person, including any term of
imprisonment imposed for the crime of violence or drug trafficking crime during which the
firearm was used, carried, or possessed.
(2)For purposes of this subsection, the term “drug trafficking crime” means any felony punishable under
the Controlled Substances Act (21 U.S.C. 801 et seq.), the Controlled Substances Import and Export
Act (21 U.S.C. 951 et seq.), or chapter 705 of title 46 [46 USCS §§ 70501 et seq.].
(3)For purposes of this subsection the term “crime of violence” means an offense that is a felony and—
(A)has as an element the use, attempted use, or threatened use of physical force against the
person or property of another, or
(B)that by its nature, involves a substantial risk that physical force against the person or property of
another may be used in the course of committing the offense.
(4)For purposes of this subsection, the term “brandish” means, with respect to a firearm, to display all
or part of the firearm, or otherwise make the presence of the firearm known to another person, in order
to intimidate that person, regardless of whether the firearm is directly visible to that person.
(5)Except to the extent that a greater minimum sentence is otherwise provided under this subsection,
or by any other provision of law, any person who, during and in relation to any crime of violence or drug
trafficking crime (including a crime of violence or drug trafficking crime that provides for an enhanced
punishment if committed by the use of a deadly or dangerous weapon or device) for which the person
may be prosecuted in a court of the United States, uses or carries armor piercing ammunition, or who,
in furtherance of any such crime, possesses armor piercing ammunition, shall, in addition to the
punishment provided for such crime of violence or drug trafficking crime or conviction under this
section—
(A)be sentenced to a term of imprisonment of not less than 15 years; and
(B)if death results from the use of such ammunition—
(i)if the killing is murder (as defined in section 1111 [18 USCS § 1111]), be punished by death
or sentenced to a term of imprisonment for any term of years or for life; and
(ii)if the killing is manslaughter (as defined in section 1112 [18 USCS § 1112]), be punished as
provided in section 1112 [18 USCS § 1112].
(d)
(1)Any firearm or ammunition involved in or used in any knowing violation of subsection (a)(4), (a)(6),
(f), (g), (h), (i), (j), or (k) of section 922 [18 USCS § 922], or knowing importation or bringing into the
United States or any possession thereof any firearm or ammunition in violation of section 922(l) [18
USCS § 922(1)], or knowing violation of section 924 [18 USCS § 924], or willful violation of any other
provision of this chapter [18 USCS §§ 921 et seq.] or any rule or regulation promulgated thereunder, or
any violation of any other criminal law of the United States, or any firearm or ammunition intended to be
used in any offense referred to in paragraph (3) of this subsection, where such intent is demonstrated
by clear and convincing evidence, shall be subject to seizure and forfeiture, and all provisions of the
Internal Revenue Code of 1954 [Internal Revenue Code of 1986] [26 USCS §§ 1 et seq.] relating to the
seizure, forfeiture, and disposition of firearms, as defined in section 5845(a) of that Code [26 USCS §
5845(a)], shall, so far as applicable, extend to seizures and forfeitures under the provisions of this

APPX 045

18 USCS § 924, Part 1 of 4
chapter [18 USCS §§ 921 et seq.]: Provided, That upon acquittal of the owner or possessor, or
dismissal of the charges against him other than upon motion of the Government prior to trial, or lapse of
or court termination of the restraining order to which he is subject, the seized or relinquished firearms or
ammunition shall be returned forthwith to the owner or possessor or to a person delegated by the
owner or possessor unless the return of the firearms or ammunition would place the owner or
possessor or his delegate in violation of law. Any action or proceeding for the forfeiture of firearms or
ammunition shall be commenced within one hundred and twenty days of such seizure.
(2)
(A)In any action or proceeding for the return of firearms or ammunition seized under the provisions
of this chapter [18 USCS §§ 921 et seq.], the court shall allow the prevailing party, other than the
United States, a reasonable attorney’s fee, and the United States shall be liable therefor.
(B)In any other action or proceeding under the provisions of this chapter [18 USCS §§ 921 et seq.],
the court, when it finds that such action was without foundation, or was initiated vexatiously,
frivolously, or in bad faith, shall allow the prevailing party, other than the United States, a
reasonable attorney’s fee, and the United States shall be liable therefor.
(C)Only those firearms or quantities of ammunition particularly named and individually identified as
involved in or used in any violation of the provisions of this chapter [18 USCS §§ 921 et seq.] or
any rule or regulation issued thereunder, or any other criminal law of the United States or as
intended to be used in any offense referred to in paragraph (3) of this subsection, where such intent
is demonstrated by clear and convincing evidence, shall be subject to seizure, forfeiture, and
disposition.
(D)The United States shall be liable for attorneys’ fees under this paragraph only to the extent
provided in advance by appropriation Acts.
(3)The offenses referred to in paragraphs (1) and (2)(C) of this subsection are—
(A)any crime of violence, as that term is defined in section 924(c)(3) of this title [18 USCS §
924(c)(3)] [subsec. (c)(3) of this section];
(B)any offense punishable under the Controlled Substances Act (21 U.S.C. 801 et seq.) or the
Controlled Substances Import and Export Act (21 U.S.C. 951 et seq.);
(C)any offense described in section 922(a)(1), 922(a)(3), 922(a)(5), or 922(b)(3) of this title [18
USCS § 922(a)(1), 922(a)(3), 922(a)(5), or 922(b)(3)] where the firearm or ammunition intended to
be used in any such offense is involved in a pattern of activities which includes a violation of any
offense described in section 922(a)(1), 922(a)(3), 922(a)(5), or 922(b)(3) of this title [18 USCS §
922(a)(1), 922(a)(3), 922(a)(5), or 922(b)(3)];
(D)any offense described in section 922(d) of this title [18 USCS § 922(d)] where the firearm or
ammunition is intended to be used in such offense by the transferor of such firearm or ammunition;
(E)any offense described in section 922(i), 922(j), 922(l), 922(n), or 924(b) of this title [18 USCS §
922(i), 922(j), 922(l), 922(n), or 924(b)]; and
(F)any offense which may be prosecuted in a court of the United States which involves the
exportation of firearms or ammunition.
(e)
(1)In the case of a person who violates section 922(g) of this title [18 USCS § 922(g)] and has three
previous convictions by any court referred to in section 922(g)(1) of this title [18 USCS § 922(g)(1)] for a
violent felony or a serious drug offense, or both, committed on occasions different from one another,
such person shall be fined under this title and imprisoned not less than fifteen years, and,
notwithstanding any other provision of law, the court shall not suspend the sentence of, or grant a

APPX 046

18 USCS § 924, Part 1 of 4
probationary sentence to, such person with respect to the conviction under section 922(g) [18 USCS §
922(g)].
(2)As used in this subsection—
(A)the term “serious drug offense” means—
(i)an offense under the Controlled Substances Act (21 U.S.C. 801 et seq.), the Controlled
Substances Import and Export Act (21 U.S.C. 951 et seq.), or chapter 705 of title 46 [46 USCS
§§ 70501 et seq.], for which a maximum term of imprisonment of ten years or more is
prescribed by law; or
(ii)an offense under State law, involving manufacturing, distributing, or possessing with intent to
manufacture or distribute, a controlled substance (as defined in section 102 of the Controlled
Substances Act (21 U.S.C. 802)), for which a maximum term of imprisonment of ten years or
more is prescribed by law;
(B)the term “violent felony” means any crime punishable by imprisonment for a term exceeding one
year, or any act of juvenile delinquency involving the use or carrying of a firearm, knife, or
destructive device that would be punishable by imprisonment for such term if committed by an
adult, that—
(i)has as an element the use, attempted use, or threatened use of physical force against the
person of another; or
(ii)is burglary, arson, or extortion, involves use of explosives, or otherwise involves conduct that
presents a serious potential risk of physical injury to another; and
(C)the term “conviction” includes a finding that a person has committed an act of juvenile
delinquency involving a violent felony.
(f)In the case of a person who knowingly violates section 922(p) [18 USCS § 922(p)], such person shall be
fined under this title, or imprisoned not more than 5 years, or both.
(g)Whoever, with the intent to engage in conduct which—
(1)constitutes an offense listed in section 1961(1) [18 USCS § 1961(1)],
(2)is punishable under the Controlled Substances Act (21 U.S.C. 801 et seq.), the Controlled
Substances Import and Export Act (21 U.S.C. 951 et seq.), or chapter 705 of title 46 [46 USCS §§
70501 et seq.],
(3)violates any State law relating to any controlled substance (as defined in section 102(6) of the
Controlled Substances Act (21 U.S.C. 802(6))), or
(4)constitutes a crime of violence (as defined in subsection (c)(3)),
travels from any State or foreign country into any other State and acquires, transfers, or attempts to acquire
or transfer, a firearm in such other State in furtherance of such purpose, shall be imprisoned not more than
10 years, fined in accordance with this title, or both.
(h)Whoever knowingly transfers a firearm, knowing that such firearm will be used to commit a crime of violence
(as defined in subsection (c)(3)) or drug trafficking crime (as defined in subsection (c)(2)) shall be imprisoned
not more than 10 years, fined in accordance with this title, or both.
(i)
(1)A person who knowingly violates section 922(u) [18 USCS § 922(u)] shall be fined under this title,
imprisoned not more than 10 years, or both.
(2)Nothing contained in this subsection shall be construed as indicating an intent on the part of
Congress to occupy the field in which provisions of this subsection operate to the exclusion of State
laws on the same subject matter, nor shall any provision of this subsection be construed as invalidating

APPX 047

18 USCS § 924, Part 1 of 4
any provision of State law unless such provision is inconsistent with any of the purposes of this
subsection.
(j)A person who, in the course of a violation of subsection (c), causes the death of a person through the use of
a firearm, shall—
(1)if the killing is a murder (as defined in section 1111 [18 USCS § 1111]), be punished by death or by
imprisonment for any term of years or for life; and
(2)if the killing is manslaughter (as defined in section 1112 [18 USCS § 1112]), be punished as
provided in that section.
(k)A person who, with intent to engage in or to promote conduct that—
(1)is punishable under the Controlled Substances Act (21 U.S.C. 801 et seq.), the Controlled
Substances Import and Export Act (21 U.S.C. 951 et seq.), or chapter 705 of title 46 [46 USCS §§
70501 et seq.];
(2)violates any law of a State relating to any controlled substance (as defined in section 102 of the
Controlled Substances Act, 21 U.S.C. 802); or
(3)constitutes a crime of violence (as defined in subsection (c)(3)),
smuggles or knowingly brings into the United States a firearm, or attempts to do so, shall be imprisoned not
more than 10 years, fined under this title, or both.
(l)A person who steals any firearm which is moving as, or is a part of, or which has moved in, interstate or
foreign commerce shall be imprisoned for not more than 10 years, fined under this title, or both.
(m)A person who steals any firearm from a licensed importer, licensed manufacturer, licensed dealer, or
licensed collector shall be fined under this title, imprisoned not more than 10 years, or both.
(n)A person who, with the intent to engage in conduct that constitutes a violation of section 922(a)(1)(A) [18
USCS § 922(a)(1)(A)], travels from any State or foreign country into any other State and acquires, or attempts
to acquire, a firearm in such other State in furtherance of such purpose shall be imprisoned for not more than
10 years.
(o)A person who conspires to commit an offense under subsection (c) shall be imprisoned for not more than 20
years, fined under this title, or both; and if the firearm is a machinegun or destructive device, or is equipped with
a firearm silencer or muffler, shall be imprisoned for any term of years or life.
(p) Penalties relating to secure gun storage or safety device.
(1)In general.
(A)Suspension or revocation of license; civil penalties. With respect to each violation of section
922(z)(1) [18 USCS § 922(z)(1)] by a licensed manufacturer, licensed importer, or licensed dealer,
the Secretary may, after notice and opportunity for hearing—
(i)suspend for not more than 6 months, or revoke, the license issued to the licensee under this
chapter [18 USCS §§ 921 et seq.] that was used to conduct the firearms transfer; or
(ii)subject the licensee to a civil penalty in an amount equal to not more than $2,500.
(B)Review. An action of the Secretary under this paragraph may be reviewed only as provided
under section 923(f) [18 USCS § 923(f)].
(2)Administrative remedies. The suspension or revocation of a license or the imposition of a civil
penalty under paragraph (1) shall not preclude any administrative remedy that is otherwise available to
the Secretary.

History

APPX 048

18 USCS § 924, Part 1 of 4

HISTORY:
Added June 19, 1968, P. L. 90-351, Title IV, § 902, 82 Stat. 233; Oct. 22, 1968, P. L. 90-618, Title I, § 102, 82 Stat.
1223; Jan. 2, 1971, P. L. 91-644, Title II, § 13, 84 Stat. 1890); Oct. 12, 1984, P. L. 98-473, Title II, Ch II, § 223(a),
Ch X, Part D, § 1005, 98 Stat. 2038, 2138; May 19, 1986, P. L. 99-308, § 104(a), 100 Stat. 456; Oct. 27, 1986, P. L.
99-570, Title I, Subtitle I, § 1402, 100 Stat. 3207-39; Nov. 11, 1988, P. L. 100-649, § 2(b), 102 Stat. 3817; Nov. 18,
1988, P. L. 100-690, Title VI, Subtitle G, § 6211, Subtitle N, §§ 6451, 6460, 6462, Title VII, Subtitle B, §§ 7056,
7060(a), 102 Stat. 4361, 4371, 4373, 4374, 4402, 4403; Nov. 29, 1990, P. L. 101-647, Title XI § 1101, Title XVII, §
1702(b)(3), Title XXII, §§ 2203(d), 2204(c), Title XXXV, §§ 3526-3529, 104 Stat. 4829, 4845, 4857, 4924; Nov. 30,
1993, P. L. 103-159, Title I, § 102(c), Title III, § 302(d), 107 Stat. 1541, 1545; Sept. 13, 1994, P. L. 103-322, Title
VI, § 60013, Title XI, Subtitle A, §§ 110102(c), 110103(c), Subtitle B, § 110201(b), Subtitle D, § 110401(e), Subtitle
E, §§ 110503, 110504(a), 110507, 110510, 110515(a), 110517, 110518, Title XXXIII, §§ 330002(h), 330003(f)(2),
330011(i), (j), 330016(1)(H), (K), (L), 108 Stat. 1973, 1998, 1999, 2011, 2015, 2016, 2018–2020, 2140, 2141, 2145,
2147; Oct. 11, 1996, P. L. 104-294, Title VI, § 603(m)(1), (n), (o), (p)(1), (q)–(s), 110 Stat. 3505; Nov. 13, 1998, P.
L. 105-386, § 1(a), 112 Stat. 3469; Nov. 2, 2002, P. L. 107-273, Div B, Title IV, § 4002(d)(1)(E), Div C, Title I,
Subtitle A, § 11009(e)(3), 116 Stat. 1809, 1821; Dec. 9, 2003, P. L. 108-174, § 1(2), (3), 117 Stat. 2481; Oct. 26,
2005, P. L. 109-92, §§ 5(c)(2), 6(b), 119 Stat. 2100, 2102; Oct. 6, 2006, P. L. 109-304, § 17(d)(3), 120 Stat. 1707;
Dec. 21, 2018, P. L. 115-391, Title IV, § 403(a), 132 Stat. 5221, 5222.

United States Code Service
Copyright © 2020 Matthew Bender & Company, Inc.
a member of the LexisNexis Group (TM)
All rights reserved. All rights reserved.

End of Document

APPX 049

3) 27 C.F.R. 148.124

APPX 050

27 CFR 478.124
This document is current through the August 25, 2020 issue of the Federal Register. Title 3 is current through
August 7, 2020.

Code of Federal Regulations > TITLE 27 -- ALCOHOL, TOBACCO PRODUCTS AND FIREARMS >
CHAPTER II -- BUREAU OF ALCOHOL, TOBACCO, FIREARMS, AND EXPLOSIVES, DEPARTMENT
OF JUSTICE > SUBCHAPTER B -- FIREARMS AND AMMUNITION > PART 478 -- COMMERCE IN
FIREARMS AND AMMUNITION > SUBPART H -- RECORDS

§ 478.124 Firearms transaction record.
(a)A licensed importer, licensed manufacturer, or licensed dealer shall not sell or otherwise dispose, temporarily
or permanently, of any firearm to any person, other than another licensee, unless the licensee records the
transaction on a firearms transaction record, Form 4473: Provided, That a firearms transaction record, Form
4473, shall not be required to record the disposition made of a firearm delivered to a licensee for the sole
purpose of repair or customizing when such firearm or a replacement firearm is returned to the person from
whom received.
(b)A licensed manufacturer, licensed importer, or licensed dealer shall retain in alphabetical (by name of
purchaser), chronological (by date of disposition), or numerical (by transaction serial number) order, and as a
part of the required records, each Form 4473 obtained in the course of transferring custody of the firearms.
(c)
(1)Prior to making an over-the-counter transfer of a firearm to a nonlicensee who is a resident of the
State in which the licensee's business premises is located, the licensed importer, licensed
manufacturer, or licensed dealer so transferring the firearm shall obtain a Form 4473 from the
transferee showing the transferee's name, sex, residence address (including county or similar political
subdivision), date and place of birth; height, weight and race of the transferee; the transferee's country
of citizenship; the transferee's INS-issued alien number or admission number; the transferee's State of
residence; and certification by the transferee that the transferee is not prohibited by the Act from
transporting or shipping a firearm in interstate or foreign commerce or receiving a firearm which has
been shipped or transported in interstate or foreign commerce or possessing a firearm in or affecting
commerce.
(2)In order to facilitate the transfer of a firearm and enable NICS to verify the identity of the person
acquiring the firearm, ATF Form 4473 also requests certain optional information. This information
includes the transferee's social security number. Such information may help avoid the possibility of the
transferee being misidentified as a felon or other prohibited person.
(3)After the transferee has executed the Form 4473, the licensee:
(i)Shall verify the identity of the transferee by examining the identification document (as defined in §
478.11) presented, and shall note on the Form 4473 the type of identification used;
(ii)[Reserved]
(iii)Must, in the case of a transferee who is an alien admitted to the United States under a
nonimmigrant visa who states that he or she falls within an exception to, or has a waiver from, the
prohibition in section 922(g)(5)(B) of the Act, have the transferee present applicable documentation
establishing the exception or waiver, note on the Form 4473 the type of documentation provided,
and attach a copy of the documentation to the Form 4473; and

APPX 051

27 CFR 478.124
(iv)Shall comply with the requirements of § 478.102 and record on the form the date on which the
licensee contacted the NICS, as well as any response provided by the system, including any
identification number provided by the system.
(4)The licensee shall identify the firearm to be transferred by listing on the Form 4473 the name of the
manufacturer, the name of the importer (if any), the type, model, caliber or gauge, and the serial
number of the firearm.
(5)The licensee shall sign and date the form if the licensee does not know or have reasonable cause to
believe that the transferee is disqualified by law from receiving the firearm and transfer the firearm
described on the Form 4473.
(d)Prior to making an over-the-counter transfer of a shotgun or rifle under the provisions contained in §
478.96(c) to a nonlicensee who is not a resident of the State in which the licensee's business premises is
located, the licensee so transferring the shotgun or rifle, and such transferee, shall comply with the
requirements of paragraph (c) of this section.
(e)Prior to making a transfer of a firearm to any nonlicensee who is not a resident of the State in which the
licensee's business premises is located, and such nonlicensee is acquiring the firearm by loan or rental from
the licensee for temporary use for lawful sporting purposes, the licensed importer, licensed manufacturer, or
licensed dealer so furnishing the firearm, and such transferee, shall comply with the provisions of paragraph (c)
of this section.
(f)Form 4473 shall be submitted, in duplicate, to a licensed importer, licensed manufacturer, or licensed dealer
by a transferee who is purchasing or otherwise acquiring a firearm by other than an over-the-counter
transaction, who is not subject to the provisions of § 478.102(a), and who is a resident of the State in which the
licensee's business premises are located. The Form 4473 shall show the name, address, date and place of
birth, height, weight, and race of the transferee; and the title, name, and address of the principal law
enforcement officer of the locality to which the firearm will be delivered. The transferee also must date and
execute the sworn statement contained on the form showing, in case the firearm to be transferred is a firearm
other than a shotgun or rifle, the transferee is 21 years or more of age; in case the firearm to be transferred is a
shotgun or rifle, the transferee is 18 years or more of age; whether the transferee is a citizen of the United
States; the transferee's State of residence; the transferee is not prohibited by the provisions of the Act from
shipping or transporting a firearm in interstate or foreign commerce or receiving a firearm which has been
shipped or transported in interstate or foreign commerce or possessing a firearm in or affecting commerce; and
the transferee's receipt of the firearm would not be in violation of any statute of the State or published ordinance
applicable to the locality in which the transferee resides. Upon receipt of such Forms 4473, the licensee shall
identify the firearm to be transferred by listing in the Forms 4473 the name of the manufacturer, the name of the
importer (if any), the type, model, caliber or gauge, and the serial number of the firearm to be transferred. The
licensee shall prior to shipment or delivery of the firearm to such transferee, forward by registered or certified
mail (return receipt requested) a copy of the Form 4473 to the principal law enforcement officer named in the
Form 4473 by the transferee, and shall delay shipment or delivery of the firearm to the transferee for a period of
at least 7 days following receipt by the licensee of the return receipt evidencing delivery of the copy of the Form
4473 to such principal law enforcement officer, or the return of the copy of the Form 4473 to the licensee due to
the refusal of such principal law enforcement officer to accept same in accordance with U.S. Postal Service
regulations. The original Form 4473, and evidence of receipt or rejection of delivery of the copy of the Form
4473 sent to the principal law enforcement officer, shall be retained by the licensee as a part of the records
required to be kept under this subpart.
(g)A licensee who sells or otherwise disposes of a firearm to a nonlicensee who is other than an individual,
shall obtain from the transferee the information required by this section from an individual authorized to act on
behalf of the transferee. In addition, the licensee shall obtain from the individual acting on behalf of the
transferee a written statement, executed under the penalties of perjury, that the firearm is being acquired for the
use of and will be the property of the transferee, and showing the name and address of that transferee.

APPX 052

27 CFR 478.124
(h)The requirements of this section shall be in addition to any other recordkeeping requirement contained in this
part.
(i)A licensee may obtain, upon request, an emergency supply of Forms 4473 from any Director of Industry
Operations. For normal usage, a licensee should request a year's supply from the ATF Distribution Center (See
§ 478.21).
(Paragraph (c) approved by the Office of Management and Budget under control numbers 1140-0045,
1140-0020, and 1140-0060; paragraph (f) approved by the Office of Management and Budget under control
number 1140-0021; all other recordkeeping approved by the Office of Management and Budget under
control number 1140-0020)

Statutory Authority

AUTHORITY NOTE APPLICABLE TO ENTIRE PART:
5 U.S.C. 552(a); 18 U.S.C. 921-931; 44 U.S.C. 3504(h).

History

[33 FR 18555, Dec. 14, 1968, as amended by 49 FR 14942, Apr. 16, 1984; 51 FR 39625, Oct. 29, 1986; 53 FR
10502, Mar. 31, 1988; 62 FR 19442, 19444, Apr. 21, 1997; 63 FR 58272, 58279, Oct. 29, 1998; 64 FR 17291, Apr.
9, 1999; 67 FR 5422, 5426, Feb. 5, 2002; redesignated and amended at 68 FR 3744, 3750, Jan. 24, 2003; 73 FR
57239, 57241, Oct. 2, 2008; 77 FR 33625, 33630, June 7, 2012; 77 FR 33630, 33634, June 7, 2012]

LEXISNEXIS' CODE OF FEDERAL REGULATIONS
Copyright © 2020, by Matthew Bender & Company, a member of the LexisNexis Group. All rights reserved.

End of Document

APPX 053

4) 8 U.S.C. § 1011

APPX 054

8 USCS § 1101, Part 1 of 3
Current through Public Law 116-158, approved August 14, 2020.

United States Code Service > TITLE 8. ALIENS AND NATIONALITY (Chs. 1 — 15) > CHAPTER
12. IMMIGRATION AND NATIONALITY (§§ 1101 — 1537) > GENERAL PROVISIONS (§§ 1101 —
1107)

§ 1101. Definitions
(a)As used in this Act—
(1)The term “administrator” means the official designated by the Secretary of State pursuant to section
104(b) of this Act [8 USCS § 1104(b)].
(2)The term “advocates” includes, but is not limited to, advises, recommends, furthers by overt act, and
admits belief in.
(3)The term “alien” means any person not a citizen or national of the United States.
(4)The term “application for admission” has reference to the application for admission into the United
States and not to the application for the issuance of an immigrant or nonimmigrant visa.
(5)The term “Attorney General” means the Attorney General of the United States.
(6)The term “border crossing identification card” means a document of identity bearing that designation
issued to an alien who is lawfully admitted for permanent residence, or to an alien who is a resident in
foreign contiguous territory, by a consular officer or an immigration officer for the purpose of crossing
over the borders between the United States and foreign contiguous territory in accordance with such
conditions for its issuance and use as may be prescribed by regulations. Such regulations shall provide
that (A) each such document include a biometric identifier (such as the fingerprint or handprint of the
alien) that is machine readable and (B) an alien presenting a border crossing identification card is not
permitted to cross over the border into the United States unless the biometric identifier contained on the
card matches the appropriate biometric characteristic of the alien.
(7)The term “clerk of court” means a clerk of a naturalization court.
(8)The terms “Commissioner” and “Deputy Commissioner” mean the Commissioner of Immigration and
Naturalization and a Deputy Commissioner of Immigration and Naturalization, respectively.
(9)The term “consular officer” means any consular, diplomatic, or other officer or employee of the
United States designated under regulations prescribed under authority contained in this Act, for the
purpose of issuing immigrant or nonimmigrant visas or, when used in title III [8 USCS §§ 1401 et seq.],
for the purpose of adjudicating nationality.
(10)The term “crewman” means a person serving in any capacity on board a vessel or aircraft.
(11)The term “diplomatic visa” means a nonimmigrant visa bearing that title and issued to a
nonimmigrant in accordance with such regulations as the Secretary of State may prescribe.
(12)The term “doctrine” includes, but is not limited to, policies, practices, purposes, aims, or
procedures.
(13)
(A)The terms “admission” and “admitted” mean, with respect to an alien, the lawful entry of the
alien into the United States after inspection and authorization by an immigration officer.

APPX 055

8 USCS § 1101, Part 1 of 3
(B)An alien who is paroled under section 212(d)(5) [8 USCS § 1182(d)(5)] or permitted to land
temporarily as an alien crewman shall not be considered to have been admitted.
(C)An alien lawfully admitted for permanent residence in the United States shall not be regarded as
seeking an admission into the United States for purposes of the immigration laws unless the
alien—
(i)has abandoned or relinquished that status,
(ii)has been absent from the United States for a continuous period in excess of 180 days,
(iii)has engaged in illegal activity after having departed the United States,
(iv)has departed from the United States while under legal process seeking removal of the alien
from the United States, including removal proceedings under this Act and extradition
proceedings,
(v)has committed an offense identified in section 212(a)(2) [8 USCS § 1182(a)(2)], unless since
such offense the alien has been granted relief under section 212(h) or 240A(a) [8 USCS §
1182(h) or 1229b(a)], or
(vi)is attempting to enter at a time or place other than as designated by immigration officers or
has not been admitted to the United States after inspection and authorization by an immigration
officer.
(14)The term “foreign state” includes outlying possessions of a foreign state, but self-governing
dominions or territories under mandate or trusteeship shall be regarded as separate foreign states.
(15)The term “immigrant” means every alien except an alien who is within one of the following classes
of nonimmigrant aliens—
(A)
(i)an ambassador, public minister, or career diplomatic or an ambassador, public minister, or
career diplomatic or consular officer who has been accredited by a foreign government
recognized de jure by the United States and who is accepted by the President or by the
Secretary of State, and the members of the alien’s immediate family;
(ii)upon a basis of reciprocity, other officials and employees who have been accredited by a
foreign government recognized de jure by the United States, who are accepted by the
Secretary of State, and the members of their immediate families; and
(iii)upon a basis of reciprocity, attendants, servants, personal employees, and members of their
immediate families, of the officials and employees who have a nonimmigrant status under (i)
and (ii) above;
(B)an alien (other than one coming for the purpose of study or of performing skilled or unskilled
labor or as a representative of foreign press, radio, film, or other foreign information media coming
to engage in such vocation) having a residence in a foreign country which he has no intention of
abandoning and who is visiting the United States temporarily for business or temporarily for
pleasure;
(C)an alien in immediate and continuous transit through the United States, or an alien who qualifies
as a person entitled to pass in transit to and from the United Nations Headquarters District and
foreign countries, under the provisions of paragraphs (3), (4), and (5) of section 11 of the
Headquarters Agreement with the United Nations (61 Stat. 758) [22 USCS § 287 note];
(D)
(i)an alien crewman serving in good faith as such in a capacity required for normal operation
and service on board a vessel, as defined in section 258(a) [8 USCS § 1288(a)] (other than a
fishing vessel having its home port or an operating base in the United States), or aircraft, who

APPX 056

8 USCS § 1101, Part 1 of 3
intends to land temporarily and solely in pursuit of his calling as a crewman and to depart from
the United States with the vessel or aircraft on which he arrived or some other vessel or
aircraft;
(ii)an alien crewman serving in good faith as such in any capacity required for normal
operations and service aboard a fishing vessel having its home port or an operating base in the
United States who intends to land temporarily in Guam or the Commonwealth of the Northern
Mariana Islands and solely in pursuit of his calling as a crewman and to depart from Guam or
the Commonwealth of the Northern Mariana Island with the vessel on which he arrived;
(E)an alien entitled to enter the United States under and in pursuance of the provisions of a treaty
of commerce and navigation between the United States and the foreign state of which he is a
national, and the spouse and children of any such alien if accompanying or following to join him: (i)
solely to carry on substantial trade, including trade in services or trade in technology, principally
between the United States and the foreign state of which he is a national; (ii) solely to develop and
direct the operations of an enterprise in which he has invested, or of an enterprise in which he is
actively in the process of investing, a substantial amount of capital; or (iii) solely to perform services
in a specialty occupation in the United States if the alien is a national of the Commonwealth of
Australia and with respect to whom the Secretary of Labor determines and certifies to the Secretary
of Homeland Security and the Secretary of State that the intending employer has filed with the
Secretary of Labor an attestation under section 212(t)(1) [8 USCS § 1182(t)(1)];
(F)(i) an alien having a residence in a foreign country which he has no intention of abandoning, who
is a bona fide student qualified to pursue a full course of study and who seeks to enter the United
States temporarily and solely for the purpose of pursuing such a course of study consistent with
section 214(l) at an established college, university, seminary, conservatory, academic high school,
elementary school, or other academic institution or in an accredited language training program in
the United States, particularly designated by him and approved by the Attorney General after
consultation with the Secretary of Education, which institution or place of study shall have agreed to
report to the Attorney General the termination of attendance of each nonimmigrant student, and if
any such institution of learning or place of study fails to make reports promptly the approval shall be
withdrawn, (ii) the alien spouse and minor children of any alien described in clause (i) if
accompanying or following to join such an alien, and (iii) an alien who is a national of Canada or
Mexico, who maintains actual residence and place of abode in the country of nationality, who is
described in clause (i) except that the alien’s qualifications for and actual course of study may be
full or part-time, and who commutes to the United States institution or place of study from Canada
or Mexico;
(G)
(i)a designated principal resident representative of a foreign government recognized de jure by
the United States, which foreign government is a member of an international organization
entitled to enjoy privileges, exemptions, and immunities as an international organization under
the International Organizations Immunities Act (59 Stat. 669), accredited resident members of
the staff of such representatives, and members of his or their immediate family;
(ii)other accredited representatives of such a foreign government to such international
organizations, and the members of their immediate families;
(iii)an alien able to qualify under (i) or (ii) above except for the fact that the government of
which such alien is an accredited representative is not recognized de jure by the United States,
or that the government of which he is an accredited representative is not a member of such
international organization, and the members of his immediate family;
(iv)officers, or employees of such international organizations, and the members of their
immediate families;

APPX 057

8 USCS § 1101, Part 1 of 3
(v)attendants, servants, and personal employees of any such representative, officer, or
employee, and the members of the immediate families of such attendants, servants, and
personal employees;
(H)[Caution: For expiration of amendments made to this subparagraph by Act Nov. 12, 1999,
P. L. 106-95, see § 2(e) of such Act, which appears as 8 USCS § 1182 note.] an alien (i)(a)
[Deleted] (b) subject to section 212(j)(2) [8 USCS § 1182(j)(2)] who is coming temporarily to the
United States to perform services (other than services described in subclause (a) during the period
in which such subclause applies and other than services described in subclause (ii)(a) or in
subparagraph (O) or (P)) in a specialty occupation described in section 214(i)(1) [8 USCS §
1184(i)(1)] or as a fashion model, who meets the requirements for the occupation specified in
section 214(i)(2) [8 USCS § 1184(i)(2)] or, in the case of a fashion model, is of distinguished merit
and ability, and with respect to whom the Secretary of Labor determines and certifies to the
Attorney General that the intending employer has filed with the Secretary an application under
section 212(n)(1) [8 USCS § 1182(n)(1)], or (b1) who is entitled to enter the United States under
and in pursuance of the provisions of an agreement listed in section 214(g)(8)(A) [8 USCS §
1184(g)(8)(A)], who is engaged in a specialty occupation described in section 214(i)(3) [8 USCS §
1184(i)(3)], and with respect to whom the Secretary of Labor determines and certifies to the
Secretary of Homeland Security and the Secretary of State that the intending employer has filed
with the Secretary of Labor an attestation under section 212(t)(1) [8 USCS § 1182(t)(1)], or (c) who
is coming temporarily to the United States to perform services as a registered nurse, who meets
the qualifications described in section 212(m)(1) [8 USCS § 1182(m)(1)], and with respect to whom
the Secretary of Labor determines and certifies to the Attorney General that an unexpired
attestation is on file and in effect under section 212(m)(2) [8 USCS § 1182(m)(2)] for the facility (as
defined in section 212(m)(6)) [8 USCS § 1182(m)(6)]) for which the alien will perform the services;
or (ii)(a) having a residence in a foreign country which he has no intention of abandoning who is
coming temporarily to the United States to perform agricultural labor or services, as defined by the
Secretary of Labor in regulations and including agricultural labor defined in section 3121(g) of the
Internal Revenue Code of 1986 [26 USCS § 3121(g)], agriculture as defined in section 3(f) of the
Fair Labor Standards Act of 1938 (29 U.S.C. 203(f)), and the pressing of apples for cider on a farm,
of a temporary or seasonal nature, or (b) having a residence in a foreign country which he has no
intention of abandoning who is coming temporarily to the United States to perform other temporary
service or labor if unemployed persons capable of performing such service or labor cannot be
found in this country, but this clause shall not apply to graduates of medical schools coming to the
United States to perform services as members of the medical profession; or (iii) having a residence
in a foreign country which he has no intention of abandoning who is coming temporarily to the
United States as a trainee, other than to receive graduate medical education or training; and the
alien spouse and minor children of any such alien specified in this paragraph if accompanying him
or following to join him, in a training program that is not designed primarily to provide productive
employment;
(I)upon a basis of reciprocity, an alien who is a bona fide representative of foreign press, radio, film,
or other foreign information media, who seeks to enter the United States solely to engage in such
vocation, and the spouse and children of such a representative, if accompanying or following to join
him;
(J)an alien having a residence in a foreign country which he has no intention of abandoning who is
a bona fide student, scholar, trainee, teacher, professor, research assistant, specialist, or leader in
a field of specialized knowledge or skill, or other person of similar description, who is coming
temporarily to the United States as a participant in a program designated by the Director of the
United States Information Agency, for the purpose of teaching, instructing or lecturing, studying,
observing, conducting research, consulting, demonstrating special skills, or receiving training and
who, if he is coming to the United States to participate in a program under which he will receive
graduate medical education or training, also meets the requirements of section 212(j) [8 USCS §

APPX 058

8 USCS § 1101, Part 1 of 3
1182(j)], and the alien spouse and minor children of any such alien if accompanying him or
following to join him;
(K)subject to subsections (d) and (p) of section 214 [8 USCS § 1184], an alien who—
(i)is the fiancée or fiancé of a citizen of the United States (other than a citizen described in
section 204(a)(1)(A)(viii)(I) [8 USCS § 1154(a)(1)(A)(viii)(I)]) and who seeks to enter the United
States solely to conclude a valid marriage with the petitioner within ninety days after admission;
(ii)has concluded a valid marriage with a citizen of the United States (other than a citizen
described in section 204(a)(1)(A)(viii)(I) [8 USCS § 1154(a)(1)(A)(viii)(I)]) who is the petitioner,
is the beneficiary of a petition to accord a status under section 201(b)(2)(A)(i) [8 USCS §
1151(b)(2)(A)(i)] that was filed under section 204 [8 USCS § 1154] by the petitioner, and seeks
to enter the United States to await the approval of such petition and the availability to the alien
of an immigrant visa; or
(iii)is the minor child of an alien described in clause (i) or (ii) and is accompanying, or following
to join, the alien;
(L)subject to section 214(c)(2) [8 USCS § 1184(c)(2)], an alien who, within 3 years preceding the
time of his application for admission into the United States, has been employed continuously for
one year by a firm or corporation or other legal entity or an affiliate or subsidiary thereof and who
seeks to enter the United States temporarily in order to continue to render his services to the same
employer or a subsidiary or affiliate thereof in a capacity that is managerial, executive, or involves
specialized knowledge, and the alien spouse and minor children of any such alien if accompanying
him or following to join him;
(M)(i) an alien having a residence in a foreign country which he has no intention of abandoning who
seeks to enter the United States temporarily and solely for the purpose of pursuing a full course of
study at an established vocational or other recognized nonacademic institution (other than in a
language training program) in the United States particularly designated by him and approved by the
Attorney General, after consultation with the Secretary of Education, which institution shall have
agreed to report to the Attorney General the termination of attendance of each nonimmigrant
nonacademic student and if any such institution fails to make reports promptly the approval shall be
withdrawn, (ii) the alien spouse and minor children of any alien described in clause (i) if
accompanying or following to join such an alien, and (iii) an alien who is a national of Canada or
Mexico, who maintains actual residence and place of abode in the country of nationality, who is
described in clause (i) except that the alien’s course of study may be full or part-time, and who
commutes to the United States institution or place of study from Canada or Mexico;
(N)
(i)the parent of an alien accorded the status of special immigrant under paragraph (27)(I)(i) (or
under analogous authority under paragraph (27)(L)), but only if and while the alien is a child, or
(ii)a child of such parent or of an alien accorded the status of a special immigrant under clause
(ii), (iii), or (iv) of paragraph (27)(I) (or under analogous authority under paragraph (27)(L));
(O)an alien who—
(i)has extraordinary ability in the sciences, arts, education, business, or athletics which has
been demonstrated by sustained national or international acclaim or, with regard to motion
picture and television productions a demonstrated record of extraordinary achievement, and
whose achievements have been recognized in the field through extensive documentation, and
seeks to enter the United States to continue work in the area of extraordinary ability;
(ii)

APPX 059

8 USCS § 1101, Part 1 of 3
(I)seeks to enter the United States temporarily and solely for the purpose of accompanying
and assisting in the artistic or athletic performance by an alien who is admitted under
clause (i) for a specific event or events,
(II)is an integral part of such actual performance,
(III)(a) has critical skills and experience with such alien which are not of a general nature
and which cannot be performed by other individuals, or (b) in the case of a motion picture
or television production, has skills and experience with such alien which are not of a
general nature and which are critical either based on a pre-existing longstanding working
relationship or, with respect to the specific production, because significant production
(including pre- and post-production work) will take place both inside and outside the United
States and the continuing participation of the alien is essential to the successful completion
of the production, and
(IV)has a foreign residence which the alien has no intention of abandoning; or
(iii)is the alien spouse or child of an alien described in clause (i) or (ii) and is accompanying, or
following to join, the alien;
(P)an alien having a foreign residence which the alien has no intention of abandoning who—
(i)(a) is described in section 214(c)(4)(A) [8 USCS § 1184(c)(4)(A)] (relating to athletes), or (b)
is described in section 214(c)(4)(B) [8 USCS § 1184(c)(4)(B)] (relating to entertainment
groups);
(ii)
(I)performs as an artist or entertainer, individually or as part of a group, or is an integral
part of the performance of such a group, and
(II)seeks to enter the United States temporarily and solely for the purpose of performing as
such an artist or entertainer or with such a group under a reciprocal exchange program
which is between an organization or organizations in the United States and an organization
or organizations in one or more foreign states and which provides for the temporary
exchange of artists and entertainers, or groups of artists and entertainers;
(iii)
(I)performs as an artist or entertainer, individually or as part of a group, or is an integral
part of the performance of such a group, and
(II)seeks to enter the United States temporarily and solely to perform, teach, or coach as
such an artist or entertainer or with such a group under a commercial or noncommercial
program that is culturally unique; or
(iv)is the spouse or child of an alien described in clause (i), (ii), or (iii) and is accompanying, or
following to join, the alien;
(Q)an alien having a residence in a foreign country which he has no intention of abandoning who is
coming temporarily (for a period not to exceed 15 months) to the United States as a participant in
an international cultural exchange program approved by the Secretary of Homeland Security for the
purpose of providing practical training, employment, and the sharing of the history, culture, and
traditions of the country of the alien’s nationality and who will be employed under the same wages
and working conditions as domestic workers;
(R)an alien, and the spouse and children of the alien if accompanying or following to join the alien,
who—

APPX 060

8 USCS § 1101, Part 1 of 3
(i)for the 2 years immediately preceding the time of application for admission, has been a
member of a religious denomination having a bona fide nonprofit, religious organization in the
United States; and
(ii)seeks to enter the United States for a period not to exceed 5 years to perform the work
described in subclause (I), (II), or (III) of paragraph (27)(C)(ii);
(S)subject to section 214(k) [8 USCS § 1184(k)], an alien—
(i)who the Attorney General determines—
(I)is in possession of critical reliable information concerning a criminal organization or
enterprise;
(II)is willing to supply or has supplied such information to Federal or State law enforcement
authorities or a Federal or State court; and
(III)whose presence in the United States the Attorney General determines is essential to
the success of an authorized criminal investigation or the successful prosecution of an
individual involved in the criminal organization or enterprise; or
(ii)who the Secretary of State and the Attorney General jointly determine—
(I)is in possession of critical reliable information concerning a terrorist organization,
enterprise, or operation;
(II)is willing to supply or has supplied such information to Federal law enforcement
authorities or a Federal court;
(III)will be or has been placed in danger as a result of providing such information; and
(IV)is eligible to receive a reward under section 36(a) of the State Department Basic
Authorities Act of 1956 [22 USCS § 2708(a)],
and, if the Attorney General (or with respect to clause (ii), the Secretary of State and the Attorney
General jointly) considers it to be appropriate, the spouse, married and unmarried sons and
daughters, and parents of an alien described in clause (i) or (ii) if accompanying, or following to
join, the alien;
(T)
(i)subject to section 214(o) [8 USCS § 1184(o)], an alien who the Secretary of Homeland
Security, or in the case of subclause (III)(aa) the Secretary of Homeland Security, in
consultation with the Attorney General, determines—
(I)is or has been a victim of a severe form of trafficking in persons, as defined in section
103 of the Trafficking Victims Protection Act of 2000 [22 USCS § 7102];
(II)is physically present in the United States, American Samoa, or the Commonwealth of
the Northern Mariana Islands, or at a port of entry thereto, on account of such trafficking,
including physical presence on account of the alien having been allowed entry into the
United States for participation in investigative or judicial processes associated with an act
or a perpetrator of trafficking;
(III)
(aa)has complied with any reasonable request for assistance in the Federal, State, or
local investigation or prosecution of acts of trafficking or the investigation of crime
where acts of trafficking are at least one central reason for the commission of that
crime;
(bb)in consultation with the Attorney General, as appropriate, is unable to cooperate
with a request described in item (aa) due to physical or psychological trauma; or

APPX 061

8 USCS § 1101, Part 1 of 3
(cc)has not attained 18 years of age; and
(IV)the alien would suffer extreme hardship involving unusual and severe harm upon
removal; and
(ii)if accompanying, or following to join, the alien described in clause (i)—
(I)in the case of an alien described in clause (i) who is under 21 years of age, the spouse,
children, unmarried siblings under 18 years of age on the date on which such alien applied
for status under such clause, and parents of such alien;
(II)in the case of an alien described in clause (i) who is 21 years of age or older, the spouse
and children of such alien; or
(III)any parent or unmarried sibling under 18 years of age, or any adult or minor children of
a derivative beneficiary of the alien, as of an alien described in subclause (I) or (II) who the
Secretary of Homeland Security, in consultation with the law enforcement officer
investigating a severe form of trafficking, determines faces a present danger of retaliation
as a result of the alien’s escape from the severe form of trafficking or cooperation with law
enforcement.
(iii)[Deleted]
(U)
(i)subject to section 214(p) [8 USCS § 1184(p)], an alien who files a petition for status under
this subparagraph, if the Secretary of Homeland Security determines that—
(I)the alien has suffered substantial physical or mental abuse as a result of having been a
victim of criminal activity described in clause (iii);
(II)the alien (or in the case of an alien child under the age of 16, the parent, guardian, or
next friend of the alien) possesses information concerning criminal activity described in
clause (iii);
(III)the alien (or in the case of an alien child under the age of 16, the parent, guardian, or
next friend of the alien) has been helpful, is being helpful, or is likely to be helpful to a
Federal, State, or local law enforcement official, to a Federal, State, or local prosecutor, to
a Federal or State judge, to the Service, or to other Federal, State, or local authorities
investigating or prosecuting criminal activity described in clause (iii); and
(IV)the criminal activity described in clause (iii) violated the laws of the United States or
occurred in the United States (including in Indian country and military installations) or the
territories and possessions of the United States;
(ii)if accompanying, or following to join, the alien described in clause (i)—
(I)in the case of an alien described in clause (i) who is under 21 years of age, the spouse,
children, unmarried siblings under 18 years of age on the date on which such alien applied
for status under such clause, and parents of such alien; or
(II)in the case of an alien described in clause (i) who is 21 years of age or older, the spouse
and children of such alien; and
(iii)the criminal activity referred to in this clause is that involving one or more of the following or
any similar activity in violation of Federal, State, or local criminal law: rape; torture; trafficking;
incest; domestic violence; sexual assault; abusive sexual contact; prostitution; sexual
exploitation; stalking; female genital mutilation; being held hostage; peonage; involuntary
servitude; slave trade; kidnapping; abduction; unlawful criminal restraint; false imprisonment;
blackmail; extortion; manslaughter; murder; felonious assault; witness tampering; obstruction of
justice; perjury; fraud in foreign labor contracting (as defined in section 1351 of title 18, United

APPX 062

8 USCS § 1101, Part 1 of 3
States Code); or attempt, conspiracy, or solicitation to commit any of the above mentioned
crimes; or
(V)subject to section 214(q) [8 USCS § 1184(q)], an alien who is the beneficiary (including a child
of the principal alien, if eligible to receive a visa under section 203(d) [8 USCS § 1153(d)]) of a
petition to accord a status under section 203(a)(2)(A) [8 USCS § 1153(a)(2)(A)] that was filed with
the Attorney General under section 204 [8 USCS § 1154] on or before the date of the enactment of
the Legal Immigration Family Equity Act [enacted Dec. 21, 2000], if—
(i)such petition has been pending for 3 years or more; or
(ii)such petition has been approved, 3 years or more have elapsed since such filing date,
and—
(I)an immigrant visa is not immediately available to the alien because of a waiting list of
applicants for visas under section 203(a)(2)(A) [8 USCS § 1153(a)(2)(A)]; or
(II)the alien’s application for an immigrant visa, or the alien’s application for adjustment of
status under section 245 [8 USCS § 1255], pursuant to the approval of such petition,
remains pending.
(16)The term “immigrant visa” means an immigrant visa required by this Act and properly issued by a
consular officer at his office outside of the United States to an eligible immigrant under the provisions of
this Act.
(17)The term “immigration laws” includes this Act and all laws, conventions, and treaties of the United
States relating to the immigration, exclusion, deportation, expulsion, or removal of aliens.
(18)The term “immigration officer” means any employee or class of employees of the Service or of the
United States designated by the Attorney General, individually or by regulation, to perform the functions
of an immigration officer specified by this Act or any section thereof.
(19)The term “ineligible to citizenship,” when used in reference to any individual, means,
notwithstanding the provisions of any treaty relating to military service, an individual who is, or was at
any time, permanently debarred from becoming a citizen of the United States under section 3(a) of the
Selective Training and Service Act of 1940, as amended (54 Stat. 885; 55 Stat. 844), or under section
4(a) of the Selective Service Act of 1948, as amended (62 Stat. 605; 65 Stat. 76) [section 4(a) of the
Military Selective Service Act, 50 USCS § 3803(a)], or under any section of this Act, or any other Act, or
under any law amendatory of, supplementary to, or in substitution for, any of such sections or Acts.
(20)The term “lawfully admitted for permanent residence” means the status of having been lawfully
accorded the privilege of residing permanently in the United States as an immigrant in accordance with
the immigration laws, such status not having changed.
(21)The term “national” means a person owing permanent allegiance to a state.
(22)The term “national of the United States” means (A) a citizen of the United States, or (B) a person
who, though not a citizen of the United States, owes permanent allegiance to the United States.
(23)The term “naturalization” means the conferring of nationality of a state upon a person after birth, by
any means whatsoever.
(24)[Repealed]
(25)The term “noncombatant service” shall not include service in which the individual is not subject to
military discipline, court martial, or does not wear the uniform of any branch of the armed forces.
(26)The term “nonimmigrant visa” means a visa properly issued to an alien as an eligible nonimmigrant
by a competent officer as provided in this Act.
(27)The term “special immigrant” means—

APPX 063

8 USCS § 1101, Part 1 of 3
(A)an immigrant, lawfully admitted for permanent residence, who is returning from a temporary visit
abroad;
(B)an immigrant who was a citizen of the United States and may, under section 324(a) or 327 of
title III [8 USCS §§ 1435(a) or 1438], apply for reacquisition of citizenship;
(C)an immigrant, and the immigrant’s spouse and children if accompanying or following to join the
immigrant, who—
(i)for at least 2 years immediately preceding the time of application for admission, has been a
member of a religious denomination having a bona fide nonprofit, religious organization in the
United States;
(ii)seeks to enter the United States—
(I)solely for the purpose of carrying on the vocation of a minister of that religious
denomination,
(II)before September 30, 2015, in order to work for the organization at the request of the
organization in a professional capacity in a religious vocation or occupation, or
(III)before September 30, 2015, in order to work for the organization (or for a bona fide
organization which is affiliated with the religious denomination and is exempt from taxation
as an organization described in section 501(c)(3) of the Internal Revenue Code of 1986 [26
USCS § 501(c)(3)]) at the request of the organization in a religious vocation or occupation;
and
(iii)has been carrying on such vocation, professional work, or other work continuously for at
least the 2-year period described in clause (i);
(D)an immigrant who is an employee, or an honorably retired former employee, of the United
States Government abroad, or of the American Institute in Taiwan, and who has performed faithful
service for a total of fifteen years, or more, and his accompanying spouse and children: Provided,
That the principal officer of a Foreign Service establishment (or, in the case of the American
Institute in Taiwan, the Director thereof), in his discretion, shall have recommended the granting of
special immigrant status to such alien in exceptional circumstances and the Secretary of State
approves such recommendation and finds that it is in the national interest to grant such status;
(E)an immigrant, and his accompanying spouse and children, who is or has been an employee of
the Panama Canal Company or Canal Zone Government before the date on which the Panama
Canal Treaty of 1977 (as described in section 3(a)(1) of the Panama Canal Act of 1979 [22 USCS §
3602(a)(1)]) enters into force, who was resident in the Canal Zone on the effective date of the
exchange of instruments of ratification of such Treaty, and who has performed faithful service as
such an employee for one year or more;
(F)an immigrant, and his accompanying spouse and children, who is a Panamanian national and (i)
who, before the date on which such Panama Canal Treaty of 1977 enters into force, has been
honorably retired from United States Government employment in the Canal Zone with a total of 15
years or more of faithful service, or (ii) who, on the date on which such Treaty enters into force, has
been employed by the United States Government in the Canal Zone with a total of 15 years or
more of faithful service and who subsequently is honorably retired from such employment or
continues to be employed by the United States Government in an area of the former Canal Zone;
(G)an immigrant, and his accompanying spouse and children, who was an employee of the
Panama Canal Company or Canal Zone Government on the effective date of the exchange of
instruments of ratification of such Panama Canal Treaty of 1977, who has performed faithful
service for five years or more as such an employee, and whose personal safety, or the personal
safety of whose spouse or children, as a direct result of such Treaty, is reasonably placed in
danger because of the special nature of any of that employment;

APPX 064

8 USCS § 1101, Part 1 of 3
(H)an immigrant, and his accompanying spouse and children, who—
(i)has graduated from a medical school or has qualified to practice medicine in a foreign state,
(ii)was fully and permanently licensed to practice medicine in a State on January 9, 1978, and
was practicing medicine in a State on that date,
(iii)entered the United States as a nonimmigrant under subsection (a)(15)(H) or (a)(15)(J)
before January 10, 1978, and
(iv)has been continuously present in the United States in the practice or study of medicine
since the date of such entry;
(I)
(i)an immigrant who is the unmarried son or daughter of an officer or employee, or of a former
officer or employee, of an international organization described in paragraph (15)(G)(i), and who
(I) while maintaining the status of a nonimmigrant under paragraph (15)(G)(iv) or paragraph
(15)(N), has resided and been physically present in the United States for periods totaling at
least one-half of the seven years before the date of application for a visa or for adjustment of
status to a status under this subparagraph and for a period or periods aggregating at least
seven years between the ages of five and 21 years, and (II) applies for a visa or adjustment of
status under this subparagraph no later than his twenty-fifth birthday or six months after the
date of enactment of the Immigration Technical Corrections Act of 1988 [enacted Oct. 24,
1988], whichever is later;
(ii)an immigrant who is the surviving spouse of a deceased officer or employee of such an
international organization, and who (I) while maintaining the status of a nonimmigrant under
paragraph (15)(G)(iv) or paragraph (15)(N), has resided and been physically present in the
United States for periods totaling at least one-half of the seven years before the date of
application for a visa or for adjustment of status to a status under this subparagraph and for a
period or periods aggregating at least 15 years before the date of the death of such officer or
employee, and (II) files a petition for status under this subparagraph no later than six months
after the date of such death or six months after the date of enactment of the Immigration
Technical Corrections Act of 1988 [enacted Oct. 24, 1988], whichever is later;
(iii)an immigrant who is a retired officer or employee of such an international organization, and
who (I) while maintaining the status of a nonimmigrant under paragraph (15)(G)(iv), has resided
and been physically present in the United States for periods totaling at least one-half of the
seven years before the date of application for a visa or for adjustment of status to a status
under this subparagraph and for a period or periods aggregating at least 15 years before the
date of the officer or employee’s retirement from any such international organization, and (II)
files a petition for status under this subparagraph no later than six months after the date of such
retirement or six months after the date of enactment of the Immigration and Nationality
Technical Corrections Act of 1994 [enacted Oct. 25, 1994], whichever is later; or
(iv)an immigrant who is the spouse of a retired officer or employee accorded the status of
special immigrant under clause (iii), accompanying or following to join such retired officer or
employee as a member of his immediate family;
(J)an immigrant who is present in the United States—
(i)who has been declared dependent on a juvenile court located in the United States or whom
such a court has legally committed to, or placed under the custody of, an agency or department
of a State, or an individual or entity appointed by a State or juvenile court located in the United
States, and whose reunification with 1 or both of the immigrant’s parents is not viable due to
abuse, neglect, abandonment, or a similar basis found under State law;

APPX 065

8 USCS § 1101, Part 1 of 3
(ii)for whom it has been determined in administrative or judicial proceedings that it would not be
in the alien’s best interest to be returned to the alien’s or parent’s previous country of nationality
or country of last habitual residence; and
(iii)in whose case the Secretary of Homeland Security consents to the grant of special
immigrant juvenile status, except that—
(I)no juvenile court has jurisdiction to determine the custody status or placement of an alien
in the custody of the Secretary of Health and Human Services unless the Secretary of
Health and Human Services specifically consents to such jurisdiction; and
(II)no natural parent or prior adoptive parent of any alien provided special immigrant status
under this subparagraph shall thereafter, by virtue of such parentage, be accorded any
right, privilege, or status under this Act;
(K)an immigrant who has served honorably on active duty in the Armed Forces of the United States
after October 15, 1978, and after original lawful enlistment outside the United States (under a treaty
or agreement in effect on the date of the enactment of this subparagraph) for a period or periods
aggregating—
(i)12 years and who, if separated from such service, was never separated except under
honorable conditions, or
(ii)6 years, in the case of an immigrant who is on active duty at the time of seeking special
immigrant status under this subparagraph and who has reenlisted to incur a total active duty
service obligation of at least 12 years,
and the spouse or child of any such immigrant if accompanying or following to join the immigrant,
but only if the executive department under which the immigrant serves or served recommends the
granting of special immigrant status to the immigrant;
(L)an immigrant who would be described in clause (i), (ii), (iii), or (iv) of subparagraph (I) if any
reference in such a clause—
(i)to an international organization described in paragraph (15)(G)(i) were treated as a reference
to the North Atlantic Treaty Organization (NATO);
(ii)to a nonimmigrant under paragraph (15)(G)(iv) were treated as a reference to a
nonimmigrant classifiable under NATO-6 (as a member of a civilian component accompanying
a force entering in accordance with the provisions of the NATO Status-of-Forces Agreement, a
member of a civilian component attached to or employed by an Allied Headquarters under the
“Protocol on the Status of International Military Headquarters” set up pursuant to the North
Atlantic Treaty, or as a dependent); and
(iii)to the Immigration Technical Corrections Act of 1988 or to the Immigration and Nationality
Technical Corrections Act of 1994 were a reference to the American Competitiveness and
Workforce Improvement Act of 1998[; or]
(M)subject to the numerical limitations of section 203(b)(4) [8 USCS § 1153(b)(4)], an immigrant
who seeks to enter the United States to work as a broadcaster in the United States for the
International Broadcasting Bureau of the Broadcasting Board of Governors [United States Agency
for Global Media], or for a grantee of the Broadcasting Board of Governors [United States Agency
for Global Media], and the immigrant’s accompanying spouse and children.
(28)The term “organization” means, but is not limited to, an organization, corporation, company,
partnership, association, trust, foundation or fund; and includes a group of persons, whether or not
incorporated, permanently or temporarily associated together with joint action on any subject or
subjects.
(29)The term “outlying possessions of the United States” means American Samoa and Swains Island.

APPX 066

8 USCS § 1101, Part 1 of 3
(30)The term “passport” means any travel document issued by competent authority showing the
bearer’s origin, identity, and nationality if any, which is valid for the admission of the bearer into a
foreign country.
(31)The term “permanent” means a relationship of continuing or lasting nature, as distinguished from
temporary, but a relationship may be permanent even though it is one that may be dissolved eventually
at the instance either of the United States or of the individual, in accordance with law.
(32)The term “profession” shall include but not be limited to architects, engineers, lawyers, physicians,
surgeons, and teachers in elementary or secondary schools, colleges, academies, or seminaries.
(33)The term “residence” means the place of general abode; the place of general abode of a person
means his principal, actual dwelling place in fact, without regard to intent.
(34)The term “Service” means the Immigration and Naturalization Service of the Department of Justice.
(35)The term [terms] “spouse,” “wife,” or “husband” do not include a spouse, wife, or husband by
reason of any marriage ceremony where the contracting parties thereto are not physically present in
the presence of each other, unless the marriage shall have been consummated.
(36)The term “State” includes the District of Columbia, Puerto Rico, Guam, the Virgin Islands of the
United States, and the Commonwealth of the Northern Mariana Islands.
(37)The term “totalitarian party” means an organization which advocates the establishment in the
United States of a totalitarian dictatorship or totalitarianism. The terms “totalitarian dictatorship” and
“totalitarianism” mean and refer to systems of government not representative in fact, characterized by
(A) the existence of a single political party, organized on a dictatorial basis, with so close an identity
between such party and its policies and the governmental policies of the country in which it exists, that
the party and the government constitute an indistinguishable unit, and (B) the forcible suppression of
opposition to such party.
(38)The term “United States,” except as otherwise specifically herein provided, when used in a
geographical sense, means the continental United States, Alaska, Hawaii, Puerto Rico, Guam, the
Virgin Islands of the United States, and the Commonwealth of the Northern Mariana Islands.
(39)The term “unmarried,” when used in reference to any individual as of any time, means an individual
who at such time is not married, whether or not previously married.
(40)The term “world communism” means a revolutionary movement, the purpose of which is to
establish eventually a Communist totalitarian dictatorship in any or all the countries of the world through
the medium of an internationally coordinated Communist political movement.
(41)The term “graduates of a medical school” means aliens who have graduated from a medical school
or who have qualified to practice medicine in a foreign state, other than such aliens who are of national
or international renown in the field of medicine.
(42)The term “refugee” means (A) any person who is outside any country of such person’s nationality
or, in the case of a person having no nationality, is outside any country in which such person last
habitually resided, and who is unable or unwilling to return to, and is unable or unwilling to avail himself
or herself of the protection of, that country because of persecution or a well-founded fear of persecution
on account of race, religion, nationality, membership in a particular social group, or political opinion, or
(B) in such special circumstances as the President after appropriate consultation (as defined in section
207(e) of this Act [8 USCS § 1157(e)]) may specify, any person who is within the country of such
person’s nationality or, in the case of a person having no nationality, within the country in which such
person is habitually residing, and who is persecuted or who has a well-founded fear of persecution on
account of race, religion, nationality, membership in a particular social group, or political opinion. The
term “refugee” does not include any person who ordered, incited, assisted, or otherwise participated in
the persecution of any person on account of race, religion, nationality, membership in a particular social
group, or political opinion. For purposes of determinations under this Act, a person who has been

APPX 067

8 USCS § 1101, Part 1 of 3
forced to abort a pregnancy or to undergo involuntary sterilization, or who has been persecuted for
failure or refusal to undergo such a procedure or for other resistance to a coercive population control
program, shall be deemed to have been persecuted on account of political opinion, and a person who
has a well founded fear that he or she will be forced to undergo such a procedure or subject to
persecution for such failure, refusal, or resistance shall be deemed to have a well founded fear of
persecution on account of political opinion.
(43)The term “aggravated felony” means—
(A)murder, rape, or sexual abuse of a minor;
(B)illicit trafficking in a controlled substance (as defined in section 102 of the Controlled Substances
Act [21 USCS § 802]), including a drug trafficking crime (as defined in section 924(c) of title 18,
United States Code);
(C)illicit trafficking in firearms or destructive devices (as defined in section 921 of title 18, United
States Code) or in explosive materials (as defined in section 841(c) of that title);
(D)an offense described in section 1956 of title 18, United States Code (relating to laundering of
monetary instruments) or section 1957 of that title (relating to engaging in monetary transactions in
property derived from specific unlawful activity) if the amount of the funds exceeded $10,000;
(E)an offense described in—
(i)section 842 (h) or (i) of title 18, United States Code, or section 844 (d), (e), (f), (g), (h), or (i)
of that title (relating to explosive materials offenses);
(ii)section 922(g) (1), (2), (3), (4), or (5), (j), (n), (o), (p), or (r) or 924 (b) or (h) of title 18, United
States Code (relating to firearms offenses); or
(iii)section 5861 of the Internal Revenue Code of 1986[26 USCS § 5861] (relating to firearms
offenses);
(F)a crime of violence (as defined in section 16 of title 18, United States Code, but not including a
purely political offense) for which the term of imprisonment [is] at least one year;
(G)a theft offense (including receipt of stolen property) or burglary offense for which the term of
imprisonment [is] at least one year;
(H)an offense described in section 875, 876, 877, or 1202 of title 18, United States Code (relating
to the demand for or receipt of ransom);
(I)an offense described in section 2251, 2251A, or 2252 of title 18, United States Code (relating to
child pornography);
(J)an offense described in section 1962 of title 18, United States Code (relating to racketeer
influenced corrupt organizations), or an offense described in section 1084 (if it is a second or
subsequent offense) or 1955 of that title (relating to gambling offenses), for which a sentence of
one year imprisonment or more may be imposed;
(K)an offense that—
(i)relates to the owning, controlling, managing, or supervising of a prostitution business;
(ii)is described in section 2421, 2422, or 2423 of title 18, United States Code (relating to
transportation for the purpose of prostitution) if committed for commercial advantage; or
(iii)is described in any of sections 1581–1585 or 1588–1591 of title 18, United States Code
(relating to peonage, slavery, involuntary servitude, and trafficking in persons);
(L)an offense described in—

APPX 068

8 USCS § 1101, Part 1 of 3
(i)section 793 (relating to gathering or transmitting national defense information), 798 (relating
to disclosure of classified information), 2153 (relating to sabotage) or 2381 or 2382 (relating to
treason) of title 18, United States Code;
(ii)section 601 of the National Security Act of 1947 [50 USCS § 421] (relating to protecting the
identity of undercover intelligence agents);
(iii)section 601 of the National Security Act of 1947 [50 USCS § 421] (relating to protecting the
identity of undercover agents);
(M)an offense that—
(i)involves fraud or deceit in which the loss to the victim or victims exceeds $10,000; or
(ii)is described in section 7201 of the Internal Revenue Code of 1986 [26 USCS § 7201]
(relating to tax evasion) in which the revenue loss to the Government exceeds $10,000;
(N)an offense described in paragraph (1)(A) or (2) of section 274(a) [8 USCS § 1324(a)(1)(A) or
(2)] (relating to alien smuggling), except in the case of a first offense for which the alien has
affirmatively shown that the alien committed the offense for the purpose of assisting, abetting, or
aiding only the alien’s spouse, child, or parent (and no other individual) to violate a provision of this
Act[;]
(O)an offense described in section 275(a) or 276 [8 USCS § 1325(a) or 1326] committed by an
alien who was previously deported on the basis of a conviction for an offense described in another
subparagraph of this paragraph;
(P)an offense (i) which either is falsely making, forging, counterfeiting, mutilating, or altering a
passport or instrument in violation of section 1543 of title 18, United States Code, or is described in
section 1546(a) of such title (relating to document fraud) and (ii) for which the term of imprisonment
is at least 12 months, except in the case of a first offense for which the alien has affirmatively
shown that the alien committed the offense for the purpose of assisting, abetting, or aiding only the
alien’s spouse, child, or parent (and no other individual) to violate a provision of this Act;
(Q)an offense relating to a failure to appear by a defendant for service of sentence if the underlying
offense is punishable by imprisonment for a term of 5 years or more;
(R)an offense relating to commercial bribery, counterfeiting, forgery, or trafficking in vehicles the
identification numbers of which have been altered for which the term of imprisonment is at least
one year;
(S)an offense relating to obstruction of justice, perjury or subornation of perjury, or bribery of a
witness, for which the term of imprisonment is at least one year;
(T)an offense relating to a failure to appear before a court pursuant to a court order to answer to or
dispose of a charge of a felony for which a sentence of 2 years’ imprisonment or more may be
imposed; and
(U)an attempt or conspiracy to commit an offense described in this paragraph.
The term applies to an offense described in this paragraph whether in violation of Federal or State law
and applies to such an offense in violation of the law of a foreign country for which the term of
imprisonment was completed within the previous 15 years. Notwithstanding any other provision of law
(including any effective date), the term applies regardless of whether the conviction was entered
before, on, or after the date of enactment of this paragraph.
(44)
(A)The term “managerial capacity” means an assignment within an organization in which the
employee primarily—

APPX 069

8 USCS § 1101, Part 1 of 3
(i)manages the organization, or a department, subdivision, function, or component of the
organization;
(ii)supervises and controls the work of other supervisory, professional, or managerial
employees, or manages an essential function within the organization, or a department or
subdivision of the organization;
(iii)if another employee or other employees are directly supervised, has the authority to hire
and fire or recommend those as well as other personnel actions (such as promotion and leave
authorization) or, if no other employee is directly supervised, functions at a senior level within
the organizational hierarchy or with respect to the function managed; and
(iv)exercises discretion over the day-to-day operations of the activity or function for which the
employee has authority.
A first-line supervisor is not considered to be acting in a managerial capacity merely by virtue of the
supervisor’s supervisory duties unless the employees supervised are professional.
(B)The term “executive capacity” means an assignment within an organization in which the
employee primarily—
(i)directs the management of the organization or a major component or function of the
organization;
(ii)establishes the goals and policies of the organization, component, or function;
(iii)exercises wide latitude in discretionary decision-making; and
(iv)receives only general supervision or direction from higher level executives, the board of
directors, or stockholders of the organization.
(C)If staffing levels are used as a factor in determining whether an individual is acting in a
managerial or executive capacity, the Attorney General shall take into account the reasonable
needs of the organization, component, or function in light of the overall purpose and stage of
development of the organization, component, or function. An individual shall not be considered to
be acting in a managerial or executive capacity (as previously defined) merely on the basis of the
number of employees that the individual supervises or has supervised or directs or has directed.
(45)The term “substantial” means, for purposes of paragraph (15)(E) with reference to trade or capital,
such an amount of trade or capital as is established by the Secretary of State, after consultation with
appropriate agencies of Government.
(46)The term “extraordinary ability” means, for purposes of section 101(a)(15)(O)(i) [8 USCS §
1101(a)(15)(O)(i)], in the case of the arts, distinction.
(47)
(A)The term “order of deportation” means the order of the special inquiry officer, or other such
administrative officer to whom the Attorney General has delegated the responsibility for determining
whether an alien is deportable, concluding that the alien is deportable or ordering deportation.
(B)The order described under subparagraph (A) shall become final upon the earlier of—
(i)a determination by the Board of Immigration Appeals affirming such order; or
(ii)the expiration of the period in which the alien is permitted to seek review of such order by
the Board of Immigration Appeals.
(48)
(A)The term “conviction” means, with respect to an alien, a formal judgment of guilt of the alien
entered by a court or, if adjudication of guilt has been withheld, where—

APPX 070

8 USCS § 1101, Part 1 of 3
(i)a judge or jury has found the alien guilty or the alien has entered a plea of guilty or nolo
contendere or has admitted sufficient facts to warrant a finding of guilt, and
(ii)the judge has ordered some form of punishment, penalty, or restraint on the alien’s liberty to
be imposed.
(B)Any reference to a term of imprisonment or a sentence with respect to an offense is deemed to
include the period of incarceration or confinement ordered by a court of law regardless of any
suspension of the imposition or execution of that imprisonment or sentence in whole or in part.
(49)The term “stowaway” means any alien who obtains transportation without the consent of the owner,
charterer, master or person in command of any vessel or aircraft through concealment aboard such
vessel or aircraft. A passenger who boards with a valid ticket is not to be considered a stowaway.
(50)The term “intended spouse” means any alien who meets the criteria set forth in section
204(a)(1)(A)(iii)(II)(aa)(BB), 204(a)(1)(B)(ii)(II)(aa)(BB), or 240A(b)(2)(A)(i)(III) [8 USCS §
1154(a)(1)(A)(iii)(II)(aa)(BB), 1154(a)(1)(B)(ii)(II)(aa)(BB), or 1229b(b)(2)(A)(i)(III)].
(51)The term “VAWA self-petitioner” means an alien, or a child of the alien, who qualifies for relief
under—
(A)clause (iii), (iv), or (vii) of section 204(a)(1)(A) [8 USCS § 1154(a)(1)(A)];
(B)clause (ii) or (iii) of section 204(a)(1)(B) [8 USCS § 1154(a)(1)(B)];
(C)section 216(c)(4)(C) [8 USCS § 1186(c)(4)(C)];
(D)the first section of Public Law 89-732 (8 U.S.C. 1255 note) (commonly known as the Cuban
Adjustment Act) as a child or spouse who has been battered or subjected to extreme cruelty;
(E)section 902(d)(1)(B) of the Haitian Refugee Immigration Fairness Act of 1998 (8 U.S.C. 1255
note);
(F)section 202(d)(1) of the Nicaraguan Adjustment and Central American Relief Act [8 USCS §
1255 note]; or
(G)section 309 of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996 [note to
this section] (division C of Public Law 104-208).
(52)The term “accredited language training program” means a language training program that is
accredited by an accrediting agency recognized by the Secretary of Education.
(b)As used in titles I and II [8 USCS §§ 1101 et seq., 1151 et seq.]—
(1)The term “child” means an unmarried person under twenty-one years of age who is—
(A)a child born in wedlock;
(B)a stepchild, whether or not born out of wedlock, provided the child had not reached the age of
eighteen years at the time the marriage creating the status of stepchild occurred;
(C)a child legitimated under the law of the child’s residence or domicile, or under the law of the
father’s residence or domicile, whether in or outside the United States, if such legitimation takes
place before the child reaches the age of eighteen years and the child is in the legal custody of the
legitimating parent or parents at the time of such legitimation;
(D)a child born out of wedlock, by, through whom, or on whose behalf a status, privilege, or benefit
is sought by virtue of the relationship of the child to its natural mother or to its natural father if the
father has or had a bona fide parent-child relationship with the person;
(E)
(i)a child adopted while under the age of sixteen years if the child has been in the legal custody
of, and has resided with, the adopting parent or parents for at least two years or if the child has

APPX 071

8 USCS § 1101, Part 1 of 3
been battered or subject to extreme cruelty by the adopting parent or by a family member of the
adopting parent residing in the same household: Provided, That no natural parent of any such
adopted child shall thereafter, by virtue of such parentage, be accorded any right, privilege, or
status under this Act; or
(ii)subject to the same proviso as in clause (i), a child who: (I) is a natural sibling of a child
described in clause (i) or subparagraph (F)(i); (II) was adopted by the adoptive parent or
parents of the sibling described in such clause or subparagraph; and (III) is otherwise
described in clause (i), except that the child was adopted while under the age of 18 years;
(F)
(i)a child, under the age of sixteen at the time a petition is filed in his behalf to accord a
classification as an immediate relative under section 201(b) [8 USCS § 1151(b)], who is an
orphan because of the death or disappearance of, abandonment or desertion by, or separation
or loss from, both parents, or for whom the sole or surviving parent is incapable of providing the
proper care and has in writing irrevocably released the child for emigration and adoption; who
has been adopted abroad by a United States citizen and spouse jointly, or by an unmarried
United States citizen who is at least 25 years of age, at least 1 of whom personally saw and
observed the child before or during the adoption proceedings; or who is coming to the United
States for adoption by a United States citizen and spouse jointly, or by an unmarried United
States citizen at least twenty-five years of age, who have or has complied with the preadoption
requirements, if any, of the child’s proposed residence: Provided, That the Attorney General is
satisfied that proper care will be furnished the child if admitted to the United States: Provided
further, That no natural parent or prior adoptive parent of any such child shall thereafter, by
virtue of such parentage, be accorded any right, privilege, or status under this Act; or
(ii)subject to the same provisos as in clause (i), a child who: (I) is a natural sibling of a child
described in clause (i) or subparagraph (E)(i); (II) has been adopted abroad, or is coming to the
United States for adoption, by the adoptive parent (or prospective adoptive parent) or parents
of the sibling described in such clause or subparagraph; and (III) is otherwise described in
clause (i), except that the child is under the age of 18 at the time a petition is filed in his or her
behalf to accord a classification as an immediate relative under section 201(b) [8 USCS §
1151(b)]; or
(G)
(i)a child, younger than 16 years of age at the time a petition is filed on the child’s behalf to
accord a classification as an immediate relative under section 201(b) [8 USCS § 1151(b)], who
has been adopted in a foreign state that is a party to the Convention on Protection of Children
and Co-operation in Respect of Intercountry Adoption, done at The Hague on May 29, 1993, or
who is emigrating from such a foreign state to be adopted in the United States by a United
States citizen and spouse jointly or by an unmarried United States citizen who is at least 25
years of age, Provided, That—
(I)the Secretary of Homeland Security is satisfied that proper care will be furnished the
child if admitted to the United States;
(II)the child’s natural parents (or parent, in the case of a child who has one sole or surviving
parent because of the death or disappearance of, abandonment or desertion by, the other
parent), or other persons or institutions that retain legal custody of the child, have freely
given their written irrevocable consent to the termination of their legal relationship with the
child, and to the child’s emigration and adoption;
(III)in the case of a child having two living natural parents, the natural parents are incapable
of providing proper care for the child;

APPX 072

8 USCS § 1101, Part 1 of 3
(IV)the Secretary of Homeland Security is satisfied that the purpose of the adoption is to
form a bona fide parent-child relationship, and the parent-child relationship of the child and
the natural parents has been terminated (and in carrying out both obligations under this
subclause the Secretary of Homeland Security may consider whether there is a petition
pending to confer immigrant status on one or both of such natural parents); and
(V)in the case of a child who has not been adopted—
(aa)the competent authority of the foreign state has approved the child’s emigration to
the United States for the purpose of adoption by the prospective adoptive parent or
parents; and
(bb)the prospective adoptive parent or parents has or have complied with any preadoption requirements of the child’s proposed residence; and
(ii)except that no natural parent or prior adoptive parent of any such child shall thereafter, by
virtue of such parentage, be accorded any right, privilege, or status under this chapter; or
(iii)subject to the same provisos as in clauses (i) and (ii), a child who—
(I)is a natural sibling of a child described in clause (i), subparagraph (E)(i), or subparagraph
(F)(i);
(II)was adopted abroad, or is coming to the United States for adoption, by the adoptive
parent (or prospective adoptive parent) or parents of the sibling described in clause (i),
subparagraph (E)(i), or subparagraph (F)(i); and
(III)is otherwise described in clause (i), except that the child is younger than 18 years of
age at the time a petition is filed on his or her behalf for classification as an immediate
relative under section 201(b) [8 USCS § 1151(b)].
(2)The terms “parent,” “father,” or “mother” mean a parent, father, or mother only where the relationship
exists by reason of any of the circumstances set forth in (1) above, except that, for purposes of
paragraph (1)(F) (other than the second proviso therein) and paragraph (1)(G)(i) in the case of a child
born out of wedlock described in paragraph (1)(D) (and not described in paragraph (1)(C)), the term
“parent” does not include the natural father of the child if the father has disappeared or abandoned or
deserted the child or if the father has in writing irrevocably released the child for emigration and
adoption.
(3)The term “person” means an individual or an organization.
(4)The term “immigration judge” means an attorney whom the Attorney General appoints as an
administrative judge within the Executive Office for Immigration Review, qualified to conduct specified
classes of proceedings, including a hearing under section 240 [8 USCS § 1229a]. An immigration judge
shall be subject to such supervision and shall perform such duties as the Attorney General shall
prescribe, but shall not be employed by the Immigration and Naturalization Service.
(5)The term “adjacent islands” includes Saint Pierre, Miquelon, Cuba, the Dominican Republic, Haiti,
Bermuda, the Bahamas, Barbados, Jamaica, the Windward and Leeward Islands, Trinidad, Martinique,
and other British, French, and Netherlands territory or possessions in or bordering on the Caribbean
Sea.
(c)As used in title III [8 USCS §§ 1401 et seq.]—
(1)The term “child” means an unmarried person under twenty-one years of age and includes a child
legitimated under the law of the child’s residence or domicile, or under the law of the father’s residence
or domicile, whether in the United States or elsewhere, and, except as otherwise provided in sections
320 and 321 of title III [8 USCS §§ 1431, 1432], a child adopted in the United States, if such
legitimation or adoption takes place before the child reaches the age of 16 years (except to the extent
that the child is described in subparagraph (E)(ii) or (F)(ii) of subsection (b)(1)), and the child is in the

APPX 073

8 USCS § 1101, Part 1 of 3
legal custody of the legitimating or adopting parent or parents at the time of such legitimation or
adoption.
(2)The terms “parent,” “father,” and “mother” include in the case of a posthumous child a deceased
parent, father, and mother.
(d)[Repealed]
(e)For the purposes of this Act—
(1)The giving, loaning, or promising of support or of money or any other thing of value to be used for
advocating any doctrine shall constitute the advocating of such doctrine; but nothing in this paragraph
shall be construed as an exclusive definition of advocating.
(2)The giving, loaning, or promising of support or of money or any other thing of value for any purpose
to any organization shall be presumed to constitute affiliation therewith; but nothing in this paragraph
shall be construed as an exclusive definition of affiliation.
(3)Advocating the economic, international, and governmental doctrines of world communism means
advocating the establishment of a totalitarian Communist dictatorship in any or all of the countries of
the world through the medium of an internationally coordinated Communist movement.
(f)For the purposes of this Act—
No person shall be regarded as, or found to be, a person of good moral character who, during the period for
which good moral character is required to be established, is, or was—
(1)a habitual drunkard;
(2)[Repealed]
(3)a member of one or more of the classes of persons, whether inadmissible or not, described in
paragraphs (2)(D), (6)(E), and (10)(A) of section 212(a) of this Act [8 USCS § 1182(a)]; or
subparagraphs (A) and (B) of section 212(a)(2) [8 USCS § 1182(a)(2)] and subparagraph (C) thereof
[of such section] (except as such paragraph relates to a single offense of simple possession of 30
grams or less of marihuana), if the offense described therein, for which such person was convicted or of
which he admits the commission, was committed during such period;
(4)one whose income is derived principally from illegal gambling activities;
(5)one who has been convicted of two or more gambling offenses committed during such period;
(6)one who has given false testimony for the purpose of obtaining any benefits under this Act;
(7)one who during such period has been confined, as a result of conviction, to a penal institution for an
aggregate period of one hundred and eighty days or more, regardless of whether the offense, or
offenses, for which he has been confined were committed within or without such period;
(8)one who at any time has been convicted of an aggravated felony (as defined in subsection (a)(43));
or
(9)one who at any time has engaged in conduct described in section 212(a)(3)(E) [8 USCS §
1182(a)(3)(E)] (relating to assistance in Nazi persecution, participation in genocide, or commission of
acts of torture or extrajudicial killings) or 212(a)(2)(G) [8 USCS § 1182(a)(2)(G)] (relating to severe
violations of religious freedom).
The fact that any person is not within any of the foregoing classes shall not preclude a finding that for other
reasons such person is or was not of good moral character. In the case of an alien who makes a false
statement or claim of citizenship, or who registers to vote or votes in a Federal, State, or local election
(including an initiative, recall, or referendum) in violation of a lawful restriction of such registration or voting
to citizens, if each natural parent of the alien (or, in the case of an adopted alien, each adoptive parent of
the alien) is or was a citizen (whether by birth or naturalization), the alien permanently resided in the United

APPX 074

8 USCS § 1101, Part 1 of 3
States prior to attaining the age of 16, and the alien reasonably believed at the time of such statement,
claim, or violation that he or she was a citizen, no finding that the alien is, or was, not of good moral
character may be made based on it.
(g)For the purposes of this Act any alien ordered deported or removed (whether before or after the enactment
of this Act [enacted June 27, 1952]) who has left the United States, shall be considered to have been deported
or removed in pursuance of law, irrespective of the source from which the expenses of his transportation were
defrayed or of the place to which he departed.
(h)For purposes of section 212(a)(2)(E) [8 USCS § 1182(a)(2)(E)], the term “serious criminal offense” means—
(1)any felony;
(2)any crime of violence, as defined in section 16 of title 18 of the United States Code; or
(3)any crime of reckless driving or of driving while intoxicated or under the influence of alcohol or of
prohibited substances if such crime involves personal injury to another.
(i)With respect to each nonimmigrant alien described in subsection (a)(15)(T)(i)—
(1)the Secretary of Homeland Security, the Attorney General, and other Government officials, where
appropriate, shall provide the alien with a referral to a nongovernmental organization that would advise
the alien regarding the alien’s options while in the United States and the resources available to the
alien; and
(2)the Secretary of Homeland Security shall, during the period the alien is in lawful temporary resident
status under that subsection, grant the alien authorization to engage in employment in the United
States and provide the alien with an “employment authorized” endorsement or other appropriate work
permit.

History

HISTORY:
Act June 27, 1952, ch 477, Title I, § 101, 66 Stat. 166; Sept. 11, 1957, P. L. 85-316, §§ 1, 2, 71 Stat. 639; July 7,
1958, P. L. 85-508, § 22, 72 Stat. 351; March 18, 1959, P. L. 86-3, § 20(a), 73 Stat. 13; Sept. 21, 1961, P. L. 87256, § 109(a), (b), 75 Stat. 534; Sept. 26, 1961, P. L. 87-301, §§ 1, 2, 7, 75 Stat. 650, 653; Oct. 3, 1965, P. L. 89236, §§ 8, 24, 79 Stat. 916, 922; Nov. 2, 1966, P. L. 89-710, 80 Stat. 1104; April 7, 1970, P. L. 91-225, § 1, 84 Stat.
116; Dec. 16, 1975, P. L. 94-155, 89 Stat. 824; Oct. 12, 1976, P. L. 94-484, Title VI, § 601(b), (e), 90 Stat. 2301,
2302; Oct. 20, 1976, P. L. 94-571, § 7(a), 90 Stat. 2706; Oct. 12, 1976, P. L. 94-484, Title VI, § 602(c), as added
Aug. 1, 1977, P. L. 95-83, Title III, § 307(q)(3), 91 Stat. 395; Aug. 17, 1977, P. L. 95-105, Title I, § 109(b)(3), 91 Stat
847; Sept. 27, 1979, P. L. 96-70, Title III, Ch 1, § 3201(a), 93 Stat. 496; March 17, 1980, P. L. 96-212, Title II, §
201(a), 94 Stat. 102; Dec. 29, 1981, P. L. 97-116, §§ 2, 5(d)(1), 18(a), 95 Stat. 1611, 1614, 1619; Oct. 30, 1984,
Priv. L. 98-47, § 3, 98 Stat. 3435; Oct. 21, 1986, P. L. 99-505, § 1, 100 Stat. 1806; Nov. 6, 1986, P. L. 99-603, Title
III, Part A, § 301(a), Part B, §§ 312, 315(a), 100 Stat. 3411, 3434, 3439; Nov. 14, 1986, P. L. 99-653, §§ 2, 3, 100
Stat. 3655; Oct. 1, 1988, P. L. 100-459, Title II, § 210(a), 102 Stat. 2203; Oct. 24, 1988, P. L. 100-525, §§ 2(o)(1),
8(b), 9(a), 102 Stat. 2613, 2617, 2619; Nov. 18, 1988, P. L. 100-690, Title VII, Subtitle J, § 7342, 102 Stat. 4469;
Nov. 21, 1989, P. L. 101-162, Title VI, § 611(a), 103 Stat. 1038; Dec. 18, 1989, P. L. 101-238, § 3(a), 103 Stat.
2100; Feb. 16, 1990, P. L. 101-246, Title I, Part C, § 131(b), 104 Stat. 31; Nov. 29, 1990, P. L. 101-649, Title I,
Subtitle B, Part 2, § 123, Subtitle D, §§ 151(a), 153(a), Subtitle E, § 161(f)(2)(A), Title II, Subtitle A, §§ 203(c),
204(a), (c), 205(c)(1), (d), (e), 206(c), 207(a), 208, 209, Title IV, § 407(a)(2), Title V, Subtitle A, §§ 501(a), 509(a),
Title VI, § 603(a)(1), 104 Stat. 4995, 5004, 5005, 5012, 5018, 5019, 5020, 5023, 5026, 5027, 5040, 5048, 5051,
5082; Oct. 1, 1991, P. L. 102-110, § 2(a), 105 Stat. 555; Dec. 12, 1991, P. L. 102-232, Title II, §§ 203(a), 205(a)–
(c), 206(b), (c)(1), (d), 207(b), 302(e)(8)(A), 303(a)(5)(A), (7)(A), 305(m)(1), 306(a)(1), 309(b)(1), 105 Stat. 1737,
1740, 1741, 1746, 1747, 1748, 1750, 1751, 1758; April 30, 1994, P. L. 103-236, Title I, Part C, § 162(h)(1), 108

APPX 075

8 USCS § 1101, Part 1 of 3
Stat. 407; Sept. 13, 1994, P. L. 103-322, Title XIII, § 130003(a), 108 Stat. 2024; Oct. 5, 1994, P. L. 103-337, Div C,
Title XXXVI, § 3605, 108 Stat. 3113; Oct. 25, 1994, P. L. 103-416, Title II, §§ 201, 202, 214, 219(a), 222(a), 108
Stat. 4310, 4311, 4314, 4316, 4320; Nov. 15, 1995, P. L. 104-51, § 1, 109 Stat. 467; April 24, 1996, P. L. 104-132,
Title IV, Subtitle D, § 440(b), (e), 110 Stat. 1277; Sept. 30, 1996, P. L. 104-208, Div C, Title I, Subtitle A, § 104(a),
Title III, Subtitle A, §§ 301(a), 308(d)(3)(A), (4)(A), (e)(3), (f)(1)(A), (B), Subtitle B, §§ 321(a), (b), 322(a)(1), (2)(A),
Subtitle E, § 361(a), Subtitle F, § 371(a), Title VI, Subtitle A, § 601(a), Subtitle B, § 625(a)(2), Subtitle E, §
671(a)(3)(B), (b)(5), (e)(2), 110 Stat. 3009-555, 3009-575, 3009-617, 3009-620, 3009-621, 3009-627, 3009-629,
3009-644, 3009-645, 3009-689, 3009-700, 3009-721, 3009-722, 3009-723; Oct. 6, 1997, P. L. 105-54, § 1(a), 111
Stat. 1175; Nov. 26, 1997, P. L. 105-119, Title I, § 113, 111 Stat. 2460; Oct. 21, 1998, P. L. 105-277, Div C, Title IV,
§ 421, Div G, Title XXII, Ch 2, § 2222(e), 112 Stat. 2681-657, 2681-819; Oct. 30, 1998, P. L. 105-319, § 2(b), (d)(2),
112 Stat. 3014, 3015; Nov. 12, 1999, P. L. 106-95, § 2(a), (c), 113 Stat. 1312, 1316; Dec. 7, 1999, P. L. 106-139, §
1(a), (b)(1), 113 Stat. 1696; Oct. 6, 2000, P. L. 106-279, Title III, § 302(a), (c), 114 Stat. 838, 839; Oct. 28, 2000, P.
L. 106-386, Div A, § 107(e)(1), (4), Div B, Title V, §§ 1503(a), 1513(b), 114 Stat. 1477, 1479, 1518, 1534; Oct. 30,
2000, P. L. 106-395, Title II, § 201(a)(1), 114 Stat. 1633; Nov. 1, 2000, P. L. 106-409, § 2(a), 114 Stat. 1787; Nov.
22, 2000, P. L. 106-536, § 1(a), 114 Stat. 2560; Dec. 21, 2000, P. L. 106-553, § 1(a)(2), 114 Stat. 2762; Jan. 16,
2002, P. L. 107-125, § 2(b), 115 Stat. 2403; Oct. 4, 2002, P. L. 107-234, § 1(4), 116 Stat. 1481; Nov. 2, 2002, P. L.
107-274, § 2(a), (b), 116 Stat. 1923; Sept. 3, 2003, P. L. 108-77, Title IV, § 402(a)(1), 117 Stat. 939; Oct. 15, 2003,
P. L. 108-99, § 1, 117 Stat. 1176; Dec. 19, 2003, P. L. 108-193, §§ 4(b)(1), (5), 8(a)(1), 117 Stat. 2878, 2879, 2886;
Dec. 10, 2004, P. L. 108-449, § 1(a)(2)(B), (3)(A), (b)(1), 118 Stat. 3469, 3470; Dec. 17, 2004, P. L. 108-458, Title
V, Subtitle E, § 5504, 118 Stat. 3741; May 11, 2005, P. L. 109-13, Div B, Title V, § 501(a), 119 Stat. 321; Oct. 18,
2005, P. L. 109-90, Title V, § 536, 119 Stat. 2087; Jan. 5, 2006, P. L. 109-162, Title VIII, Subtitle A, §§ 801, 805(d),
Subtitle B, § 811, Subtitle C, § 822(c)(1), 119 Stat. 3053, 3056, 3057, 3063; July 27, 2006, P. L. 109-248, Title IV, §
402(b), 120 Stat. 623; May 8, 2008, P. L. 110-229, Title VII, Subtitle A, § 702(j)(1)–(3), 122 Stat. 866; Oct. 10, 2008,
P. L. 110-391, § 2(a), 122 Stat. 4193; Dec. 23, 2008, P. L. 110-457, Title II, Subtitle A, § 201(a), Subtitle D, §
235(d)(1), 122 Stat. 5052, 5079; March 20, 2009, P. L. 111-9, § 1, 123 Stat. 989; Oct. 28, 2009, P. L. 111-83, Title
V, § 568(a)(1), 123 Stat. 2186; Nov. 30, 2010, P. L. 111-287, § 3, 124 Stat. 3058; Dec. 14, 2010, P. L. 111-306, §
1(a), 124 Stat. 3280; Sept. 28, 2012, P. L. 112-176, § 3, 126 Stat. 1325; March 7, 2013, P. L. 113-4, Title VIII, §
801, Title XII, Subtitle B, Part II, §§ 1221, 1222, 127 Stat. 110, 144; Jan. 17, 2014, P. L. 113-76, Div K, Title VII, §
7083, 128 Stat. 567.

United States Code Service
Copyright © 2020 Matthew Bender & Company, Inc.
a member of the LexisNexis Group (TM)
All rights reserved. All rights reserved.

End of Document

APPX 076

F. Any other material the petitioner believes essential to
understand the petition.
1) District Court Jury Instructions

APPX 077

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 1 of 27 PageID #: 2308

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
UNITED STATES OF AMERICA
v.
HEON JONG YOO
a/k/a “HANK YOO”

§
§
§
§
§
§

No. 6:18-CR-16-RWS-KNM

JURY INSTRUCTIONS
JURY INSTRUCTION NO. 1
COURT’S INSTRUCTIONS TO THE JURY
AT THE CONCLUSION OF TRIAL
Members of the Jury:
In any jury trial there are, in effect, two judges. I am one of the
judges; the other is the jury. It is my duty to preside over the trial and to
decide what evidence is proper for your consideration. It is also my duty at
the end of the trial to explain to you the rules of law that you must follow
and apply in arriving at your verdict.
First, I will give you some general instructions which apply in every
case, for example, instructions about burden of proof and how to judge the
believability of witnesses. Then I will give you some specific rules of law
about this particular case, and finally I will explain to you the procedures
you should follow in your deliberations.

19-40465.1133

APPX 078

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 2 of 27 PageID #: 2309

JURY INSTRUCTION NO. 2
DUTY TO FOLLOW INSTRUCTIONS
You, as jurors, are the judges of the facts. But in determining what
actually happened—that is, in reaching your decision as to the facts—it is
your sworn duty to follow all of the rules of law as I explain them to you.
You have no right to disregard or give special attention to any one
instruction, or to question the wisdom or correctness of any rule I may state
to you. You must not substitute or follow your own notion or opinion of
what the law is or ought to be. It is your duty to apply the law as I explain it
to you, regardless of the consequences.
It is also your duty to base your verdict solely upon the evidence,
without prejudice or sympathy. That was the promise you made and the
oath you took before being accepted by the parties as jurors, and they have
the right to expect nothing less.

Page 2 of 27
19-40465.1134

APPX 079

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 3 of 27 PageID #: 2310

JURY INSTRUCTION NO. 3
PRESUMPTION OF INNOCENCE, BURDEN
OF PROOF, REASONABLE DOUBT
The superseding indictment or formal charge against the defendant is
not evidence of guilt. Indeed, the defendant is presumed by the law to be
innocent. The defendant begins with a clean slate. The law does not require
a defendant to prove his innocence or produce any evidence at all.
The government has the burden of proving defendant’s guilt beyond a
reasonable doubt, and if it fails to do so, you must acquit the defendant.
While the government’s burden of proof is a strict or heavy burden, it is not
necessary that the defendant’s guilt be proven beyond all possible doubt. It
is only required that the government’s proof exclude any “reasonable doubt”
concerning the defendant’s guilt.
A “reasonable doubt” is a doubt based upon reason and common
sense after careful and impartial consideration of all the evidence in the case.
Proof beyond a reasonable doubt, therefore, is proof of such a convincing
character that you would be willing to rely and act upon it without hesitation
in making the most important decisions of your own affairs.

Page 3 of 27
19-40465.1135

APPX 080

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 4 of 27 PageID #: 2311

JURY INSTRUCTION NO. 4
EVIDENCE—EXCLUDING WHAT IS NOT EVIDENCE
As I told you earlier, it is your duty to determine the facts. To do so,
you must consider only the evidence presented during the trial. Evidence is
the sworn testimony of the witnesses, including stipulations, and the
exhibits. The questions, statements, objections, and arguments made by the
lawyers are not evidence.
The function of the lawyers is to point out those things that are most
significant or most helpful to their side of the case, and in so doing to call
your attention to certain facts or inferences that might otherwise escape your
notice. In the final analysis, however, it is your own recollection and
interpretation of the evidence that controls in the case. What the lawyers say
is not binding upon you.
During the trial I sustained objections to certain questions and
exhibits. You must disregard those questions and exhibits entirely. Do not
speculate as to what the witness would have said if permitted to answer the
question or as to the contents of an exhibit. Also, certain testimony or other
evidence has been ordered stricken from the record and you have been
instructed to disregard this evidence. Do not consider any testimony or other
evidence which has been stricken in reaching your decision. Your verdict
must be based solely on the legally admissible evidence and testimony.
Page 4 of 27
19-40465.1136

APPX 081

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 5 of 27 PageID #: 2312

Also, do not assume from anything I may have done or said during the
trial that I have any opinion concerning any of the issues in this case.
Except for the instruction to you on the law, you should disregard anything I
may have said during the trial in arriving at your own findings as to the
facts.

Page 5 of 27
19-40465.1137

APPX 082

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 6 of 27 PageID #: 2313

JURY INSTRUCTION NO. 5
EVIDENCE—INFERENCES—DIRECT AND CIRCUMSTANTIAL
In considering the evidence, you are permitted to draw such
reasonable inferences from the testimony and exhibits as you feel are
justified in the light of common experience. In other words, you may make
deductions and reach conclusions that reason and common sense lead you to
draw from the facts which have been established by the evidence.
Do not be concerned about whether evidence is “direct evidence” or
“circumstantial evidence.” You should consider and weigh all of the
evidence that was presented to you.
“Direct evidence” is the testimony of one who asserts actual
knowledge of a fact, such as an eye witness. “Circumstantial evidence” is
proof of a chain of events and circumstances indicating that something is or
is not a fact.
The law makes no distinction between the weight you may give to
either direct or circumstantial evidence. But the law requires that you, after
weighing all of the evidence, whether direct or circumstantial, be convinced
of the guilt of the defendant beyond a reasonable doubt before you can find
him guilty.

Page 6 of 27
19-40465.1138

APPX 083

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 7 of 27 PageID #: 2314

JURY INSTRUCTION NO. 6
CREDIBILITY OF WITNESSES
I remind you that it is your job to decide whether the government has
proven the guilt of a defendant beyond a reasonable doubt. In doing so, you
must consider all of the evidence. This does not mean, however, that you
must accept all of the evidence as true or accurate.
You are the sole judges of the credibility or “believability” of each
witness and the weight to be given the witness’s testimony. An important
part of your job will be making judgments about the testimony of the
witnesses [including the defendant] who testified in this case. You should
decide whether you believe what each person had to say, and how important
that testimony was. In making that decision I suggest that you ask yourself a
few questions: Did the person impress you as honest? Did the witness have
any particular reason not to tell the truth? Did the witness have a personal
interest in the outcome of the case? Did the witness have any relationship
with either the government or the defense? Did the witness seem to have a
good memory? Did the witness clearly see or hear the things about which he
testified? Did the witness have the opportunity and ability to understand the
questions clearly and answer them directly? Did the witness’s testimony
differ from the testimony of other witnesses? These are a few of the

Page 7 of 27
19-40465.1139

APPX 084

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 8 of 27 PageID #: 2315

considerations that will help you determine the accuracy of what each
witness said.
The testimony of a defendant should be weighed and his credibility
evaluated in the same way as that of any other witness.
Your job is to think about the testimony of each witness you have
heard and decide how much you believe of what each witness had to say. In
making up your mind and reaching a verdict, do not make any decisions
simply because there were more witnesses on one side than on the other. Do
not reach a conclusion on a particular point just because there were more
witnesses testifying for one side on that point. You will always bear in mind
that the law never imposes upon a defendant in a criminal case the burden or
duty of calling any witnesses or producing any evidence.

Page 8 of 27
19-40465.1140

APPX 085

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 9 of 27 PageID #: 2316

JURY INSTRUCTION NO. 7
IMPEACHMENT BY PRIOR INCONSISTENCIES
The testimony of a witness may be discredited by showing that the
witness testified falsely concerning a material matter, or by evidence that at
some other time the witness has said or done something, or has failed to say
or do something, which is inconsistent with the testimony the witness gave
at this trial.
Earlier statements of a witness were not admitted in evidence to prove
that the contents of those statements are true. You may not consider the
earlier statements to prove that the content of an earlier statement is true;
you may only use earlier statements to determine whether you think the
earlier statements are consistent or inconsistent with the trial testimony of
the witness and therefore whether they affect the credibility of that witness.
If you believe that a witness has been discredited in this manner, it is
your exclusive right to give the testimony of that witness whatever weight
you think it deserves.

Page 9 of 27
19-40465.1141

APPX 086

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 10 of 27 PageID #: 2317

JURY INSTRUCTION NO. 8
EXPERT OPINION TESTIMONY
During the trial you heard the testimony of expert witnesses. If
scientific, technical, or other specialized knowledge might assist the jury in
understanding the evidence or in determining a fact in issue, a witness
qualified by knowledge, skill, experience, training, or education may testify
and state an opinion concerning such matters.
Merely because such a witness has expressed an opinion does not
mean, however, that you must accept this opinion. You should judge such
testimony like any other testimony. You may accept it or reject it and give it
as much weight as you think it deserves, considering the witness's education
and experience, the soundness of the reasons given for the opinion, and all
other evidence in the case.

Page 10 of 27
19-40465.1142

APPX 087

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 11 of 27 PageID #: 2318

JURY INSTRUCTION NO. 9
ON OR ABOUT
You will note that the superseding indictment charges that the offense
was committed on or about a specified date. The government does not have
to prove that the crime was committed on that exact date, so long as the
government proves beyond a reasonable doubt that a defendant committed
the crimes on dates reasonably near the dates stated in the superseding
indictment.

Page 11 of 27
19-40465.1143

APPX 088

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 12 of 27 PageID #: 2319

GOVERNMENT’S PROPOSED JURY INSTRUCTION NO. 10
CAUTION—CONSIDER ONLY THE CRIME CHARGED
You are here to decide whether the government has proven beyond a
reasonable doubt that a defendant is guilty of the crimes charged. The
defendant is not on trial for any act, conduct, or offense not alleged in the
superseding indictment. Neither are you concerned with the guilt of any
other person or persons not on trial as a defendant in this case, except as you
are otherwise instructed.

Page 12 of 27
19-40465.1144

APPX 089

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 13 of 27 PageID #: 2320

JURY INSTRUCTION NO. 11
SINGLE DEFENDANT – MULTIPLE COUNTS
A separate crime is charged in each count of the superseding
indictment. Each count, and the evidence pertaining to it, should be
considered separately. The fact that you may find the defendant guilty or
not guilty as to one of the crimes charged should not control your verdict as
to any other.

Page 13 of 27
19-40465.1145

APPX 090

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 14 of 27 PageID #: 2321

JURY INSTRUCTION NO. 12
CONFESSION – STATEMENT – VOLUNTARINESS
In determining whether any statement, claimed to have been made by
the defendant outside of court and after an alleged crime has been
committed, was knowingly and voluntarily made, you should consider the
evidence concerning such a statement with caution and great care. You
should give such weight to the statement as you feel it deserves under all the
circumstances.
You may consider in that regard such factors as the age, sex, training,
education, occupation, and physical and mental condition of the defendant,
his treatment while under interrogation, and all the other circumstances in
evidence surrounding the making of the statement.

Page 14 of 27
19-40465.1146

APPX 091

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 15 of 27 PageID #: 2322

JURY INSTRUCTION NO. 13
IDENTIFICATION TESTIMONY
In any criminal case the government must prove not only the essential
elements of the offense or offenses charged, as hereafter defined, but must
also prove, beyond a reasonable doubt, the identity of the defendant as the
perpetrator of the alleged offenses.
In evaluating the identification testimony of a witness you should
consider all of the factors already mentioned concerning your assessment of
the credibility of any witness in general, and should also consider whether
the witness had an adequate opportunity to observe the person in question at
the time or times about which the witness testified. You may consider all
matters, including the length of time the witness had to observe the person in
question, the prevailing conditions at that time in terms of visibility or
distance and the like, and whether the witness had known or observed the
person at earlier times.
You may also consider the circumstances surrounding the
identification itself including, for example, the manner in which the
defendant was presented to the witness for identification, and the length of
time that elapsed between the incident in question and the next opportunity
the witness had to observe the defendant.

Page 15 of 27
19-40465.1147

APPX 092

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 16 of 27 PageID #: 2323

If, after examining all of the testimony and evidence in the case, you
have a reasonable doubt as to the identity of the defendant as the perpetrator
of the offense charged, you must find the defendant not guilty.

Page 16 of 27
19-40465.1148

APPX 093

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 17 of 27 PageID #: 2324

JURY INSTRUCTION NO. 14
SIMILAR ACTS
You have heard evidence of acts of a defendant which may be similar
to those charged in the superseding indictment, but which were committed
on other occasions. You must not consider any of this evidence in deciding
if a defendant committed the acts charged in the superseding indictment.
However, you may consider this evidence for other, very limited, purposes.
If you find beyond a reasonable doubt from other evidence in this case
that a defendant did commit the acts charged in the superseding indictment,
then you may consider evidence of the similar acts allegedly committed on
other occasions to determine:
Whether a defendant had the state of mind or intent necessary to
commit the crime charged in the superseding indictment; or
Whether a defendant had a motive or the opportunity to commit the
acts charged in the superseding indictment; or
Whether a defendant acted according to a plan or in preparation for
commission of a crime; or
Whether a defendant committed the acts for which he is on trial by
accident or mistake.
These are the limited purposes for which any evidence of other similar
acts may be considered.
Page 17 of 27
19-40465.1149

APPX 094

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 18 of 27 PageID #: 2325

JURY INSTRUCTION NO. 15
POSSESSION
“Possession,” as that term is used in these instructions, may be one of
two kinds: actual possession or constructive possession.
A person who knowingly has direct physical control over a thing, at a
given time, is in actual possession of it.
A person who, although not in actual possession, knowingly has both
the power and the intention, at a given time, to exercise dominion or control
over a thing, either directly or through another person or persons, is in
constructive possession of it.
Possession may be sole or joint. If one person alone has actual or
constructive possession of a thing, possession is sole. If two or more
persons share actual or constructive possession of a thing, possession is
joint.
You may find that the element of possession is present if you find
beyond a reasonable doubt that the defendant had actual or constructive
possession, either alone or jointly with others.

Page 18 of 27
19-40465.1150

APPX 095

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 19 of 27 PageID #: 2326

JURY INSTRUCTION NO. 16
“KNOWINGLY”—TO ACT / DELIBERATE IGNORANCE
The word “knowingly,” as that term has been used from time to time
in these instructions, means that the act was done voluntarily and
intentionally, not because of mistake or accident.
You may find that a defendant had knowledge of a fact if you find that
a defendant deliberately closed his eyes to what would otherwise have been
obvious to him. While knowledge on the part of the defendant cannot be
established merely by demonstrating that the defendant was negligent,
careless, or foolish, knowledge can be inferred if the defendant deliberately
blinded himself to the existence of a fact.

Page 19 of 27
19-40465.1151

APPX 096

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 20 of 27 PageID #: 2327

JURY INSTRUCTION NO. 17
INTERSTATE COMMERCE - DEFINED
Interstate commerce means commerce or travel between one state,
territory, or possession of the United States and another state, territory, or
possession of the United States, including the District of Columbia.

Page 20 of 27
19-40465.1152

APPX 097

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 21 of 27 PageID #: 2328

JURY INSTRUCTION NO. 18
COMMERCE - DEFINED
Commerce includes travel, trade, transportation, and communication.

Page 21 of 27
19-40465.1153

APPX 098

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 22 of 27 PageID #: 2329

JURY INSTRUCTION NO. 19
CAUTION—PUNISHMENT
If a defendant is found guilty, it will be my duty to decide what the
punishment will be. You should not be concerned with punishment in any
way. It should not enter your consideration or discussion.

Page 22 of 27
19-40465.1154

APPX 099

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 23 of 27 PageID #: 2330

JURY INSTRUCTION NO. 20
COUNTS 1-7
Counts 1 through 7 of the superseding indictment charge the
defendant, Heon Jong Yoo, with making false statements with respect to
information required to be kept by a federal firearms licensee, in violation of
18 U.S.C. § 924(a)(1)(A).
Title 18, United States Code, Section 924(a)(1)(A) makes it a crime
for anyone to knowingly make any false statement or representation with
respect to the information required by this chapter to be kept in the records
of a person licensed under this chapter or in applying for any license or
exemption or relief from disability under the provisions of this chapter.
For you to find the defendant guilty of these crimes, you must be
convinced that the government has proved each of the following beyond a
reasonable doubt:
First: That the defendant made a false statement in the ATF Form
4473;
Second: That the defendant made the statement to a federallylicensed firearms dealer;
Third: That the defendant knew the statement was false.
A statement is “false” if it was untrue when it was made.

Page 23 of 27
19-40465.1155

APPX 100

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 24 of 27 PageID #: 2331

JURY INSTRUCTION NO. 21
COUNT 8
Count 8 of the superseding indictment charges the defendant, Heon
Jong Yoo, with possession of a firearm by a prohibited person, in violation
of 18 U.S.C. § 922(g)(4).
Title 18, United States Code, Section 922(g)(4) makes it a crime for
any person who has been committed to a mental institution to possess in or
affecting commerce any firearm or ammunition.
For you to find the defendant guilty of this crime, you must be
convinced that the government has proved each of the following beyond a
reasonable doubt:
First: That the defendant knowingly possessed a firearm, as charged
in the superseding indictment;
Second: That the defendant had been committed to a mental
institution before the defendant possessed the firearm;
Third: That the firearm possessed traveled in interstate commerce.
As a matter of law, Count 8 does not include a person who is
hospitalized for observation and examination where they were not found to
be mentally ill.

Page 24 of 27
19-40465.1156

APPX 101

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 25 of 27 PageID #: 2332

JURY INSTRUCTION NO. 22
NO NEED FOR UNANIMITY AS TO FIREARM
It is not necessary for the government to prove that the defendant
possessed all five firearms which he is alleged to have possessed. It is only
necessary that you find that the government has proven beyond a reasonable
doubt that the defendant possessed a firearm.

Page 25 of 27
19-40465.1157

APPX 102

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 26 of 27 PageID #: 2333

JURY INSTRUCTION NO. 23
DUTY TO DELIBERATE—VERDICT FORM
To reach a verdict, whether it is guilty or not guilty, all of you must
agree. Your verdict must be unanimous on each count of the superseding
indictment. Your deliberations will be secret. You will never have to
explain your verdict to anyone.
It is your duty to consult with one another and to deliberate in an
effort to reach agreement if you can do so. Each of you must decide the case
for yourself, but only after an impartial consideration of the evidence with
your fellow jurors. During your deliberations, do not hesitate to reexamine
your own opinions and change your mind if convinced that you were wrong.
But do not give up your honest beliefs as to the weight or effect of the
evidence solely because of the opinion of your fellow jurors, or for the mere
purpose of returning a verdict.
Remember at all times, you are judges-- of the facts. Your duty is to
decide whether the government has proved the defendant guilty beyond a
reasonable doubt.
When you go to the jury room, the first thing that you should do is
select one of your number as your foreperson, who will help to guide your
deliberations and will speak for you here in the courtroom.
A form of verdict has been prepared for your convenience.
Page 26 of 27
19-40465.1158

APPX 103

Case 6:18-cr-00016-RWS-KNM Document 246 Filed 11/15/18 Page 27 of 27 PageID #: 2334

The foreperson will write the unanimous answer of the jury in the
space provided for each count of the superseding indictment, either guilty or
not guilty. At the conclusion of your deliberations, the foreperson should
date and sign the verdict.
If you need to communicate with me during your deliberations, the
foreperson should write the message and give it to the marshal. I will either
reply in writing or bring you back into the court to answer your message.
Bear in mind that you are never to reveal to any person, not even to
the court, how the jury stands, numerically or otherwise, on any count of the
superseding indictment, until after you have reached a unanimous verdict.

Page 27 of 27
19-40465.1159

APPX 104

Case 6:18-cr-00016-RWS-KNM Document 248 Filed 11/15/18 Page 1 of 2 PageID #: 2337

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION

UNITED STATES OF AMERICA §

§
v. § No. 6:18-CR-16-RWS-KNM

§

HEON JONG YOO §
a/k/a HANK YOO §

VERDICT OF THE JURY
As to Count 1 of the superseding indictment,
We, the jury, find the Defendant, Heon Jong Yoo, a/k/a Hank Yoo,”

X
(Guilty) (Not Guilty)
As to Count 2 of the superseding indictment,
We, the jury, find the Defendant, Heon Jong Yoo, a/k/a “Hank Yoo,”

(Guilty) (Not Guilty)
As to Count 3 of the superseding indictment,
We, the jury, find the Defendant, Heon Jong Yoo, a/k/a “Hank Yoo,”

(Guilty)

(Not Guilty)

As to Count 4 of the superseding indictment,
We, the jury, find the Defendant, Heon Jong Yoo, a/k/a “Hank Yoo,”

JL_
(Guilty)

(Not Guilty)

19-40465.1160

APPX 105

Case 6:18-cr-00016-RWS-KNM Document 248 Filed 11/15/18 Page 2 of 2 PageID #: 2338

As to Count 5 of the superseding indictment,
We, the jury, find the Defendant, Heon Jong Yoo, a/k/a Hank Yoo,

(Guilty) (Not Guilty)
As to Count 6 of the superseding indictment,
We, the jury, find the Defendant, Heon Jong Yoo, a/k/a “Hank Yoo,

X
(Guilty) (Not Guilty)
As to Count 7 of the superseding indictment,
We, the jury, find the Defendant, Heon Jong Yoo, a/k/a “Hank Yoo,

(Guilty) (Not Guilty)
As to Count 8 of the superseding indictment,
We, the jury, find the Defendant, Heon Jong Yoo, a/k/a “Hank Yoo,

(Guilty)

(Not Guilty)

usm/fr
Date

Forepers

19-40465.1161

APPX 106

2) Exemplary Form 4473 (2012 version)

APPX 107

APPX 108

APPX 109

APPX 110

APPX 111

APPX 112

APPX 113

3) Exemplary Form 4473 (2016 version)

APPX 114

APPX 115

APPX 116

APPX 117

APPX 118

APPX 119

APPX 120

4) GAO Report 18-440

APPX 121

United States Government Accountability Office

Report to the Ranking Member,
Subcommittee on Commerce, Justice,
Science, and Related Agencies,
Committee on Appropriations, House of
Representatives
September 2018

LAW
ENFORCEMENT
Few Individuals
Denied Firearms
Purchases Are
Prosecuted and ATF
Should Assess Use of
Warning Notices in
Lieu of Prosecutions

GAO-18-440
APPX 122

September 2018

LAW ENFORCEMENT

Highlights of GAO-18-440, a report to the
Ranking Member, Subcommittee on
Commerce, Justice, Science and Related
Agencies, Committee on Appropriations,
House of Representatives.

Few Individuals Denied Firearms Purchases Are
Prosecuted and ATF Should Assess Use of Warning
Notices in Lieu of Prosecutions

Why GAO Did This Study

What GAO Found

In 2017, approximately 25.6 million
firearm-related background checks
were processed through NICS, and
about 181,000 of the attempted
purchases at the federal and state
levels combined were denied because
the individual was prohibited from
possessing a firearm under federal or
state law. Individuals who certify that
they are not prohibited from purchasing
or receiving a firearm and are
subsequently determined to be
prohibited could be subject to
investigation, and if prosecuted, a fine,
imprisonment, or both.

Investigations and prosecutions. Federal and selected state law enforcement
agencies that process firearm-related background checks through the National
Instant Criminal Background Check System (NICS) collectively investigate and
prosecute a small percentage of individuals who falsify information on a firearms
form (e.g., do not disclose a felony conviction) and are denied a purchase.
Federal NICS checks resulted in about 112,000 denied transactions in fiscal year
2017, of which the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)
referred about 12,700 to its field divisions for further investigation. U.S.
Attorney’s Offices (USAO) had prosecuted 12 of these cases as of June 2018.

GAO was asked to examine firearms
denials. This report (1) describes the
extent to which federal and selected
state law enforcement agencies
investigate and prosecute firearms
denial cases; (2) examines related
challenges faced by these agencies;
and (3) describes the circumstances
that lead to investigations and
prosecutions. GAO reviewed laws and
regulations; analyzed federal and state
data from 2011 through 2017; and
interviewed officials from ATF
headquarters, 6 of 25 ATF field
divisions (the 6 that investigated the
most cases), and the 13 states that
process all NICS checks within their
state. Results from state interviews are
not generalizable but provide insights
on state practices.

What GAO Recommends
GAO recommends that ATF assess
the extent to which ATF field divisions
use warning notifications as an
enforcement tool, which would inform
whether changes to policy are needed.
DOJ concurred with GAO’s
recommendation.
View GAO-18-440. For more information,
contact Gretta L. Goodwin, 202-512- 8777
goodwing@gao.gov.

Table: Federal National Instant Criminal Background Check System (NICS) Firearms Denial
Cases Investigated and Prosecuted, Fiscal Year 2017
Federal NICS
ATF Field Division United States Attorney’s Offices
Transactions
Denials
Investigations
Prosecutions
8,606,286
112,090
12,710
12
Source: GAO Analysis of Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) and FBI data. | GAO-18-440

At the state level, officials from 10 of 13 selected states said they did not
investigate or prosecute firearm denials, some citing competing resource
demands and the lack of statutes with which states prosecute as reasons. The
remaining 3 states investigated a high proportion of firearms denials. One of the
3 states reported about 1,900 referrals for prosecution in 2017 and about 470
convictions.
Challenges. ATF and selected states reported challenges in investigating and
prosecuting firearms denials. Officials from six selected ATF field divisions said
that investigating the increasing number of denial cases referred to field
divisions—which increased from about 5,200 in fiscal year 2011 to about 12,700
in fiscal year 2017—has been time intensive and required use of their limited
resources. ATF policy provides that field divisions may send “warning notices” to
denied persons in lieu of prosecution, but ATF has not assessed field divisions’
use of these notices, which could provide greater awareness of their deterrence
value and inform whether any policy changes are needed. Officials from the
Executive Office for United States Attorneys said that prosecuting denial cases
can require significant effort and may offer little value to public safety compared
to other cases involving gun violence. Selected state officials said that denial
investigations can take law enforcement officials away from their core duties.
State prosecutors said gathering evidence to prove individuals knew they were
prohibited was a challenge.
Types of cases. ATF field divisions investigate denial cases based on USAO
criteria and generally only refer cases to USAOs for prosecution when
aggravating circumstances exist, such as violent felonies or multiple serious
offenses over a short period of time. Officials from two of three selected states
refer all denial cases for investigation, while one state uses risk-based criteria for
selecting cases that include conditions such as felony convictions and
misdemeanor crimes of domestic violence. Prosecutors from these three states
said they generally pursue cases that involve indications of violence, though
individual prosecutors had differing priorities based on public safety concerns.

APPX 123

United States Government Accountability Office

Contents

Letter

1
Background
Federal and Selected State Law Enforcement Agencies
Collectively Investigate and Prosecute a Small Percentage of
Firearms Denials
ATF and Selected States Cited Challenges Investigating and
Prosecuting Firearms Denials; ATF Has Not Assessed Field
Divisions’ Use of Warning Notices
Firearms Denial Investigations and Prosecutions Are Generally
Based on Aggravating Circumstances in Addition to Criminal
Records
Conclusions
Recommendation for Executive Action
Agency Comments

30
38
39
39

Appendix I

Objectives, Scope and Methodology

40

Appendix II

Bureau of Alcohol, Tobacco, Firearms and Explosives Form 4473

44

Appendix III

Investigation and Prosecution of Firearms Denials in Oregon

50

Appendix IV

Investigation and Prosecution of Firearms Denials in Pennsylvania

58

Appendix V

Investigation and Prosecution of Firearms Denials in Virginia

68

Appendix VI

Examples of Firearms Denial Cases Referred for Prosecution

80

Appendix VII

GAO Contacts and Staff Acknowledgements

83

Page i

5
13
19

GAO-18-440 Firearm Denials

APPX 124

Tables
Table 1: National Instant Criminal Background Check System
(NICS) Denial Cases Investigated and Prosecuted, Fiscal
Years (FY) 2016 and 2017
Table 2: Oregon Firearm Denials by Prohibiting Category, Fiscal
Years 2011 through 2017
Table 3: Pennsylvania Firearms Denials by Prohibiting Category,
Fiscal Years 2014 through 2017
Table 4: Disposition of Firearm Denial Cases in Pennsylvania,
2014 through 2017
Table 5: Virginia Firearm Denials by Prohibiting Category, Fiscal
Years 2011 through 2017
Table 6: Virginia Firearm Denials and Investigations, Fiscal Years
2011 through 2017
Table 7: Examples of Firearm Denial Cases Referred for
Prosecution

14
54
62
66
74
76
80

Figures
Figure 1: State Policy for Implementing the Federal Bureau of
Investigation’s (FBI) National Instant Criminal
Background Check System (NICS) as of May 2018
Figure 2: Federal and State National Instant Criminal Background
Check System (NICS) Checks and Denials, Fiscal Years
2011 through 2017
Figure 3: National Instant Criminal Background Check System
(NICS) Process for a Firearms Purchase
Figure 4: Process for Investigating and Prosecuting Firearms
Denials
Figure 5: Firearms Denial Cases Referred to Bureau of Alcohol,
Tobacco, Firearms and Explosives Field Divisions for
Investigation, Fiscal Years 2011 through 2017.
Figure 6: Standard and Delayed Denials Referred to Bureau of
Alcohol, Tobacco, Firearms and Explosives (ATF) Field
Divisions for Investigation by Prohibiting Category, Fiscal
Years 2011 through 2017
Figure 7: Process for Purchasing a Firearm from a Dealer in
Oregon
Figure 8: Process for Purchasing a Firearm from a Dealer in
Pennsylvania
Figure 9: Process for Purchasing a Firearm from a Dealer in
Virginia

Page ii

6
8
11
12
24

32
52
61
72

GAO-18-440 Firearm Denials

APPX 125

Abbreviations
ATF
DENI
EOUSA
FBI
FFL
FICS
FTC
NICS
OSP
POC
PSP
USAO
VSP

Bureau of Alcohol, Tobacco, Firearms and Explosives
Denial Enforcement and NICS Intelligence
Executive Office for United States Attorneys
Federal Bureau of Investigation
federal firearms licensee
Firearms Instant Check System
Firearms Transaction Center
National Instant Criminal Background Check System
Oregon State Police
Point of Contact
Pennsylvania State Police
United States Attorney’s Office
Virginia State Police

This is a work of the U.S. government and is not subject to copyright protection in the
United States. The published product may be reproduced and distributed in its entirety
without further permission from GAO. However, because this work may contain
copyrighted images or other material, permission from the copyright holder may be
necessary if you wish to reproduce this material separately.

Page iii

GAO-18-440 Firearm Denials

APPX 126

Letter

441 G St. N.W.
Washington, DC 20548

September 5, 2018
The Honorable José E. Serrano
Ranking Member
Subcommittee on Commerce, Justice, Science, and Related Agencies
Committee on Appropriations
House of Representatives
Dear Mr. Serrano:
In 2017, approximately 25.6 million firearm-related background checks
were processed through the Federal Bureau of Investigation’s (FBI)
National Instant Criminal Background Check System (NICS), and about
181,000 (about 1 percent) of the attempted purchases were denied
because the individual was prohibited from possessing a firearm under
federal or state law. 1 To purchase a firearm from a federal firearms
licensee (FFL)—or gun dealer—individuals are required to complete the
Alcohol, Tobacco, Firearms and Explosives (ATF) Form 4473, certifying
that they are not prohibited from purchasing or receiving a firearm under
federal or state law. Individuals who sign the form and are later
determined through a background check to be prohibited could be subject
to investigation, and if prosecuted, a fine, imprisonment, or both. 2
1
Under 18 U.S.C. § 922(g), persons are generally prohibited from possessing or receiving
a firearm if they (1) have been convicted in any court of a crime punishable by
imprisonment for a term exceeding 1 year; (2) are a fugitive from justice; (3) are an
unlawful user of or addicted to any controlled substance; (4) have been adjudicated as a
“mental defective” or committed to a mental institution; (5) are aliens illegally or unlawfully
in the United States, or certain other aliens admitted under a nonimmigrant visa; (6) have
been dishonorably discharged from the military; (7) have renounced their U.S. citizenship;
(8) are under a qualifying domestic violence restraining order; or (9) have been convicted
of a misdemeanor crime of domestic violence. In addition, 18 U.S.C. § 922(n) prohibits
(10) persons under indictment for a crime punishable by imprisonment for a term
exceeding 1 year from receiving a firearm. Individual states may have prohibiting factors in
addition to those in federal law.
2
Under 18 U.S.C. § 922(a)(6), it is unlawful for any person in connection with the
acquisition or attempted acquisition of any firearm or ammunition from a federal firearms
licensee, knowingly to make any false or fictitious oral or written statement or to furnish or
exhibit any false, fictitious, or misrepresented identification, intended or likely to deceive
such federal firearms licensee with respect to any fact material to the lawfulness of the
sale or other disposition of the firearm or ammunition. In addition, generally under 18
U.S.C. § 924(a)(1)(A), it is unlawful for a person to knowingly make any false statement or
representation with respect to the information required to be kept in the records of a
federal firearms licensee.

Page 1

GAO-18-440 Firearm Denials

APPX 127

For 29 states, the District of Columbia, and U.S. territories, the FBI’s
NICS Section is responsible for processing all NICS background checks
and referring denied transactions to ATF. ATF is responsible for
determining which denied transactions to investigate and refer to a United
States Attorney’s Office (USAO) for prosecution. The other 21 states use
state or local criminal justice agencies to process some or all of their own
NICS background checks. Thirteen of these 21 states process all of their
own NICS checks, and are known as point-of-contact (POC) states. The
remaining 8 states conduct NICS checks on persons who attempt to
purchase a handgun, while the FBI conducts checks on long gun
purchasers. These states are known as partial POC states. 3
You requested that we examine the extent to which individuals who are
prohibited from purchasing firearms and attempt to purchase a firearm
face investigation and prosecution. This report:
•

describes the extent to which federal and selected state law
enforcement agencies investigate and prosecute firearms denial
cases, 4

•

examines the challenges, if any, that federal and selected state law
enforcement agencies face in investigating and prosecuting firearms
denial cases, and

•

describes the circumstances that lead to the investigation and
prosecution of persons denied firearms.

To address the first objective, we analyzed federal data from the FBI’s
NICS system and ATF’s case management systems for fiscal years 2011
through 2017 to determine the number of firearms denials by state and
prohibiting category and identify trends in the number of denials the ATF’s
Denial Enforcement NICS Intelligence (DENI) Branch referred to ATF

3

According to a Department of Justice-funded report, states may elect POC or non-POC
status for various reasons, such as a state’s attitude toward gun ownership, since many
POC states have prohibiting legislation that is stricter than federal laws and regulations
(with respect to categories of people prohibited from possessing firearms). Additionally,
there may be an economic incentive for states to elect non-POC status, since
implementing and operating a POC may cost a state more money than it can collect in
fees charged to federal firearms licensees for conducting background checks.
4
Our selected states consisted of the 13 POC states that process all of their own NICS
checks: California, Colorado, Connecticut, Florida, Hawaii, Illinois, Nevada, New Jersey,
Oregon, Pennsylvania, Tennessee, Utah, and Virginia.

Page 2

GAO-18-440 Firearm Denials

APPX 128

field divisions. 5 For federal prosecutions, we reviewed information from
ATF’s case management system that identified NICS cases that were
prosecuted. For state investigations and prosecutions, we selected the 13
POC states that perform their own background checks for all firearms
transactions to determine their policies regarding the investigation and
prosecution of persons denied firearms purchases. For the states that
investigate firearms denials, we analyzed state police data on the number
of denials, the prohibiting category for the denials, and the number of
these denials that were referred to state or local law enforcement for
investigation for fiscal years 2011 through 2017. We spoke to
investigators and prosecutors in these states to discuss the investigative
processes followed and the frequency of prosecution.
To address the second objective, for federal denial investigations, we
interviewed officials from the six ATF field divisions that received
approximately 60 percent of the total standard denial referrals across
ATF’s 25 field divisions from fiscal years 2011 through 2017 about the
investigative process for standard and delayed denial investigations and
the challenges, if any, these investigations posed to ATF staff.6 We also
discussed the types of cases that each of these field divisions referred to
the USAO for prosecution. Further, we interviewed Executive Office for
United States Attorneys (EOUSA) officials to discuss the circumstances
that would lead a USAO to prosecute a firearms denial case and the
challenges, if any, faced in these prosecutions. We also evaluated ATF’s
investigative procedures and internal controls in place against the
Standards for Internal Control in the Federal Government. 7 For state
denial investigations, we interviewed state troopers and local law
enforcement to learn about their investigative procedures, and any
challenges investigators may face. We also spoke with multiple
prosecutors from each of these states and discussed the prosecutor
offices’ policy for accepting these denial cases, how often these cases
5

ATF’s DENI Branch researches and analyzes NICS denials received from the FBI NICS
Section, and refers denials that meet certain criteria to ATF field offices for further
investigation.

6
If the FBI or state agency completes a background check within 3 business days and
determines that a person should be denied, such denials are referred to as “standard
denials” and do not involve the potential transfer of a firearm. If the FBI or state agency
cannot complete a background check within 3 business days, the gun dealer may transfer
the firearm pursuant to federal law, unless state law provides otherwise.
7

GAO, Standards for Internal Control in the Federal Government, GAO-14-704G
(Washington, D.C.: Sept. 10, 2014).

Page 3

GAO-18-440 Firearm Denials

APPX 129

were prosecuted in these localities and the challenges each faced when
prosecuting these cases.
To address the third objective, for federal denials, we analyzed criteria
that the 34 USAO districts within our six selected ATF field divisions have
established to determine which denials ATF should send to its field offices
for further investigation. We then visited ATF’s DENI Branch to observe
how denials are screened and discuss internal controls for ensuring that
ATF referrals to its field divisions follow the criteria. We also analyzed
ATF data on denials to identify the prohibited categories of the cases that
were referred to ATF field divisions from 2011 through 2017, the
investigations that were referred to USAOs for prosecution and those that
were ultimately prosecuted by USAOs. Officials from our six selected ATF
field divisions also provided examples of denial cases investigated and
referred for prosecution. These case examples included the specific
circumstances that convinced the field division to investigate and refer the
case for prosecution. We also researched legal databases to identify the
specific circumstances of the cases prosecuted, the statutes used to
charge the defendants, and the outcome of the cases. Further, we
interviewed EOUSA officials about how USAOs determine the
circumstances that would lead a USAO to prosecute a firearms denial
case. For state denial investigations, we spoke with state and local
investigators from the three states that investigate and prosecute firearms
denials to determine the circumstances that may lead to a prosecution.
We also spoke with multiple prosecutors from the same states and asked
them to describe the characteristics of cases they are more likely to
prosecute, as well as those they are less likely to prosecute.
To assess the reliability of federal and state data on investigations and
prosecutions of individuals denied firearms purchases related to all three
objectives, we reviewed the internal controls in place within these
systems and interviewed federal and state officials about their procedures
for creating these data. We determined that these data were sufficiently
reliable for the purpose of our reporting objectives. Also, for all objectives,
while we did not speak to a representative sample of federal and state
investigators and prosecutors, our interviews provided valuable insights
about how these investigations and prosecutions are conducted and
prioritized. Appendix I contains a more detailed discussion of our scope
and methodology.
We conducted this performance audit from March 2017 through
September 2018 in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the

Page 4

GAO-18-440 Firearm Denials

APPX 130

audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Background
Roles and Responsibilities

Under the Brady Handgun Violence Prevention Act of 1993 (referred to
hereafter as the “Brady Act”) and implementing regulations, the FBI and
designated state and local criminal justice agencies use NICS to conduct
background checks on individuals seeking to purchase firearms from an
FFL or obtain permits to possess, acquire, or carry firearms. 8 The mission
of the FBI’s NICS Section is to enhance national security and public
safety by providing the timely and accurate determination of a person’s
eligibility to possess firearms in accordance with federal law. Figure 1
shows the states where the FBI performs background checks for all
transactions, as well as POC and partial POC states.

8

Brady Handgun Violence Prevention Act, Pub. L. No. 103-159, 107 Stat. 1536 (1993).

Page 5

GAO-18-440 Firearm Denials

APPX 131

Figure 1: State Policy for Implementing the Federal Bureau of Investigation’s (FBI) National Instant Criminal Background
Check System (NICS) as of May 2018

ATF—one of several Department of Justice law enforcement
components—is responsible for investigating criminals and criminal
organizations that use firearms, arson, or explosives in violent criminal
activity, among other things. ATF is also responsible for investigating
criminal and regulatory violations of federal firearms, explosives, arson,
and alcohol and tobacco-smuggling laws subject to the direction of the
Attorney General, as well as any other function related to the investigation

Page 6

GAO-18-440 Firearm Denials

APPX 132

of violent crime or domestic terrorism that is delegated to ATF by the
Attorney General. 9
U.S. Attorneys prosecute criminal cases brought forward by the federal
government, prosecute and defend civil cases in which the United States
is a party, and collect debts owed to the federal government that are
administratively uncollectible. U.S. Attorneys investigate and prosecute a
wide range of criminal activities—including, but not limited to, international
and domestic terrorism, corporate fraud, public corruption, violent crime,
and drug trafficking. Each U.S. Attorney exercises wide discretion in the
use of his or her resources to further the priorities of the local jurisdictions
and needs of their communities. The Executive Office for United States
Attorneys (EOUSA) represents the 93 U.S. Attorneys that prosecute
federal cases. Among other things, EOUSA provides guidance,
management direction, and oversight to USAOs.

Firearms Purchase
Background Check
Process

During a NICS check, the FBI and POC states use descriptive data
provided by an individual—such as name and date of birth—to search
various databases containing criminal history and other relevant records.
These databases include the Interstate Identification Index, the National
Crime Information Center, and the NICS Indices.
•

The Interstate Identification Index includes, among other things,
information on persons who are indicted for, or have been convicted
of, a crime punishable by imprisonment for a term exceeding 1 year or
have been convicted of a misdemeanor crime of domestic violence.

•

The National Crime Information Center includes criminal justicerelated records pertaining to wanted persons (fugitives) and persons
subject to protection orders, among other things.

•

The NICS Indices were created for use in connection with NICS
background checks and contain information on persons determined to
be prohibited from possessing or receiving a firearm.

NICS checks determine whether or not an individual is disqualified by
federal or state law from possessing firearms. As shown in figure 2:

9

See 28 C.F.R. § 0.130.

Page 7

GAO-18-440 Firearm Denials

APPX 133

•

Federal NICS transactions increased from about 6.5 million in fiscal
year 2011 to about 8.6 million in fiscal year 2017. Federal NICS
denials increased from about 77,000 in fiscal year 2011 to about
112,000 in fiscal year 2017.

•

POC state transactions—which include both full and partial POC
states—increased from about 9.3 million in fiscal year 2011 to about
17 million in fiscal year 2017. 10 POC state denials increased from
about 45,000 in fiscal year 2011 to about 69,000 in fiscal year 2017.

Figure 2: Federal and State National Instant Criminal Background Check System (NICS) Checks and Denials, Fiscal Years
2011 through 2017

Note: Thirteen states process all of their own NICS checks—known as point-of-contact (POC)
states—while 8 states, known as partial POC states, conduct NICS checks related to handguns, while
the FBI conducts checks related to long guns in those states. POC state figures include handgun data
from partial POC states, while NICS figures include long gun data from partial POC states.

10

State background check figures include transactions where a deny status was
electronically transmitted by the state to NICS. Some states, for example, submit denials
for permit-related background checks. In addition, the count of background checks from
each state may not necessarily represent a firearm purchase. For example, a state may
conduct recurring background checks on every holder of a concealed-carry permit,
amounting to millions of background checks in the state every year.

Page 8

GAO-18-440 Firearm Denials

APPX 134

If the FBI or state agency completes a background check within 3
business days and determines that a person should be denied, such
denials are referred to as “standard denials” and do not involve the
potential transfer of a firearm. If the FBI or state agency cannot complete
a background check within 3 business days, the FFL may transfer the
firearm pursuant to federal law, 11 unless state law provides otherwise. 12
When the FBI makes a denial determination after 3 business days—
called a “delayed denial”—the FBI determines if the FFL transferred the
firearm to the individual, and if so, refers these cases to ATF for retrieval
of the firearm if the individual is confirmed to be prohibited from
possessing a firearm.
States may establish requirements regarding background check
processing times, including waiting periods, beyond the federal
requirement. States also may include state databases in addition to NICS
indices when conducting background checks. In POC states, FFLs initiate
a NICS check by contacting one or more state organizations, such as a
state or local law enforcement agency, to query NICS databases and
related state files. If necessary, the state organization then conducts any
required follow-up research.
States may use different methods to conduct background checks.
Examples of these varying methods include the following:
•

Instant Check: Requires an FFL to transmit a buyer’s application to a
checking agency by telephone or computer. The agency is required to
respond immediately or as soon as possible.

•

Purchase Permit: Requires a buyer to obtain, after a background
check, a government-issued document (such as a permit, license, or
identification card) that must be presented to an FFL before the buyer
can receive a firearm.

11

18 U.S.C. § 922(t)(1)(B)(ii).

12

States can establish their own firearms laws, such as additional prohibiting categories or
additional time frames for completing checks before a dealer may transfer the firearm. If
the state is a non-POC state and the FBI conducts the check, the FBI will provide the FFL
with the allowable transfer date under federal law and the FFL will use state guidelines for
when a firearm transfer may take place. Pursuant to 28 C.F.R § 25.9, the FBI can
continue to research the transaction for potentially prohibiting information for up to 90 days
at which time information related to the transaction is to be destroyed to comply with
federal record retention requirements.

Page 9

GAO-18-440 Firearm Denials

APPX 135

•

Exempt Carry Permit: State concealed weapons permits, issued after
a background check, exempt the holder from a new check at the time
of purchase under an ATF ruling or state law.

•

Other: Requires an FFL to transmit an application to a checking
agency, which delays transfer until a waiting period expires or the
agency completes a check.

Federal Process After a
Firearm Denial

After a federal NICS denial, ATF can take enforcement actions through
criminal investigation and referral for prosecution to a USAO, as making
false written statements on the ATF Form 4473 is a crime punishable as a
felony under federal law by up to 10 years in prison and up to a $250,000
fine. 13 Any fines that result from a firearm denial are criminal fines
assessed through prosecution as part of a plea agreement or
sentencing. 14 ATF does not have the statutory authority to issue fines or
take any civil action against individuals whose firearm applications are
denied and are suspected of providing false information during the
attempted purchase.

Investigations

For federal denied transactions, the FBI’s NICS Section sends
information about each denial to ATF’s DENI Branch. The DENI Branch is
responsible for researching each transaction to determine whether the
case should be referred to one of ATF’s 25 field divisions for possible
investigation. The DENI Branch is to refer all delayed denial cases—
which may require recovery of a firearm—and standard denial cases that
meet USAO investigative referral criteria for each corresponding judicial
district. 15 An ATF NICS coordinator in each field division is to distribute
13

See 18 U.S.C. §§ 922(a)(6), 924(a)(2), and 3571(b)(3). A copy of the ATF Form 4473 is
included in appendix II.

14

Generally, a plea agreement is a negotiation between the criminal defendant and his
attorney on one side and the prosecutor on the other, in which the defendant agrees to
plead “guilty” or “no contest” to some crimes, in return for reduction of the severity of the
charges, dismissal of some of the charges, the prosecutor’s willingness to recommend a
particular sentence, or some other benefit to the defendant.
15

According to ATF Order 3140.1A (Denial Enforcement and NICS Intelligence Branch
Referrals and Investigations, August 9, 2017), ATF field divisions are required to annually
review the referral guidelines agreed upon with U.S. Attorneys to better ensure that the
DENI Branch would refer only cases to the field divisions that the USAO would likely
consider for prosecution. ATF Order 3140.1A canceled ATF Order 3140.1 (Denial
Enforcement and NICS Intelligence Branch Referrals and Investigations, November 12,
2014), which had substantially similar language related to annual review of referral
guidelines.

Page 10

GAO-18-440 Firearm Denials

APPX 136

the referred denial cases to the appropriate field office within each field
division.
In addition to recovery of a firearm for delayed denial cases, all firearms
denial investigations may involve verifying the purchaser’s prohibited
status, gathering relevant supporting documentation such as mental
health or court files, and communicating with prosecutors regarding the
prosecutorial merit of the case, according to ATF officials. 16 Figure 3
shows the general NICS background check process when purchasing a
firearm from an FFL in either a NICS or POC state.
Figure 3: National Instant Criminal Background Check System (NICS) Process for a Firearms Purchase

Prosecutions

Among the denials that ATF investigates (delayed and standard), each
field office also determines which cases should be referred to a USAO for
possible prosecution. If the ATF field office determines that the subject is
16

ATF field divisions are to notify the DENI Branch, which forwards the information to the
FBI, when an investigation demonstrates that a person was wrongfully denied and correct
the record.

Page 11

GAO-18-440 Firearm Denials

APPX 137

a prohibited person and local prosecutorial guidelines are met, the field
office may refer the case for prosecution. ATF agents may discuss
potential referrals with prosecutors to try to obtain USAO acceptance
before ATF formally refers a case for possible prosecution. A case that is
not deemed appropriate for federal prosecution may be referred to a state
prosecutor. If the U.S. Attorney decides to prosecute, an arrest is made or
a warrant is issued. Figure 4 shows the general process for the
investigation and prosecution of standard firearms denials.
Figure 4: Process for Investigating and Prosecuting Firearms Denials

Note: The process for investigating a firearm denial may vary between federal and state jurisdictions,
and from state to state. This graphic represents a general framework.

State Processes After a
Firearm Denial

POC states vary in their procedures and standards for investigating and
prosecuting persons denied firearms transactions. For example, these
states may or may not investigate and prosecute prohibited persons who
violate state gun control laws. In some states, the agency conducting
background checks notifies the state or local police, depending on which
has jurisdiction, where the transaction occurred. The local agency is then
responsible for investigating and assisting in the prosecution of the case
by state or local prosecutors. Other states have units with statewide
jurisdiction that screen cases before deciding whether a referral should be
made to a state police trooper or local law enforcement agency for
investigation. A POC state may also refer denials for further investigation
to the nearest ATF field office. In POC states, a firearm retrieval
associated with a delayed denial may be handled by local law
enforcement, a statewide firearms unit, or ATF. State and local

Page 12

GAO-18-440 Firearm Denials

APPX 138

prosecutors, whether the district attorney, county or city prosecutor, or the
state Attorney General’s office, represent the state for cases arising under
state law. Occasionally, federal and state law may prohibit similar types of
criminal conduct, allowing both federal and state prosecutors to pursue
the case.

Federal and Selected
State Law
Enforcement
Agencies Collectively
Investigate and
Prosecute a Small
Percentage of
Firearms Denials

In fiscal year 2017, ATF referred about 13,000 firearms denials to its field
divisions for investigation, of which USAOs had prosecuted 12 cases as
of June 2018. In March 2018, the Attorney General issued a memo that
directed all United States Attorneys to enhance prosecution of cases
involving individuals who make false statements on the ATF Form 4473.
Officials from 10 of our 13 selected POC states said that they do not
investigate or prosecute NICS denials.

ATF Referred about
13,000 Firearms Denials
to Its Field Divisions for
Investigation in Fiscal Year
2017, of Which USAOs
Have Prosecuted 12
Cases

At the federal level, the FBI’s NICS Section referred 112,090 denied
transactions to ATF’s DENI Branch in fiscal year 2017, of which ATF
referred 12,710 (about 11 percent) to its field divisions for further
investigation. The 12,710 referred cases consisted of 3,993 delayed
denials and 8,717 standard denials. According to ATF headquarters
officials, the DENI Branch refers all delayed denials to ATF field divisions
for additional investigation because these cases could potentially require
the recovery of a firearm that was transferred to a prohibited person. The
DENI Branch uses investigative guidelines established by USAOs that
cover 94 judicial districts to determine if standard denials should be
referred to the respective ATF field division for investigation. USAO
criteria may include individuals who are violent felons, have an active
protection order, or have made multiple attempts to purchase a firearm in
the past after being denied, among other offenses. 17 Based on our
analysis of ATF data, the number of firearms denials the DENI Branch
referred to ATF field divisions for investigation increased from 5,208 in
fiscal year 2011 to 12,710 in fiscal year 2017—an increase of 141
17

USAO referral criteria are discussed in more detail later in this report.

Page 13

GAO-18-440 Firearm Denials

APPX 139

percent. We discuss the reported impact of this increase in referrals on
ATF staff later in the report.
Of the 12,710 referrals ATF sent to its field divisions in fiscal year 2017
for investigation, USAOs considered 50 cases for prosecution, and
prosecuted a total of 12 cases (9 delayed denial and 3 standard denial)
as of June 2018, according to ATF data (see table 1). 18 An additional 10
cases were pending or awaiting prosecution as of June 2018. Overall,
USAOs filed about 54,000 criminal cases in fiscal year 2016, of which
about 9,200 involved firearm-related matters. 19 According to Department
of Justice officials, in fiscal year 2017, USAOs also filed about 54,000
criminal cases, of which about 10,400 involved firearm-related matters.
Table 1: National Instant Criminal Background Check System (NICS) Denial Cases Investigated and Prosecuted, Fiscal Years
(FY) 2016 and 2017
Standard Denials

NICS Investigations and Prosecutions

NICS denials Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF) referred to its field divisions for investigation
NICS denials ATF field divisions referred to U.S. Attorney’s
Offices for prosecution

Delayed
Denials

Total

Total

FY
2016

FY
2017

FY
2016

FY
2017

FY
2016

FY
2017

7,524

8,717

3,543

3,993

11,067

12,710

13

12

32

38

45

50

3

3

10

9

13

NICS denials prosecuted

12

a

Source: GAO Analysis of Bureau of Alcohol, Tobacco, Firearms and Explosives data. | GAO-18-440

Notes: In fiscal year 2016, there were 9.5 million federal NICS background checks, of which 119,000
were denied. In fiscal year 2017, there were 8.6 million federal NICS background checks, of which
112,000 were denied. Under federal law, a Federal Firearms Licensee may transfer a firearm if a
background check has not been completed within 3 business days unless state law provides
otherwise. If the Federal Bureau of Investigation or state agency makes a denial determination after a
firearm transfer has taken place, it is known as a delayed denial. If the Federal Bureau of
Investigation or state agency completes a background check within 3 business days and determines
that a person should be denied, it is known as a standard denial.
a

An additional 10 cases were pending or awaiting prosecution as of June 2018.

18

In most cases, ATF DENI does not refer denials to field divisions in POC states. This
would include field divisions in California, Florida, Illinois, and Pennsylvania, among
others.
19

See, Department of Justice, United States Attorneys Statistical Report, Fiscal Year
2016. Firearm-related figures represent criminal cases in which a firearms offense was
charged under 18 U.S.C. §§ 922 or 924.

Page 14

GAO-18-440 Firearm Denials

APPX 140

We also asked state officials from states within our six selected ATF field
divisions whether they investigated and prosecuted these denials. 20
Officials from four of these six states said that ATF has not been referring
firearms denials to them, so investigation and prosecution of firearms
denials was not being done in their state. State officials from two of the
six states said that they either occasionally receive referrals from ATF,
which are investigated and submitted for local prosecution or they are not
aware whether they receive referrals from ATF because they do have a
dedicated team to investigate these cases. Officials from all 6 states said
they have laws that prohibit persons from purchasing and/or possessing
firearms based on prohibitions, such as a prior felony or misdemeanor
convictions, but do not have laws that prohibit persons from falsifying
information on ATF’s form 4473 during the NICS background check.
These states also cited some limitations for investigating these referrals
such as lack of statutory authority within their state agency and resource
constraints.

Attorney General Memo to
Enhance Prosecution of
Persons Denied Firearms
Purchases

On March 12, 2018, the Attorney General issued a memo that directed all
United States Attorneys to enhance prosecution of cases involving false
statements on the ATF Form 4473, which the memo refers to as “lie-andtry” cases. 21 The memo specifically stated that every United States
Attorney must coordinate with the ATF Special Agent-in-Charge in the
local district to review and revise, as necessary, local prosecution and
referral guidelines to ensure vigorous and appropriate prosecution of
these cases. The memo also stated that these guidelines should place
particular emphasis on cases against violent persons, including—but not
limited to—denials involving individuals convicted of violent felonies,
misdemeanor crimes of domestic violence, or subject to protective orders,
and denials involving fugitives where the underlying offense is a violent
felony or misdemeanor crime of domestic violence. Further, the memo
stated that the review and any resulting revisions should ensure that
district-specific prosecution and referral guidelines reflect the Department
20

We identified the state in each field division that generated the most firearms denials
and contacted state law enforcement authorities about their policy for investigating and
prosecuting firearms denials in their states.

21
The Attorney General’s memo stated that “criminals and other prohibited persons who
attempt to thwart the background check process by lying on the required forms threaten to
undermine this important crime prevention tool. Such conduct cannot be tolerated. We
must vigilantly protect the integrity of the background check system through appropriate
prosecution of those who attempt to circumvent the law.”

Page 15

GAO-18-440 Firearm Denials

APPX 141

of Justice’s renewed commitment to reducing violent crime. The memo
required that all United States Attorneys certify that the review has been
completed and all necessary adjustments made within 45 days.
According to EOUSA officials, as of early May 2018, about 90 percent of
USAOs had coordinated with their respective ATF field divisions to
discuss revisions in USAO referral guidelines for standard denial cases.
The officials added that in response to the Attorney General’s memo,
some USAOs narrowed criteria to focus resources on particular denials,
such as those involving an attempted purchaser with a history of violent
crime, or prioritized denials with recent prohibitions, such as a domestic
violence conviction in the past year. In other cases, ATF officials said that
USAOs broadened criteria, which may result in more potential cases from
which to select for investigation and referral for prosecution. ATF officials
also said that some USAOs added investigation referral criteria (for
individuals prohibited from possessing firearms) to include elements
outside the list of federal prohibitors, such as denied individuals with ties
to gang activity or terrorism. These attributes outside of NICS prohibiting
categories would require further investigation at the local level by ATF,
according to officials. While ATF officials have the expectation that the
revised criteria would increase the overall workload on ATF field divisions,
ATF officials said that it is too early to discern how these changes will
impact ATF and the number of denial cases prosecuted by USAOs.
EOUSA officials suggested that firearm-related prosecutions may well
increase in the future, but added that any increase that results does not
necessarily mean that firearms denial prosecutions would increase.

Ten of 13 POC States Do
Not Investigate Firearms
Denials, But the
Remaining 3 Investigate a
High Percentage of
Denials

Officials from 10 of our 13 selected POC states said that they do not
investigate or prosecute any NICS denials, sometimes citing resource
availability or the lack of state statutes as the reason. Officials from these
10 states said that while their state does not investigate or prosecute
firearms denials, their state may take other actions following a denial.
These possible actions may include informing local jurisdictions of the
denial for possible investigation, and possible arrest if the denied
individual has an active warrant. Other actions cited include revoking a
state firearms owner identification card and possibly seizing any firearms;
informing ATF of a delayed denial so ATF can retrieve the firearm; and
providing the information on each denial to the FBI for input into FBI
databases used to perform NICS checks.
Officials and data from the remaining three POC states—Oregon,
Pennsylvania, and Virginia—indicate that these states investigate a high

Page 16

GAO-18-440 Firearm Denials

APPX 142

proportion of firearms denials. These states have statutes that prohibit
providing falsified information on a state or federal firearms form as well
as statutes that penalize the attempt to purchase firearms by individuals
prohibited from such purchases. 22
Oregon: Prior to 2014, the state generally did not investigate firearms
denials, according to state officials. In 2014, the state changed its policy
based on concerns about firearm-related crimes. Specifically, beginning
in late 2014, Oregon began investigating all firearms denials, which
resulted in more than 2,500 firearms denial investigations in both 2016
and 2017. According to state data, there were between 2,000 and 2,400
firearms denials annually from 2011 to 2013. According to the two Oregon
county prosecutors we interviewed, from late 2014 through 2017, their
offices accepted about 141 of the more than 700 firearms denial
investigations referred to their offices, with most prosecuted successfully.
Pennsylvania: Prior to 2014, the state investigated a relatively small
percentage of firearms denials per year using risk-based criteria,
according to state police officials. In 2014, the state changed its policy to
investigate all firearms denials. According to state police reports, in 2016,
approximately 6,500 denial cases were referred for investigation, of which
about 1,600 were referred for prosecution and 356 resulted in convictions.
For 2017, the state reported that approximately 5,500 denial cases were
referred for investigations, of which 1,907 investigations were referred for
prosecution, resulting in 472 convictions.

22

See e.g., Or. Rev. Stat. § 162.075 (under Oregon law, a person commits the crime of
false swearing if the person makes a false sworn statement or a false unsworn
declaration, knowing it to be false which is a Class A misdemeanor), Or. Rev. Stat. §
166.425 (under Oregon law, a person commits the crime of unlawfully purchasing a
firearm if the person, knowing that he/she is prohibited by state law from owning or
possessing a firearm or having a firearm under the person’s custody or control, purchases
or attempts to purchase a firearm, which is a Class A misdemeanor). 18 Pa. Cons. Stat. §
6111 (under Pennsylvania law, any person, purchaser or transferee commits a felony of
the third degree if, in connection with the purchase, delivery or transfer of a firearm
knowingly and intentionally makes any materially false oral statement; makes any
materially false written statement, including a statement on any form promulgated by
Federal or State agencies; or willfully furnishes or exhibits any false identification intended
or likely to deceive the seller, licensed dealer or licensed manufacturer), Va. Code Ann. §
18.2-308.2:2(K) (under Virginia law, any person that willfully and intentionally makes a
materially false statement on the consent form required under Virginia law for certain
firearm transactions or on such firearm transaction records as may be required by federal
law, shall be guilty of a Class 5 felony). For more information on state firearms-related
statutes see appendices III, IV and V.

Page 17

GAO-18-440 Firearm Denials

APPX 143

Virginia: Virginia has investigated firearms denials since 1989, according
to state officials. Virginia does not refer all firearms denials for
investigation, but instead uses risk-based criteria to refer a subset of
prohibited categories for investigation, according to these officials. 23 The
number of referrals for investigation in Virginia has increased from about
770 in 2011 to around 1,700 in 2016 and 2017. Virginia prosecutors we
interviewed in three jurisdictions from localities where a high volume of
firearms denial referrals occur said they tend to work with Virginia state
troopers who specialize in denial investigations and reported high
prosecution rates for the cases they accept. 24 The prosecutors noted that
most convictions do not go to trial and are reduced to less severe
violations and most of the penalties imposed tend to be probation, but
there is the occasional jail term. For example, one Virginia prosecutor
said that jail sentences are rare, but for a felon with a record of violence,
sentences of 7 to more than 24 months in jail have been imposed.
Unlike federal denial investigation referrals where about 30 percent of the
total is for delayed denials, the vast majority of investigations and
prosecutions within these three states are related to standard denials.
Officials within these states explained that background checks that result
in delayed denials are fairly uncommon. According to Pennsylvania
officials, in Pennsylvania this is because of state background check
policies that provide additional time, 15 days, to complete background
checks if a denial is possible, but not clear initially. If the 15-day period
expires without an approved transfer, the transaction is not denied, but
the firearm is not transferred. According to officials in all three states,
FFLs generally will not transfer a firearm until the background checks are
completed.

23

These prohibited categories include those with felony indictments, all felony convictions
including juvenile felonies, misdemeanor crimes of domestic violence convictions, active
protective orders, and mental health issues, among others.

24

According to a state official, Virginia did not have data on the total number of
investigations referred or accepted for prosecution.

Page 18

GAO-18-440 Firearm Denials

APPX 144

ATF and Selected
States Cited
Challenges
Investigating and
Prosecuting Firearms
Denials; ATF Has Not
Assessed Field
Divisions’ Use of
Warning Notices

ATF officials from our six selected field divisions said that investigating
firearms denials can be challenging because of the high volume and
require use of their limited resources. ATF has not assessed field
divisions’ use of warning notices in lieu of prosecution, which could
provide greater awareness of their deterrence value. 25 EOUSA officials
said that denial cases are difficult to prosecute and offer less value for
public safety than other prosecutions. State officials said that denial
investigations compete with other investigations and can be difficult to
successfully prosecute.

ATF and EOUSA Officials
Described Denial
Investigations and
Prosecutions as High
Volume and Require Use
of Their Limited Resources
Federal Denial Investigations

ATF officials from our six selected field divisions—which combined
received approximately 60 percent of the total standard denials that ATF
referred to field divisions from fiscal years 2011 through 2017—said that
investigating firearms denials can be challenging for various reasons.
ATF field divisions have taken some steps to help mitigate these
challenges, but ATF headquarters could benefit from enhancing its
oversight of some aspects of the investigations process.
According to officials from our six selected field divisions, one challenge
to investigating and prosecuting firearms denials is the high volume of
firearms denial referrals for investigation that ATF sends to field divisions.
According to ATF headquarters officials, the DENI Branch has agreed to
send these referrals to field divisions based on criteria each ATF field
25

A warning notice, either oral or in writing, is given to prohibited persons who have
attempted to purchase a firearm to inform them that they are prohibited from purchasing
firearms and that the attempted purchase is a violation of federal law.

Page 19

GAO-18-440 Firearm Denials

APPX 145

division has established with USAOs within their division. In fiscal year
2017, ATF’s DENI Branch referred 1,889 delayed denial cases to our six
selected field divisions—which field divisions are required to investigate—
and 5,435 standard denials cases, which they are to consider for further
investigation. In the six field divisions, the number of standard denial
referrals more than tripled from fiscal years 2011 to 2017, and in two field
divisions, the number of standard referrals in 2017 was more than five
times the number in 2011. For example, in one field division, the number
of standard referrals was 166 in 2011 and increased to 1,064 in 2017.
ATF officials did not know why the number of standard and delayed
denials had increased during this period.
Officials from all six of our selected ATF field divisions also said that
investigating denial cases can be time-intensive and require use of their
limited resources. The officials said that delayed denials can be
particularly time-intensive because they are required to be investigated
and the investigation involves a defined set of actions, including the
possible retrieval of the firearm. For example, these investigations
typically involve steps to verify the prohibition of the individual, including
obtaining court records; contacting the individual and FFL that sold the
firearm; and arranging to retrieve the firearm for those individuals found to
be prohibited. 26 A fiscal year 2016 ATF funding request through the
annual congressional budget justification submission noted the drain on
investigative resources because of the requirement for ATF to follow-up
on delayed denials. 27 While the investigation of standard denials also can
take time, officials from our six selected field divisions said they have
greater discretion over whether or not to investigate these denials. For
example, each field division has discretion to screen all or some of the
standard denials, which can include confirming the person was correctly
denied and contacting the denied individual and the firearms dealer.
Officials from all of the six selected field divisions said that, in light of the
high volume and time-intensiveness of denial cases, they have taken
various steps to prioritize the types of cases to investigate. For example,
per ATF policy, field divisions prioritize delayed denials over standard
denials because a prohibited person may be in possession of a firearm.
26

According to ATF case management records, about 20 percent of the delayed denial
cases closed in fiscal year 2017 were closed because the individual was found to not be
prohibited and the denial was made in error.

27

Congressional Budget Submission, Bureau of Alcohol, Tobacco, Firearms and
Explosives, Fiscal Year 2016.

Page 20

GAO-18-440 Firearm Denials

APPX 146

Officials from three of the six field divisions said that after verifying that
the applicant is prohibited by reviewing the criminal history attached to the
case file, they generally close standard denials without further
investigation. The officials added that while these cases may meet USAO
criteria and be referred to a field division for investigation, they ultimately
do not have prosecutive merit based on coordination with prosecutors
who have experience in prosecuting these cases. Officials from one field
division said that they typically do not devote resources to verifying the
prohibited status, and instead triage standard denials based on certain
criteria, such as a recent violent felony or domestic violence conviction.
Accordingly, officials in that field division only refer to a criminal
investigator for further review what they consider the greatest threats to
public safety.

Federal Prosecutions of
Firearms Denials

EOUSA officials said that USAOs generally do not accept and prosecute
denial cases that do not involve aggravating circumstances, as these
cases can require significant effort for prosecutors relative to the short
length of punishment and may offer little value to public safety because
the offender does not obtain the firearm, compared to other cases
involving gun violence. 28 The officials added that USAOs filed about 9,200
firearm-related cases in fiscal year 2016 and about 10,400 in fiscal year
2017, but that cases involving falsifying information when attempting to
purchase a firearm generally are only a small fraction of USAO efforts.
Instead, USAOs primarily focus on cases where persons obtain firearms
and are prohibited persons or use the firearms in connection with a
criminal offense. 29 According to ATF DENI Branch data, the majority of
the 25 cases that USAOs prosecuted in fiscal years 2016 and 2017 that
involved firearms denials (standard and delayed) resulted in reaching
plea agreements with the defendants.
Federal law provides that it is unlawful “for any person in connection with
the acquisition or attempted acquisition of any firearm or ammunition from
a licensed importer, licensed manufacturer, licensed dealer, or licensed
collector, knowingly to make any false or fictitious oral or written
statement or to furnish or exhibit any false, fictitious, or misrepresented
identification, intended or likely to deceive such importer, manufacturer,
dealer, or collector with respect to any fact material to the lawfulness of
28

Additional information on aggravating circumstances is discussed later in this report.

29

According to EOUSA officials, USAOs filed a total of approximately 54,000 cases in
fiscal year 2017.

Page 21

GAO-18-440 Firearm Denials

APPX 147

the sale or other disposition of such firearm or ammunition ….” 30
Generally, to convict someone for making a false statement on the ATF
Form 4473, the prosecutor must establish beyond a reasonable doubt
that the seller was a FFL; the defendant made a false statement or used
a false identification while acquiring or attempting to acquire a firearm; the
defendant knew the statement or identification was false; and the false
statement or identification was intended to, or likely to, deceive a FFL
about the lawfulness of the firearm sale. EOUSA officials said that
prosecutions for falsifying information are very challenging because of the
requirement to prove intent, and can become further complicated
because the purchaser may not know that he or she is prohibited and was
not intentionally trying to deceive an FFL. The officials added that these
cases are not appealing to judges and juries from a public safety
standpoint. They also said that they find juries questioning why the case
is being prosecuted in instances when the individual did not get the gun,
resulting in juries refusing to convict these individuals or jury
nullification. 31
EOUSA officials said that the number of prosecutions of firearms denials
can be low, particularly in standard denial cases where the system
worked and the subject did not obtain a firearm, and because of the
priority often given to other cases involving gun violence. EOUSA officials
said that delayed denial cases can require less effort to prosecute than
standard denials, since USAOs do not need to prove an individual’s intent
in making a false statement in purchasing the firearm, only that the
prohibited individual is intentionally in possession of a firearm. 32 For
instance, generally, to obtain a conviction for a felon in possession of a
firearm, the prosecution must establish beyond a reasonable doubt that
the defendant had previously been convicted of a crime punishable by
imprisonment for a term of more than 1 year; the defendant knowingly
possessed a firearm; and the firearm previously passed in interstate
30

18 U.S.C. § 922(a)(6).

31

“Jury nullification” is a jury’s knowing and deliberate rejection of the evidence or refusal
to apply the law either because the jury wants to send a message about some social issue
that is larger than the case itself or because the result dictated by law is contrary to the
jury’s sense of justice, morality, or fairness.

32

Under 18 U.S.C. § 922(g), it is unlawful for certain persons, such as someone who has
been convicted in any court of, a crime punishable by imprisonment for a term exceeding
1 year or who has been convicted in any court of a misdemeanor crime of domestic
violence, to possess or receive any firearm or ammunition which has been shipped or
transported in interstate or foreign commerce.

Page 22

GAO-18-440 Firearm Denials

APPX 148

commerce. However, officials from our six selected field divisions said
that as long as a firearm is recovered from the prohibited person and the
person is cooperative, ATF is unlikely to refer delayed denial
investigations to USAOs for prosecution.

ATF Has Not Assessed
Field Divisions’ Use of
Warning Notices in Lieu of
Prosecution

While officials from all six selected ATF field divisions said that
investigating the increasing number of denial cases can be time-intensive
and require use of their limited resources, ATF headquarters has not
assessed the extent to which field divisions’ use warning notices in lieu of
prosecutions or whether any policy changes could enhance their use as a
deterrence tool.

Increase in Denial
Investigations

Standard denial cases ATF referred to field divisions for investigation
grew by more than 200 percent ATF-wide from fiscal years 2011 through
2017, and by more than 300 percent within our six selected field divisions.
Moreover, delayed denial referrals grew by about 70 percent ATF-wide
and by 70 percent within our six selected field divisions during this period.
Figure 5 shows the increase in standard and delayed denial cases ATF
referred to its field divisions for investigation from fiscal years 2011
through 2017.

Page 23

GAO-18-440 Firearm Denials

APPX 149

Figure 5: Firearms Denial Cases Referred to Bureau of Alcohol, Tobacco, Firearms and Explosives Field Divisions for
Investigation, Fiscal Years 2011 through 2017.

Note: Under federal law, a federal firearms licensee (gun dealer) may transfer a firearm to an
individual if a background check has not been completed within 3 business days unless state law
provides otherwise. If the FBI or state agency makes a denial determination after a firearm transfer
has taken place, it is known as a delayed denial. If the FBI or state agency completes a background
check within 3 business days and determines that a person should be denied, it is known as a
standard denial.

At the same time, ATF data show that special agent staffing across our
six selected field divisions collectively only increased by one special
agent from fiscal years 2011 through 2017. Officials from five of our six
selected field divisions said that the increasing number of NICS denial
cases received from ATF headquarters for investigation has posed a
burden on staff resources.
Field divisions are required to investigate all delayed denial referrals, but
have discretion as to how thoroughly they investigate standard denial

Page 24

GAO-18-440 Firearm Denials

APPX 150

referrals. 33 Officials from all six selected field divisions said that, to date,
one of the ways they have been able to adjust to the increasing volume of
standard denial referrals has been by closing them with limited
investigation or sending warning notices to the prohibited individuals.
However, based on trends over the last 7 years, the number of standard
and delayed denial referrals for investigation could continue to increase.
In addition, the Attorney General’s March 2018 memo to USAOs directing
that the prosecution of false statements on the ATF Form 4473 be
enhanced may impact how, and how many, denial investigations ATF
performs.

Use of Warning Notices

For all delayed denials, ATF policy requires field divisions to contact
prohibited persons within three days of being assigned the case to advise
the person of their prohibition. According to ATF headquarters officials,
warning notices are intended to inform the individual that he or she is
prohibited from purchasing a firearm, should not attempt to purchase a
firearm again, and may be subject to prosecution. For delayed denials,
ATF policy also requires field divisions to send a written warning notice in
all instances where the special agent is unable to make contact with the
prohibited person within 3 business days, or when other circumstances
exist, such as extraordinary distance or inclement weather. Officials from
our six selected field divisions said that while warning notices for delayed
denials are not always delivered in writing, all individuals involved in
delayed denials receive a warning in some form—e.g., written, oral, or via
text message—from the ATF special agent investigating the denial.
Officials from one field division said that they send text messages to
denied purchasers in lieu of warning letters because they are less
intimidating to prohibited persons, the texts save time and money, and
are more effective in helping retrieve firearms.
For standard denials, warning notifications are not required. Specifically,
ATF policy provides that field divisions may send warning notices to
33

ATF Order 3140.1A, Denial Enforcement and NICS Intelligence Branch Referrals and
Investigations, August 9, 2017 Canceled ATF Order 3140.1, Denial Enforcement and
NICS Intelligence Branch Referrals and Investigations. November 12, 2014. The updated
ATF order delineates the field division’s roles and responsibilities separately for receiving
and investigating standard and delayed denials. Also, for standard denials, the order
provides that the investigating special agent will initiate investigative activity within 10
business days of receiving the referral. The previous order provided that the investigating
special agent initiate investigative activity within 5 business days. In addition, the order
provides protocols for the special agent to query ATF’s Automated National Instant
Criminal Background Check System Referral Application database to determine whether
the subject was previously denied the purchase of a firearm by the FBI NICS.

Page 25

GAO-18-440 Firearm Denials

APPX 151

denied persons “where appropriate and in lieu of prosecution.” 34
However, in instances where aggravating circumstances exist, such as if
the prohibited person committed a violent felony or made multiple
attempts to purchase firearms, ATF policy provides that consideration
should be given to hand-deliver the notice to the prohibited person. The 6
selected field divisions varied in the extent to which they sent warning
notices related to standard denials. Specifically, three of the six divisions
had established a practice to send notices to all prohibited persons.
Officials from these three divisions said that such letters are intended to
(1) educate the denied person that he or she is prohibited from
purchasing firearms, (2) deter the individual from attempting future
purchases, and (3) serve as evidence during any subsequent
investigation or prosecution that the individual knew that he or she was
prohibited from purchasing a firearm. Officials from one of these field
divisions also said that the practice of addressing standard denials by
sending warning notices is a good use of limited resources while
addressing a public safety concern.
Of the three field divisions that routinely send warning notices for all
standard denials, two send them via certified mail, while the other sends
letters via standard mail due to limited resources. According to officials
from these three field divisions, the costs associated with mailing warning
notices also includes staff time to locate recipient information and mail the
letters, in addition to supervisory review, as is done in at least one field
division. A group supervisor in one of these field division’s sub-offices
said that while their field division primarily uses certified mail, the suboffice hand delivers these notices for all standard and delayed denials.
Officials from one of these three field divisions said that they confirm the
prohibited status of individuals before sending the warning notices, while
officials at another field division said they do not confirm the prohibited
status prior to mailing but that the notice includes information on how to
appeal the denial. These three divisions received an average of about
800 standard denials in fiscal year 2017.
Officials from the three divisions that do not routinely send warning
notices for standard denials said that notices are only sent for standard
denials in rare cases. Such cases can include when there are aggravating
circumstances. Criminal activity or not cooperating with the ATF—after
the attempted purchase are examples of aggravating circumstances.
34

ATF Order 3140.1A.

Page 26

GAO-18-440 Firearm Denials

APPX 152

Officials from one field division stated that warning notices were used for
standard denials by individual agents in the past, but there was no field
division policy to do so routinely. Officials from another field division said
that due to limited resources, the decision was made to not send these
notices, though they said the notices could be an effective deterrent for
prohibited individuals from trying to possess a firearm or attempting to
purchase from an FFL. ATF headquarters officials said that under ATF
policy, the decision whether to send warning notices for all standard
denials is made by individual field divisions. 35 Therefore, they did not
know the extent to which each of the 25 divisions used this practice.
Standards for Internal Control in the Federal Government call on federal
managers to design control activities to achieve an agency’s objectives. 36
These controls can include using quality information to make informed
decisions, such as how best to achieve ATF’s objectives given limited
resources; evaluating ATF’s performance in achieving key objectives; and
addressing risks, including its limited resources to investigate or
prosecute denial cases. While ATF policy provides that individual field
divisions determine their use of warning notices, ATF headquarters is
uniquely positioned to assess use of the notices across all field divisions.
Assessing the extent to which ATF field divisions use warning notices for
standard denials would provide ATF headquarters with greater
awareness regarding agency-wide efforts to use the notices as a
deterrence tool in lieu of prosecution. As assessment could also better
inform ATF as to whether the application of certain practices to all field
divisions could be a feasible and effective use of limited investigative
resources, given the small number of standard denial cases prosecuted
each year, and revise related policies if appropriate.

35

ATF Order 3140.1A.

36

GAO, Standards for Internal Control in the Federal Government, GAO-14-704G
(Washington, D.C.: Sept. 10, 2014).

Page 27

GAO-18-440 Firearm Denials

APPX 153

Selected States Reported
That Denial Investigations
Compete with Other
Investigations and Cases
Can Be Difficult to
Successfully Prosecute
State Denial Investigations

State police supervisors in all three states (Oregon, Pennsylvania, and
Virginia) that investigate denials said investigators are generally assigned
to denial investigations as their time permits. Supervisors also said these
investigations are generally considered time consuming and can
sometimes impact other duties. State police supervisors said that these
investigations can be disruptive to operations by taking troopers away
from their core duties, such as traffic enforcement and response, except
where troopers are dedicated to conducting these investigations. State
troopers echoed this point, adding that denial investigations are difficult to
conduct given the amount of documentation needed for prosecution when
they have other duties. Local law enforcement officials in Oregon and
Pennsylvania also said that denial investigations are disruptive, as they
are usually forwarded to officers when they are on patrol, sometimes
many weeks or months after the firearms background check was initiated.
Investigators in all three states also said they face challenges assisting
with prosecutions of denied persons, including gathering the necessary
documentation to prove the individual knew they were prohibited. For
example, Virginia troopers said that obtaining records on out-of-state
convictions and mental health prohibitions, and locating documentation
on older convictions, can be especially difficult. Troopers in Oregon and
Virginia commented that in their experience, there can be some degree of
inaccuracy in the criminal records in their state. For example, they said
that arrests and prosecution results may not be accurately reflected in the
criminal history of the denied person. When the trooper checks the actual
record, it is sometimes discovered that the person is not prohibited. A
Virginia trooper said this is especially common for juvenile convictions.
Oregon and Virginia officials said they have been able to mitigate these
challenges by utilizing specialized troopers to conduct denial
investigations. These troopers are taken off line and generally perform
denial investigations almost exclusively. In both states, these specialized
troopers conduct a large portion of the denial investigations in these
states or in designated locations within the state. Virginia State Police

Page 28

GAO-18-440 Firearm Denials

APPX 154

officials told us that some areas within police divisions that receive a high
volume of denials for investigation use specialized troopers that spend all
or most of their time investigating firearms denials. These Virginia
troopers reported that they have become more efficient than troopers that
do not specialize because the repetition of performing multiple
investigations improves the learning curve and the quality of their
investigations. Virginia State Police officials said that while any area may
assign troopers to work exclusively on denial investigations, most areas
either cannot afford to remove a trooper from road coverage or do not
investigate enough cases involving persons denied firearms to make it an
effective use of resources. According to Oregon officials, five specialized
troopers in the state investigated more than 1,100 of the almost 2,600
firearms denials referred for investigation in 2016. These troopers
covered the denials for several metropolitan areas in Oregon and cited
efficiencies in conducting and referring investigations for prosecution.

State Denial Prosecutions

State prosecutors we interviewed in the three states that conducted
denial investigations said the primary challenge in prosecuting denial
cases is in gathering the evidence needed to prove that the individuals
knew they were prohibited. They added that the difficulty in gathering
evidence for certain prohibited categories also make those prosecutions
more difficult. For example, obtaining records related to old convictions,
out of state convictions, and mental health prohibitions are common
challenges. There are also challenges due to record retention policies for
specific prohibitions. For example, a Virginia prosecutor said that
prosecuting denials for misdemeanor crimes of domestic violence
convictions in Virginia that are more than 10 years old is difficult because
these records may be destroyed under state law after 10 years. Oregon
state investigators we interviewed said that, under state statutes,
successfully prosecuting someone for falsifying information on firearms
purchase forms requires proving that the person “knowingly and willingly”
falsified information on the form, which can be difficult to prove. One
Pennsylvania investigator also said that denied individuals may not
understand the questions on the forms and genuinely believe they are not
prohibited.
Prosecutors we interviewed who worked with specialized investigators
reported that they have worked closely with these troopers to facilitate
successful prosecutions. For example, an Oregon prosecutor we spoke to
utilizes a case reporting process where the trooper advises the
prosecutor of the strong cases to be considered for prosecution. This
allows prosecutors to focus their attention on the cases more likely to be
successfully prosecuted. In one Virginia county, the prosecutor’s office

Page 29

GAO-18-440 Firearm Denials

APPX 155

provides troopers a checklist of important points the trooper should
address to make a strong case for prosecution. Virginia prosecutors in
jurisdictions served by a specialized trooper said that they confer with the
troopers regularly and are able to successfully prosecute a high
percentage of the denial investigations these troopers conduct. 37

Firearms Denial
Investigations and
Prosecutions Are
Generally Based on
Aggravating
Circumstances in
Addition to Criminal
Records

While individuals are denied firearms purchases because they are
prohibited from possessing firearms under federal or state law, federal
denial investigations and prosecutions are generally based on additional
aggravating circumstances. The three states that investigate denial cases
have established priorities for investigating and prosecuting such cases.

ATF Investigations Most
Frequently Involve
Convicted Felons, but
Aggravating
Circumstances Are
Generally Needed for
Prosecution Referrals

The types of standard and delayed denial cases investigated by ATF field
divisions and referred to USAOs for prosecution are determined by
multiple factors, including the prohibiting category (e.g., felony
conviction), criminal history of the denied individual, USAO investigative
referral criteria, and the nature of the ATF investigation itself.
•

Of the almost 21,000 delayed denials the ATF DENI Branch referred
to ATF field divisions for investigation from fiscal years 2011 through
2017, 32 percent were denied for being convicted felons, 23 percent
for a qualifying misdemeanor crime of domestic violence, and 19
percent for being an unlawful user of, or addicted to, a controlled
substance. As discussed earlier, all delayed denials are referred to
the appropriate field division for investigation.

•

Of the almost 36,000 standard denials the ATF DENI Branch referred
to field divisions for investigation during this time period, 36 percent
were denied for being convicted felons, 30 percent for a qualifying
protective order, and 16 percent for a conviction for a qualifying
misdemeanor crime of domestic violence. For standard denials,
USAO investigative referral criteria, not the prohibiting category itself,

37

We were unable to verify any claimed prosecution rates.

Page 30

GAO-18-440 Firearm Denials

APPX 156

determines which cases are referred for investigation.
From fiscal years 2015 through 2017, the number of delayed denials
referred to ATF field divisions for investigation increased by 46 percent
(from 2,742 to 3,993). This increase was driven by cases in which the
prohibiting category was drug-related, which increased by about 300
referrals (60 percent increase); involved misdemeanor crimes of domestic
violence, which increased by about 250 referrals (34 percent increase);
and involved felony convictions, which increased by about 280 referrals
(34 percent increase). Also during this period, the number of standard
denials referred to ATF field divisions for investigation increased by 30
percent (from 6,715 to 8,717). This increase was driven by misdemeanor
crimes of domestic violence, which increased by about 626 referrals (62
percent increase), and felony convictions, which increased by about 659
referrals (25 percent increase). Cases in which the prohibiting category
was related to mental health or protection orders also increased by 42
percent (about 200 referrals) and 21 percent (about 300 referrals),
respectively. Figure 6 shows the breakdown of investigation referrals by
prohibiting category from fiscal years 2011 through 2017.

Page 31

GAO-18-440 Firearm Denials

APPX 157

Figure 6: Standard and Delayed Denials Referred to Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) Field
Divisions for Investigation by Prohibiting Category, Fiscal Years 2011 through 2017

The types of denial cases that ATF’s DENI Branch refers to field divisions
for investigation are determined by the USAO referral criteria established
in the district in which the purchase took place. Based on our analysis of
the standard denial referral criteria for the 34 USAO districts that cover
the six selected ATF field divisions as of February 2017, there are
similarities in the criteria used across these USAO districts. For example,
most of the 34 districts direct ATF to refer standard denials for
investigation if the cases involved recent convictions for violent crimes or
convictions for misdemeanor crimes of domestic violence. Also, about
two-thirds of the 34 USAO districts direct ATF to refer cases in which
prohibited persons have made two or more attempts to buy firearms while
prohibited. In addition to the 10 prohibitions listed under federal law, other
referral criteria used by USAO districts include prohibited individuals who
are also suspected terrorists or associates of suspected terrorists; known

Page 32

GAO-18-440 Firearm Denials

APPX 158

gang members or members of criminal organizations; or suspected of gun
trafficking.
Aggravating Circumstances Resulting in a
Prosecuted Firearms Denial Case
An individual attempted to purchase a firearm
while under indictment for first degree
robbery, in which the subject used a woman
to set up an exchange of sex for marijuana.
During the exchange, the subject robbed and
shot the victim. The subject was charged with
two felonies—falsifying information on the
background check form and illegal possession
of a firearm while under indictment. The
subject pled guilty to both charges and was
sentenced to 24 months in prison and 3 years
supervisory release.
Source: Bureau of Alcohol, Tobacco, Firearms and
Explosives. | GAO-18-440

The denial cases ATF field divisions refer to USAOs for prosecution
generally include aggravating circumstances in addition to the factors
discussed above related to an individual’s criminal history. According to
ATF officials in one field division, these aggravating circumstances could
include violent felonies or multiple serious offenses in a short period of
time, especially if these occurred in close proximity to the timing of the
attempted firearms purchase. For example, a prohibited person with
multiple armed robberies or actively involved in gang activity could be
considered to have aggravating circumstances. The officials described a
recent incident where an individual was found in possession of PCP three
times in a span of a couple months, then bought a firearm and fired it at
an occupied dwelling. This was considered a clear example, and the
individual was prosecuted for making a false statement as well as illegal
possession of a firearm stemming from the delayed denial. Additional
examples provided by ATF officials from our 6 selected field divisions of
recent cases ATF referred for prosecution include:
•

An individual purchased a firearm from an FFL and sold that firearm to
a prohibited person. The original purchaser was later denied (delayed
denial) due to a prior drug conviction. The purchaser was charged
with illegally possessing a firearm, making a false statement in the
purchase of a firearm, and making a “straw purchase,” which is when
an individual illegally purchases a firearm on behalf of another person.
According to ATF, this individual was sentenced to 1 year in federal
custody and 3 years of supervisory release.

•

An individual was charged with making false statements in the
attempted purchase of a firearm. The individual did not receive the
firearm as a result of a standard denial. During the investigation, the
subject was not cooperative, and had an extensive criminal history in
multiple states dating back 35 years, including several contacts with
law enforcement on domestic violence and protective orders. The
subject was charged with falsifying a background check form, to which
he pled guilty and was sentenced to 12 months in prison.

•

An individual under indictment for armed criminal action committed
first-degree robbery in which he used a woman to set up an exchange
of sex for marijuana. During the exchange, the subject robbed and
shot the victim. The subject later attempted to purchase a firearm and
was able to obtain the firearm as a result of a delayed denial. Later, a
completed NICS check revealed that he was a prohibited person for

Page 33

GAO-18-440 Firearm Denials

APPX 159

being under indictment, and was subsequently arrested later that
week. The subject was perceived as a threat to the community and
charged with two felonies, falsifying the background check form, and
illegal possession of a firearm while under indictment. He pled guilty
to both charges and was sentenced to 24 months in prison and 3
years supervisory release.
Of the 12 examples from our six selected field divisions provided, 9
involved delayed denials and 3 involved standard denials. Eleven of the
12 cases have been completed as of May 2018. Of the 9 cases charged
in federal court, 1 case was declined by prosecutors, and the other 8
resulted in guilty pleas. These guilty pleas resulted in penalties ranging
from time served to 33 months in prison, along with additional
punishments such as probation, fines, and mandated treatment
programs. Of the 3 cases charged in state court, 2 resulted in guilty pleas
and 1 had not been resolved as of May 2018. Of the 10 cases pursued by
federal and state prosecutors that resulted in guilty pleas, 7 cases
involved a subject with a history of drug crimes, 6 involved violent crimes,
and 4 involved domestic violence. Additional information on these case
examples can be found in appendix VI.
According to officials from our six selected ATF field divisions, standard
denial referrals may meet USAOs criteria and be referred to a field
division for investigation, but almost always do not have prosecutive merit
based on coordination with prosecutors. The officials noted that USAOs
generally do not accept standard denials that only involve a violation
related to falsified information. The officials also said that minor crimes,
such as burglary, from decades ago would likely not be a high enough
threat for prosecution. For delayed denial cases, officials from the 6 field
divisions said that if a firearm is retrieved or otherwise recovered from the
prohibited person—and the person is cooperative—ATF is unlikely to
refer these investigations to USAOs for prosecution unless there are
aggravating circumstances.

Page 34

GAO-18-440 Firearm Denials

APPX 160

Oregon, Pennsylvania,
and Virginia Investigate a
Large Proportion of
Firearms Denials and
Prioritize Certain
Prohibitions, but a Small
Number are Prosecuted
State Investigations

The types of denial cases that are referred for investigation in Oregon,
Pennsylvania, and Virginia are determined in part by the priorities the
states have set for such referrals. For Oregon and Pennsylvania, which
investigate all firearms denials, these priorities include cases involving
stolen guns, purchasers with active warrants, active protection orders,
and prior felony convictions. In these states, convictions of a crime
punishable by more than one year (i.e. felony convictions) are the most
common reasons for denial. Virginia investigates a subset of all denials
based on risk, and has a policy to prioritize denials that is similar to
Oregon and Pennsylvania—active warrants, active protection orders, as
well as mental health issues.
According to Virginia state police officials, denials can be referred for
investigation if they involve one or more of a set of prohibiting
categories. 38 In 2017, these amounted to about 50 percent of the almost
3,600 denials recorded. Virginia state police officials said that
investigations tend to be handled in the order they arrive, regardless of
prohibited category. Two troopers said that Virginia residents with
exclusive Virginia criminal histories jump to the top of their lists because
the records for these individuals will be easiest to obtain. The
investigators in these Virginia jurisdictions said they tend to refer most of
their investigations for prosecution, regardless of the prohibited category,
if there is evidence to support the falsified information charge.
Pennsylvania investigators and supervisors generally said that no priority
is given to the denial investigation referrals they receive. They said
38

According to Virginia state police officials, prohibitions that trigger an automatic
investigation in Virginia include felony conviction, including juvenile felony conviction, or
felony indictment; misdemeanor crime of domestic violence; protective order; involuntary
mental health treatment; nonimmigrant or illegal alien; and dishonorable discharge from
the military.

Page 35

GAO-18-440 Firearm Denials

APPX 161

investigations tend to be handled on a first in first out basis, regardless of
the prohibiting category of the denied person. One supervisory trooper
said that since these investigations are usually sent to the field 2 to 3
months after the transaction has occurred, they are generally considered
low priority when compared to assaults, robberies, and other crimes a
trooper investigates. Oregon state police management and troopers told
us they prioritize cases involving stolen guns, purchasers with active
warrants, active protection orders, and prior felony convictions. Local law
enforcement agencies that investigate denial cases in Oregon told us
they do not prioritize any cases—except for active warrants—handling
them in order as they are received.
Investigators in all three states said that the criminal histories of those
investigated tend to be minor. For example, outside of the prohibiting
offenses that led to persons being denied, most of these individuals’
criminal histories tend to consist of old prohibiting offenses like nonviolent felonies, or drug possession, with few gun violations noted.
Investigators in these three states said that this may be because
individuals with the most severe criminal histories do not attempt to
purchase firearms through FFLs. However, one investigator said that
individuals who were denied based on misdemeanor crimes of domestic
violence tend to have multiple charges in their background.

State Prosecutions

State investigators said prosecutors’ interest or willingness to prosecute is
a key determinant for whether a case is referred for prosecution. One
investigator also said he may check with prosecutors early in an
investigation to determine the likelihood of prosecution. According to
Oregon troopers, denial investigations that are recommended for
prosecution often involve convictions for felonies, misdemeanor crimes of
domestic violence, and restraining orders. The troopers said that the
strength of the case—including the adequacy and availability of proof the
individual knew he or she was prohibited and falsified information—
determines which cases are referred to prosecutors.
Prosecutors from all three states said that they generally pursue cases
against individuals who have indications of violence, including protection
orders, domestic violence, and felony convictions. Individual prosecutors
also identified specific prohibiting categories, based on public safety
concerns, as their priorities for prosecution. An Oregon prosecutor said
there is a good public safety argument for prosecuting denials based on
domestic violence, mental health, and felony prohibitions when there is
probable cause. However, for other prohibiting categories, such as being
on probation or being a drug user, the officials said that prosecuting these

Page 36

GAO-18-440 Firearm Denials

APPX 162

denial cases is not very useful based on the amount of effort required to
prosecute. A Virginia prosecutor cited domestic violence and protection
orders as being prosecuted most often. A Pennsylvania prosecutor said
that his county prosecutes most of the referrals it receives, with denials
for multiple instances of driving under the influence, mental health, and
domestic violence being the most common.
State prosecutors we interviewed also said the cases they accept for
prosecution may be influenced by the fact that certain types of cases are
harder to prove. For example, they said that denials involving mental
health, drug users, and misdemeanor crimes of domestic violence are
often harder to prove, due in part to the difficulty in obtaining related
records. The officials added that cases involving out-of-state and older
convictions are also not prosecuted as often as other cases due to the
difficulty in obtaining records. State prosecutors also said that there are
certain circumstances where prosecutors are reluctant to pursue
prosecution—such as cases where prohibitions occurred as a juvenile—
where a firearms denial conviction would establish an adult criminal
record where no criminal record had previously existed.
According to the prosecutors we contacted, the criminal histories of
denied individuals generally involved minor violations other than the
prohibiting offense. Prosecutors said the criminal history of the individual
can play a role in whether felony charges are filed, as opposed to
misdemeanor charges, and for sentencing. For example, one Virginia
prosecutor said that he will file felony charges for a denial case only for
cases in which an individual was denied based on an active protection
order or serious felony in his county. Another Virginia prosecutor said that
there is consideration of both criminal history—convictions for violent
felonies or misdemeanors, especially—as well as multiple arrests where
no conviction resulted, when deciding whether to charge the denied
person with a felony or misdemeanor. The prosecutor noted, however,
that denial cases tend not to be violent felons or hardened criminals.
According to a Pennsylvania prosecutor, almost all cases are ultimately
charged with misdemeanors. The prosecutor noted, however, that the
state recently brought multiple felony charges against a person who was
denied a firearms purchase based on a murder conviction in 1973.
These prosecutors also stated that they often try to plead denial cases
whenever possible, as these cases often do not result in convictions
when they go to trial. For example, a prosecutor in Pennsylvania told us
about one denial case that went to trial where the jury found the denied
person not guilty. The defendant was prohibited from purchasing a

Page 37

GAO-18-440 Firearm Denials

APPX 163

firearm based on convictions for repeatedly driving while under the
influence, a misdemeanor with a potential prison term of 5 years in that
state. The attorney said the jury believed that it was a pointless
prosecution for a firearm’s denial offense. In Virginia, one prosecutor also
described a case where a person was denied because of a mental health
prohibition, and the person was found not guilty of the charges of
falsifying information when attempting to purchase the firearm. He
attributed this to a sympathetic defendant and jury reluctance to impose a
criminal conviction on an individual without a criminal record. 39
Further, state officials said that the penalties handed down when denied
individuals are convicted tended to be minor. The Oregon prosecutors
said that common penalties are fines (usually in the hundreds of dollars)
and probation ranging up to 1 year depending on the criminal background
of the denied person. According to a Pennsylvania state police official, in
some instances the charges are pled down to a lesser violation, such as
disorderly conduct, which result in an approximately $300 fine. The two
Pennsylvania prosecutors we interviewed said that most denial
prosecutions in their jurisdictions are pled down to misdemeanors,
eliminating the need for a trial. According to the prosecutors, common
penalties for misdemeanor convictions include probation and the
requirement to pay court costs (upwards of $1,000 in one county). The
prosecutors added that there is an occasional jail sentence for denied
felons with substantial criminal records that can result in about 1 to almost
2 years in jail. Prosecutors across the states said that they try to plead
cases—thus avoiding trial—whenever possible. One Pennsylvania
prosecutor said that cases without strong evidence that cannot be pled
are sometimes dropped because conviction would be difficult. Another
Pennsylvania prosecutor said jury apathy in one strong case led to fewer
denial cases. Virginia prosecutors said that most convictions are for
misdemeanor charges and result in probation, fines, and court costs.
They did say, however, that jail time has resulted for denied individuals
with violent felony convictions.

Conclusions

At the federal level, the number of firearms denial cases ATF has referred
to its field divisions for investigation has increased substantially over
recent years, which has placed a burden on field division resources. At
the same time, field division resources have not increased, and the
39

This case is an example of “jury nullification.”

Page 38

GAO-18-440 Firearm Denials

APPX 164

number of USAO prosecutions remains low—totaling 12 in fiscal year
2017. Assessing the extent to which ATF field divisions use warning
notices for standard denials in lieu of prosecution would provide ATF
headquarters greater awareness of agency-wide deterrence efforts, and
better inform the agency as to whether any policy changes are needed.

Recommendation for
Executive Action

We recommend that the Deputy Director, Head of the Bureau of Alcohol,
Tobacco, Firearms and Explosives assess the extent to which ATF field
divisions use warning notices for standard denials in lieu of prosecution
and determine whether any policy changes are needed.
(Recommendation 1)

Agency Comments

We provided a draft of this report to DOJ for review and comment. DOJ
concurred with our recommendation to ATF and provided technical
comments, which we incorporated in this report where appropriate.
We are sending copies of this report to the appropriate congressional
committees, the Attorney General, the Deputy Director, Head of the
Bureau of Alcohol, Tobacco, Firearms and Explosives, and other
interested parties. In addition, the report will be available at no charge on
the GAO website at http://www.gao.gov.
If you or your staff have any questions about this report, please contact
me at (202) 512- 8777 or goodwing@gao.gov. Contact points for our
Offices of Congressional Relations and Public Affairs may be found on
the last page of this report. GAO staff who made key contributions are
listed in appendix VII.
Sincerely yours,

Gretta L. Goodwin
Director, Homeland Security and Justice

Page 39

GAO-18-440 Firearm Denials

APPX 165

Appendix I: Objectives, Scope and
Methodology
Appendix I: Objectives, Scope and
Methodology

Our objectives in this report were to (1) describe the extent to which
federal and selected state law enforcement agencies investigate and
prosecute firearms denial cases; (2) examine the challenges, if any, that
federal and selected federal and selected state law enforcement agencies
face in investigating and prosecuting firearms denial cases; and (3)
describe the circumstances that lead to the investigation and prosecution
of persons denied firearms.
To describe the extent that federal and selected state law enforcement
agencies investigate and prosecute firearms denials, we reviewed
published reports regarding federal and state law enforcement efforts to
investigate and prosecute firearms denials. For federal efforts, we
requested data from the Federal Bureau of Investigation’s (FBI) National
Instant Criminal Background Check System (NICS) regarding firearms
denials provided to the Bureau of Alcohol, Tobacco, Firearms, and
Explosives (ATF) by state and prohibiting category for fiscal years 2011
through 2017. We reviewed the internal controls in place for these data
and determined that the data were reliable for our purposes. We
requested and received data from the ATF Automated National Instant
Criminal Background Check System Referral Application and the NForce
Case Management System that showed how many of these denials, both
standard and delayed, were forwarded from ATF’s Denial Enforcement
NICS Intelligence (DENI) Branch to ATF field divisions, broken out by the
prohibiting category of the denials. 1 This provided us the total count of
denials that ATF may investigate nationwide. To assess the reliability of
these data we reviewed internal controls and the data quality assurance
program of ATF. We determined that these data were reliable for the
purpose of our reporting objectives.
To examine federal prosecutions of denied persons, we requested
information from ATF’s case management system that identified the NICS
cases that were prosecuted, including those instances where a conviction
was recorded. For state investigations and prosecutions, we selected the
13 states that perform their own background checks for all firearms
transactions and searched their state police and state agency websites to
1

The ATF Automated National Instant Criminal Background Check System Referral
Application is ATF’s database for information relating to all firearm denials received from
the FBI NICS Section. ATF’s DENI Branch uses the database to refer firearm denial cases
to ATF field divisions for investigation. NForce is a case management system that
supports ATF’s law enforcement operations, including opening and closing cases, and
referring cases for investigation.

Page 40

GAO-18-440 Firearm Denials

APPX 166

Appendix I: Objectives, Scope and
Methodology

identify the state’s background check units, or staff associated with this
function and inquired about their policy regarding the investigation of
persons denied firearms purchase. From these contacts we determined
that 10 of these selected states did not perform investigations, while 3
point-of-contact (POC) states did investigate these denials.
We analyzed data from the state police in Oregon, Pennsylvania and
Virginia that identified the number of firearms denials recorded, the
prohibiting category of the denials, and the number of these denials
referred to state or local law enforcement for investigation. To assess the
reliability of these data we interviewed knowledgeable individuals about
the procedures for creating these data, and reviewed the internal controls
in place within these systems. We determined that this data was reliable
for the purpose of our reporting objectives. We spoke to state and local
investigators and prosecutors in these states to discuss the investigative
processes followed and the frequency of prosecution. Though these
prosecutors tended to lack hard data on the number of these cases
prosecuted and the outcome of these prosecutions, they were able to
share their experiences prosecuting these cases, and to estimate the
approximate quantity of these cases that have been addressed by their
offices. We believe their experiences provide an understanding of the
demands these prosecutions place on prosecutors’ offices and the value
these prosecutions have for the jurisdiction in question.
To describe the challenges, if any, federal and selected state law
enforcement agencies face in investigating and prosecuting firearms
denials, for federal denial investigations, we used the denial referral data
provided by ATF to identify the field divisions that received the most
denial referrals for investigation. We found that 6 field divisions received
about 60 percent of the total ATF standard denial referrals over the 2011
through 2017 fiscal year period. These six field divisions also received
more than half of the delayed denial referrals distributed to the 25 ATF
field divisions over that time period. To assess the reliability of the referral
data and the case data, we discussed the internal controls in place with
knowledgeable officials and received a copy of the ATF quality assurance
plan for review. We determined that the data was reliable for the
purposes of our reporting objectives.
We contacted officials in these six field divisions and discussed the
investigative process for standard and delayed denial investigations as
well as the challenges these investigations posed to the ATF staff in
these field divisions. We also evaluated ATF’s investigative procedures
and internal controls in place against the Standards for Internal Control in

Page 41

GAO-18-440 Firearm Denials

APPX 167

Appendix I: Objectives, Scope and
Methodology

the Federal Government. 2 We also discussed the types of cases that
each field division referred to the appropriate USAO for prosecution, and
were provided detailed examples from ATF headquarters of these denial
cases for each of the six field divisions. We spoke to EOUSA officials to
discuss the circumstances that would lead a USAO to prosecute a
firearms denial and the challenges faced in these prosecutions. For state
denial investigation challenges we spoke to state troopers and local law
enforcement to learn about the procedures for conducting these
investigations, the challenges that investigators face, and how and when
these firearms denial investigations are referred to prosecutors. We also
spoke with multiple prosecutors from each of these states and discussed
their offices’ policies for accepting these denial cases, how often these
cases were prosecuted in these localities and the general outcome of the
cases. Though we did not speak to a representative sample of
prosecutors across our selected states, we believe their views provide
insights into the types of challenges faced by prosecutors in those states.
To identify the circumstances that lead to investigations and prosecutions
of firearms denials, we reviewed federal denial investigations by visiting
the ATF DENI Branch, the office that uses USAO criteria to screen
federal NICS denials for referral to ATF field divisions. There, we
observed how denials are screened and discussed internal controls. We
also requested USAO referral criteria from the 34 USAO districts that
comprise the six ATF field divisions that received the most denial referrals
from 2011 to 2017. We also analyzed standard and delayed denial
referral data that captured the prohibited categories of the referrals to
those field divisions. Further, we analyzed standard and delayed denial
case data for the investigations that were referred for prosecution for
fiscal years 2015 through 2017, and those that were ultimately
prosecuted. To assess the reliability of the data we discussed the internal
controls in place for entering the data and the quality assurance plan in
place after data was entered. We determined that the data was reliable
for the purposes of our reporting objectives.
Officials from our 6 selected ATF field divisions also provided examples of
denial cases investigated and referred for prosecution. These case
examples included the specific circumstances that convinced the field
division to investigate and refer the case for prosecution. For these
2

GAO, Standards for Internal Control in the Federal Government, GAO-14-704G
(Washington, D.C.: Sept. 10, 2014).

Page 42

GAO-18-440 Firearm Denials

APPX 168

Appendix I: Objectives, Scope and
Methodology

federal denial prosecutions, we identified firearms denial cases in PACER
and LEXIS for the years 2015, 2016 and 2017 to identify the specific
circumstances of the cases prosecuted, the statutes used to charge the
defendants, and the outcome of the cases. 3 We also spoke to EOUSA
officials and discussed the reasons that certain denial cases were
prosecuted while thousands of others are not. For state denial
investigation circumstances, we spoke with state and local investigators
from the three selected states that investigate and prosecute denials and
discussed the circumstances—to include state priorities, the prohibiting
category and criminal history of those investigated—that resulted in state
firearms denial to be referred for prosecution. We also spoke with multiple
prosecutors from the same states and asked them to describe the
characteristics of cases they are more likely to prosecute, as well as
those they are less likely to prosecute. While we did not speak to a
representative sample of investigators and prosecutors from these states,
we believe their experiences and viewpoints provide insights into how
these investigations and prosecutions are conducted and prioritized in
these states.
We conducted this performance audit from March 2017 through
September 2018 in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

3

PACER is an electronic public access service that allows users to obtain case and docket
information online from federal appellate and district courts. PACER provides access to
certain criminal complaints, motions, and other case file documents and docket
information.

Page 43

GAO-18-440 Firearm Denials

APPX 169

Appendix II: Bureau of Alcohol, Tobacco,
Firearms and Explosives Form 4473
Appendix II: Bureau of Alcohol, Tobacco,
Firearms and Explosives Form 4473

Page 44

GAO-18-440 Firearm Denials

APPX 170

Appendix II: Bureau of Alcohol, Tobacco,
Firearms and Explosives Form 4473

Page 45

GAO-18-440 Firearm Denials

APPX 171

Appendix II: Bureau of Alcohol, Tobacco,
Firearms and Explosives Form 4473

Page 46

GAO-18-440 Firearm Denials

APPX 172

Appendix II: Bureau of Alcohol, Tobacco,
Firearms and Explosives Form 4473

Page 47

GAO-18-440 Firearm Denials

APPX 173

Appendix II: Bureau of Alcohol, Tobacco,
Firearms and Explosives Form 4473

Page 48

GAO-18-440 Firearm Denials

APPX 174

Appendix II: Bureau of Alcohol, Tobacco,
Firearms and Explosives Form 4473

Page 49

GAO-18-440 Firearm Denials

APPX 175

Appendix III: Investigation and Prosecution
of Firearms Denials in Oregon
Appendix III: Investigation and Prosecution of
Firearms Denials in Oregon

This appendix includes information on the investigation and prosecution
of individuals denied firearms purchases in the state of Oregon.

Firearms Background
Checks

In the state of Oregon, the Oregon State Police (OSP) Firearms Unit
serves as the point of contact responsible for conducting background
checks for firearms transactions. OSP’s Firearms Instant Check System
(FICS) unit conducts criminal background checks to determine the
eligibility of individuals attempting to transfer or purchase a firearm.
Oregon law requires that gun dealers request that the OSP conduct a
criminal history record check on the purchaser before a firearm is
delivered to a purchaser. 1 Dealers may submit these requests either by
telephone or online. The FICS unit determines from criminal records and
other available information whether the purchaser is disqualified under
state or federal law from completing the transfer or is otherwise prohibited
by state or federal law from possessing a firearm.
Generally, for gun shows, 2 Oregon law prohibits a transferor who is not a
gun dealer from transferring a firearm unless the transferor requests a
criminal background check prior to completing the transfer, receives a
unique approval number from OSP indicating that the recipient is qualified
to complete the transfer, and has the recipient complete the form for
transfer of a firearm at a gun show, or completes the transfer through a
gun dealer. 3 Generally, for private firearms sales, Oregon law requires a
transferor to complete the transfer of a firearm to a transferee through a
gun dealer. 4 Prior to the transfer of the firearm, both the transferor and
the transferee must appear in person before a gun dealer, with certain
exceptions, with the firearm and request that the gun dealer perform a
criminal background check on the transferee. 5

1

Or. Rev. Stat. §§ 166.412(2)(d), 166.432, and 166.434.

2

Pursuant to Or. Rev. Stat. § 166.432(2)(b), a “gun show” is defined as “an event at which
more than 25 firearms are on site and available for transfer.”

3

Or. Rev. Stat. § 166.438.

4

Or. Rev. Stat. § 166.435(2).

5

Or. Rev. Stat. § 166.435.

Page 50

GAO-18-440 Firearm Denials

APPX 176

Appendix III: Investigation and Prosecution of
Firearms Denials in Oregon

Process for Conducting a Background Check
When a FICS background check is requested, Oregon law requires the
seller to provide information about the firearm—so OSP can ensure it has
not been reported stolen—and the purchaser in order to conduct a
criminal history check. 6 If the purchaser is qualified, a unique approval
number is provided to complete the transaction. The dealer then enters
this number on the Bureau of Alcohol, Tobacco, Firearms, and Explosives
(ATF) background check form (Form 4473), and a thumbprint form, which
is attached to the Form 4473 and retained for 5 years. By statute, if OSP
is unable to determine if the purchaser is approved or denied within 30
minutes, OSP is required to notify the dealer and provide an estimate of
when the check will be completed. 7 These checks are placed in a
pended/delayed status until sufficient record information can be obtained
to complete the request.
Federal law provides that if the FBI or state agency cannot complete a
background check within 3 business days and make a final determination
(i.e., proceed or denied), the Federal Firearms Licensee (FFL) may
transfer the firearm pursuant to federal law, unless state law provides
otherwise. 8 Regardless of the FFL’s decision to transfer or not transfer
the firearm, OSP will continue to research missing information in order to
complete the background check request and provide either an approval
number or notice that the person is denied for the FFL’s records.
Typically, a case is placed in “pend” status because the record is missing
information necessary to make a final determination. For example,
domestic violence charges may not include details about the relationship
needed to make a determination; state, local, or federal agencies may not
have the resources to respond in a timely manner to requests for missing
information; or it may be unclear whether prior charges were a felony or
misdemeanor.
When a transaction is denied, it is either labeled a Priority FICS Call, and
is dispatched to the first available trooper or local law enforcement officer,
or it is labeled a Cold FICS Call, and dispatched to the appropriate OSP
6

Or. Rev. Stat. § 166.412(2)(d)(E).

7

Or. Rev. Stat. 166.412(3)(b).

8
18 U.S.C. § 922(t)(1)(B)(ii). States can establish their own firearms laws, such as
additional prohibiting categories or additional time frames for completing checks before a
dealer may transfer the firearm. See Or. Rev. Stat. § 166.412(3)(c).

Page 51

GAO-18-440 Firearm Denials

APPX 177

Appendix III: Investigation and Prosecution of
Firearms Denials in Oregon

office and next available trooper or local law enforcement officer. Priority
calls are those that involve a convicted felon, a serviceable warrant, a
stolen gun, or a restraining/stalking order. Oregon Executive Order 16-12
requires notification of certain officials after a transaction is denied if the
prohibited person is on probation, on parole or post-prison supervision,
subject to a court-issued release agreement or protective order, or
subject to supervision by a Psychiatric Security Review Board. 9 Figure 7
shows the process for purchasing a firearm from a dealer in Oregon.
Figure 7: Process for Purchasing a Firearm from a Dealer in Oregon

According to OSP officials, 95 to 97 percent of background checks are
approved and less than 1 percent are denied within minutes of initiation,
while roughly 3 to 5 percent are placed in pend/delay status. According to
FICS officials, about 95 percent of pend/delay transactions are ultimately
approved.
A challenge phone line is available for individuals who have been denied
or pended and wish to find out the reason, or to challenge a denial
9

Or. Exec. Order 16-12 (July 15, 2016).

Page 52

GAO-18-440 Firearm Denials

APPX 178

Appendix III: Investigation and Prosecution of
Firearms Denials in Oregon

determination. The gun dealer may be asked to fax the ATF form 4473
and thumbprint form to the FICS Unit to assist in the challenge process.
The purchaser is provided a reference number upon request to be used
to appeal the determination through the Federal Bureau of Investigation’s
(FBI) National Instant Criminal Background Check System (NICS)
program.

Denials and
Prohibited Categories

Oregon law prohibits individuals that have been convicted of certain
offenses from possessing firearms. For example, Oregon prohibits the
possession of a firearm by any person found to have mental illness and
subject to a court order for treatment or commitment that prohibits them
from purchasing or possessing a firearm as a result of mental illness. 10
Finally, an individual is prohibited if while a minor, was found to be within
the jurisdiction of the juvenile court for having committed an act which, if
committed by an adult, would constitute a felony or misdemeanor
involving violence and was discharged from the jurisdiction of the juvenile
court within the last 4 years. 11 Table 2 shows Oregon firearms denials by
prohibiting categories.

10

Or. Rev. Stat. § 166.250.

11

Or. Rev. Stat. § 166.250. A “misdemeanor involving violence” under Or. Rev. Stat. §
166.250, is defined in Or. Rev. Stat. § 166.470 as a misdemeanor described in Or. Rev.
Stat. §§ 163.160 (relating to the crime of assault in the fourth degree); 163.187 (relating to
the crime of strangulation); 163.190 (relating to the crime of menacing); 163.195 (relating
to the crime of recklessly endangering another person); or 166.155(1)(b) (relating to the
crime of intimidation in the second degree by intentionally subjecting another person to
offensive physical contact because of the person’s perception of the other’s race, color,
religion, sexual orientation, disability, or national origin).

Page 53

GAO-18-440 Firearm Denials

APPX 179

Appendix III: Investigation and Prosecution of
Firearms Denials in Oregon

Table 2: Oregon Firearm Denials by Prohibiting Category, Fiscal Years 2011 through 2017
Prohibiting Category

2011

2012

2013

2014

2015

2016

2017

TOTAL

52

37

40

45

82

80

71

407

Wanted Person

204

232

257

212

204

156

50

1,315

Convicted of a Felony

Mental Health Adjudicated

663

768

756

544

525

522

303

4,081

Pre-Trial for a Felony Crime

65

80

50

45

62

55

42

399

Restraining Order

54

49

49

25

34

35

21

267

Probation

508

603

507

406

478

399

289

3,190

Conviction of Violent Misdemeanor
in Last 4 Years

188

251

201

165

209

188

138

1,340

1

1

3

0

4

2

1

12

Dishonorable Discharge of Armed
Forces

12

7

14

22

31

44

19

149

159

206

75

64

166

86

76

832

Misdemeanor Disqualifier from
Another State

8

11

13

2

6

4

4

48

Unlawful User of a Controlled
Substance

53

88

55

26

61

21

26

330

Other (Federal)

34

98

123

87

45

49

10

446
12,816

Illegal Alien / Renounced Citizenship
Convicted Domestic Abuse

TOTAL Denials
TOTAL Transactions

2,001

2,431

2,143

1,643

1,907

1,641

1,050

197,888

259,513

263,283

233,878

262,838

302,726

287,080

Source: Oregon State Police Firearms Instant Check System. | GAO-18-440

From 2011 through 2017, prohibited persons convicted of a felony was
the most common category among firearm denials, followed by
individuals on probation, individuals convicted of a violent misdemeanor
in the previous 4 years, and wanted persons. The two largest prohibiting
categories, convicted felons and individuals on probation, made up 32
percent and 24 percent, respectively, of all denials in 2016. In 2017,
convicted felons fell to 29 percent and individuals on probation increased
to 28 percent. Wanted persons, the fourth largest group in 2016, made up
10 percent of all denials that year, but fell to less than 5 percent of all
denials in 2017. Total firearms denials fluctuated during that span from
more than 2,400 denials in 2012, to 1,050 in 2017. From 2015 to 2017,
denials declined each year. Total firearm transactions fluctuated as well,
but generally increased during that span, increasing from less than
200,000 in 2011 to over 287,000 in 2017. From 2015 to 2017, denials fell
by 45 percent while total transactions increased by 9 percent.

Page 54

GAO-18-440 Firearm Denials

APPX 180

Appendix III: Investigation and Prosecution of
Firearms Denials in Oregon

Investigations of
Denials

Oregon has had the policy of investigating all persons denied a firearms
purchase since 2014. Prior to 2014, OSP only investigated a small
percentage of persons denied firearms purchases, with a priority placed
on denied persons with an active warrant.
According to OSP, the FICS unit provides the initial source of information
in a denial investigation packet, which generally includes but is not limited
to:
•

FICS Transaction Report, which includes information regarding the
denied transfer, the subject firearm, the point of sale location, the
denied transferee, and the specific reason for denial;

•

Oregon Criminal History data;

•

Interstate Identification Index information;

•

FBI’s NICS information; and

•

Court records, police reports, or other records specific to the individual
transferee and the denial in question.

Before an investigation is started, OSP must determine whether the
investigation should be conducted by OSP or local law enforcement. If the
jurisdiction where the transaction took place has an agreement with OSP
to receive training on firearms investigations, then the local law
enforcement agency will conduct the investigation. Otherwise, OSP will
conduct the investigation. In 2016, 26 percent of denial investigations
were conducted by local law enforcement, up from 22 percent in 2015.
The percentage covered by local law enforcement rose to 28 percent in
2017. In September 2017, three large local jurisdictions agreed to receive
firearms denial referrals from OSP. For the last three months of 2017 the
proportion of denials referred to local law enforcement was about 33
percent.
OSP has five troopers dedicated full-time to FICS denial investigations in
specific locations across the state. These troopers have essentially been
pulled off of regular patrol duties and dedicated full-time to firearms denial
investigations, according to OSP officials. These troopers cover the
denials for most of the major metropolitan areas in Oregon. Except for the
highest priority cases, the denial cases are tasked to the dedicated FICS
troopers if the case falls within their geographical area of responsibility.
According to Oregon officials, the five specialized troopers in the state

Page 55

GAO-18-440 Firearm Denials

APPX 181

Appendix III: Investigation and Prosecution of
Firearms Denials in Oregon

investigated more than 1,100 of the almost 2,600 firearms denials
referred for investigation in 2016.
OSP troopers are required through OSP executive leadership directives
to investigate each FICS case and submit the case, with all available
facts and evidence, to the appropriate District Attorney’s Office for review,
regardless of findings. With this information, the prosecutor makes an
independent charging decision. When there is a recommendation
included with the investigator’s report, it is most often to not file charges,
either because the evidence indicates no crime was committed, or
because there are specific mitigating circumstances involved in the case.
Finally, OSP generates a report tracking denial investigations and the
dispositions of any new criminal cases initiated after the investigation is
completed. There is no current mechanism for reporting actions taken
following an investigation and therefore OSP has no data regarding the
total number of prosecutions accepted and convictions obtained.

Statutes Used

Prosecution of
Firearm Denials

According to OSP officials, potential state level criminal conduct
associated with denied firearm transfers are established in Oregon
Revised Statutes Chapters 162 and 166. These crimes include but are
not limited to:
•

Or. Rev. Stat. § 162.075 False swearing.

•

Or. Rev. Stat. § 166.250 Unlawful possession of firearms.

•

Or. Rev. Stat. § 166.270 Possession of weapons by certain felons.

•

Or. Rev. Stat. § 166.416 Providing false information in connection with
a firearm transfer.

•

Or. Rev. Stat. § 166.418 Improperly transferring a firearm.

•

Or. Rev. Stat. § 166.425 Unlawfully purchasing a firearm.

•

Or. Rev. Stat. § 166.435 Firearm transfers by unlicensed persons;
requirements; exceptions; penalties.

•

Or. Rev. Stat. § 166.470 Limitations and conditions for sales of
firearms.

Generally, Oregon’s Constitution requires the election by districts of a
sufficient number of prosecuting attorneys (District Attorneys), who are
the law officers of the state, and of the counties within their respective
districts, and are to perform duties pertaining to the administration of

Page 56

GAO-18-440 Firearm Denials

APPX 182

Appendix III: Investigation and Prosecution of
Firearms Denials in Oregon

law. 12 District Attorney responsibilities may include, but are not limited to,
representing the district in felony prosecutions, misdemeanor
prosecutions, grand jury proceedings, mental commitment hearings,
family abuse prevention hearings, and juvenile delinquency hearings.
After a trooper completes an investigation, they submit a report to the
District Attorney’s office. A prosecuting attorney then reviews the case
and decides whether to charge an individual or individuals with a crime.
When a case is not prosecuted, a rejection memo is provided to the
trooper that submitted the report. According to two Oregon county
prosecutors we interviewed, from late 2014 through 2017, their offices
accepted about 140 of the more than 700 firearms denial investigations
referred to their offices, with most prosecuted successfully. According to
OSP officials, the most common types of cases resulting in convictions
are related to misdemeanor domestic violence convictions, followed
closely by prior felony convictions. The officials said that a new working
group was created in 2016 to review gun relinquishment protocols in
domestic violence cases, review outcomes and make recommendations
to improve the safety of domestic violence survivors. With regard to
sentencing, these prosecutors said common penalties in firearms denial
cases include fines (usually in the hundreds of dollars), and probation
ranging up to 1 year, depending on the criminal background of the denied
individual.
According to OSP, data is not collected on what prosecutions and
convictions result from investigations by prohibited category. However,
anecdotally, investigators and prosecutors said the prohibiting category of
convicted felons is the most common among persons prosecuted for
FICS denials. Prosecution outcomes are not automatically reported back
to OSP; each county’s District Attorney must be contacted to obtain their
agency’s respective case outcome data. Reporting disposition of firearms
denial cases back to FICS is voluntary and can be done via an online
form. The participating local agencies are requested to report back to
OSP on the findings of their investigations; however, this reporting is
voluntary and according to FICS officials, many agencies do not
consistently submit this information.

12

Ore. Const. art. VII, § 17.

Page 57

GAO-18-440 Firearm Denials

APPX 183

Appendix IV: Investigation and Prosecution
of Firearms Denials in Pennsylvania
Appendix IV: Investigation and Prosecution of
Firearms Denials in Pennsylvania

This appendix includes information on the investigation and prosecution
of individuals denied firearms purchases in the state of Pennsylvania.

State Firearms
Background Checks

Since 1998, Pennsylvania has served as a Point-of-Contact (POC) state
for the National Instant Criminal Background Check System (NICS)
operated by the Federal Bureau of Investigation (FBI). The Pennsylvania
State Police (PSP) acts as the state point of contact for NICS for
determining an individual’s eligibility to acquire, possess, transfer, and
carry firearms. PSP conducts instant records checks using the
Pennsylvania Instant Check System (PICS). PICS uses a voice response
component and a web-based application that allows users to initiate
firearm and license to carry (also known as concealed carry) background
check requests.
In Pennsylvania, a licensed importer, manufacturer or dealer is required
to request by means of a telephone call that the PSP conduct a criminal
history, juvenile delinquency history and a mental health check prior to
selling or delivering any firearm to another unlicensed person. 1 In
addition, the firearm may not be transferred until the licensed importer,
manufacturer or dealer has received a unique approval number for that
inquiry from the PSP and recorded the date and number on the
application or record of sale form. 2 Generally, for any person that is not a
licensed importer, manufacturer or dealer who wants to sell or transfer a
firearm to an unlicensed person, the person must do so at the place of
business of a licensed importer, manufacturer, dealer or county sheriff’s
office and follow the procedures related to the transfer of a firearm for a
licensed importer, manufacturer or dealer. 3
Process for Conducting a Background Check
At the point of purchase, once the Bureau of Alcohol, Tobacco, Firearms,
and Explosives (ATF) Form 4473 background check form is submitted, a
PICS automated firearms check is initiated. The licensed firearms dealer
1

18 Pa. Cons. Stat. § 6111(b)(3).

2

18 Pa. Cons. Stat. § 6111(b)(4).

3
18 Pa. Cons. Stat. § 6111(c). Generally, there are exclusions related to these procedures
for transfers between certain relatives and for long guns under 18 Pa. Cons. Stat. §
6111(c) and (f).

Page 58

GAO-18-440 Firearm Denials

APPX 184

Appendix IV: Investigation and Prosecution of
Firearms Denials in Pennsylvania

contacts the PICS unit to determine if the applicant is eligible to purchase
a firearm. The initial PICS check, which takes about 10 to15 minutes,
searches the state’s repositories and NICS to identify any criminal history
records or prohibitions. State databases searched as part of the check
includes but are not limited to:
•

Pennsylvania criminal history records;

•

Juvenile records, contained within the criminal history record file;

•

Mental Health File, containing involuntary commitment information
and adjudication of incompetence;

•

Pennsylvania Protection From Abuse File;

•

Pennsylvania Wanted/Missing Persons File; and

•

Bureau of Motor Vehicle records.

If there is no record in the system for the applicant, the transaction can be
approved automatically without any manual evaluation. The gun dealer is
provided a unique approval number, which is required to authorize the
transfer of the firearm. 4
Any firearm purchase check that hits on a record is transferred to a PICS
operator. According to PSP officials, if a PICS operator cannot
immediately approve or deny a firearm purchase on the phone, the
firearm purchase application is put in “research” status, and the PICS unit
has 15 days to determine if the firearm purchase can proceed. During this
period, the PICS staff attempts to obtain clarifying information from the
state’s repositories. In many of these instances, the PICS staff needs to
obtain the final disposition to an arrest, according to PICS officials. If after
15 days, PICS staff cannot make a determination, the applicant’s status
becomes “undetermined” and the applicant is not allowed to purchase the
firearm.
If the automated check comes back with a red flag, the applicant is
denied the purchase, and the information is sent to the PICS Challenge
Unit, according to PSP officials. Generally, any person who is denied the
right to receive, sell, transfer, possess or carry a firearm as a result of the
procedures may challenge the accuracy of that person’s criminal history,
juvenile delinquency history or mental health record pursuant to a denial
4

18 Pa. Cons. Stat. § 6111(b)(4).

Page 59

GAO-18-440 Firearm Denials

APPX 185

Appendix IV: Investigation and Prosecution of
Firearms Denials in Pennsylvania

by the instant records check by submitting a challenge to PSP within 30
days from the date of the denial. 5 If challenged, PSP is required to
conduct a review of the accuracy of the information forming the basis for
the denial and has the burden of proving the accuracy of the record.
Within 20 days after receiving the challenge, PSP is required to notify the
challenger of the basis for the denial and provide the challenger an
opportunity to provide additional information for the purposes of the
review. PSP is to communicate its final decision to the challenger within
60 days of the receipt of the challenge with the decision containing all of
the information which formed a basis for the decision. 6 If after the
challenge period the denial is upheld, the PICS Section sends the denied
firearm application to the local police department or state police field
station to investigate for falsification of the background check form and
potentially refer the case for prosecution, according to PSP officials.
In addition to handling firearms denial appeals, the Challenge Unit
prepares case files for appeals through the Office of the Attorney
General, testifies at appeal hearings when required, and attends and
testifies at relief hearings for restoration of firearms rights, which are
conducted in the various county courts of common pleas throughout the
state. Finally, the Challenge Unit handles enforcement investigations
involving individuals who knowingly and intentionally provide false
information in the attempt to acquire a firearm in violation of Pennsylvania
law. Figure 8 shows the process for purchasing a firearm from a dealer in
Pennsylvania.

5

18 Pa. Cons. Stat. § 6111.1(e)(1).

6

18 Pa. Cons. Stat. § 6111.1(e)(2). Under 18 Pa. Const. Stat. § 6111.1(e)(3) and (4), if a
challenge is ruled invalid, the person has the right to appeal the decision to the Attorney
General within 30 days of the decision and the Attorney General is to conduct a hearing
de novo in accordance with the Administrative Agency Law for Pennsylvania. The decision
of the Attorney General may be appealed to the Commonwealth Court by the aggrieved
party.

Page 60

GAO-18-440 Firearm Denials

APPX 186

Appendix IV: Investigation and Prosecution of
Firearms Denials in Pennsylvania

Figure 8: Process for Purchasing a Firearm from a Dealer in Pennsylvania

According to PSP officials, in 2017, the PICS conducted about 1.1 million
background checks for licensed firearm dealers, sheriffs and law
enforcement throughout the state. Of these requests, 56 percent were
approved within minutes by the system, while an additional 41 percent
were approved during the initial check with operator assistance. The
remaining 3 percent were placed in research status to obtain additional
information. The Challenge Unit reversed 32 percent of all state
background check denial challenges, which include licenses to carry, in
2017.
According to Pennsylvania officials, the state of Pennsylvania does not
have delayed denials, in which a firearm is transferred to an individual
before determining whether the individual is prohibited from purchasing or

Page 61

GAO-18-440 Firearm Denials

APPX 187

Appendix IV: Investigation and Prosecution of
Firearms Denials in Pennsylvania

possessing a firearm under state or federal law, and the purchase is
subsequently denied. Generally, under Pennsylvania law, a licensed
importer, manufacturer or dealer may not sell or deliver any firearm to an
unlicensed person until having received a unique approval number from
PSP. 7

State History of
Denials and
Prohibited Categories

Pennsylvania law prohibits individuals that have been convicted of certain
offenses from possessing firearms. For example, under Pennsylvania
law, an individual who has been convicted of driving under the influence
of alcohol or controlled substance on three or more separate occasions
within a 5-year period is prohibited from possessing a firearm. 8 One
prosecutor told us that most of the denials in his county stemmed from
second and third offense DUI convictions. Table 3 shows Pennsylvania
firearms denials by prohibiting category.

Table 3: Pennsylvania Firearms Denials by Prohibiting Category, Fiscal Years 2014 through 2017
Prohibiting Category

2014

2015

2016

2017

Total

Crime punishable by more than 1 year or misdemeanor punishable by
more than 2 years

2,519

2,896

2,974

2,436

10,825

Under Indictment

338

265

214

210

1,027

Fugitive from Justice

373

465

506

351

1,695

Unlawful User / Addicted to a Controlled Substance

481

538

541

563

2,123

Adjudicated Mental Health

941

1061

1123

951

4,076

10

20

25

17

72

6

2

6

1

15

Protection/Restraining Order for Domestic Violence

251

274

294

284

1,103

Misdemeanor Crime of Domestic Violence Conviction

290

322

281

268

1,161

State Prohibitor

298

454

377

304

1,433

Illegal / Unlawful Alien
Dishonorable Discharge

Federally Denied Persons File
Other (Possible Straw Sale, No Valid Photo ID, Dealer Cancelled Sale)
Total Denials

33

40

32

54

159

870

330

358

525

2,083

6,410

6,667

6,731

5,964

25,772

Source: Pennsylvania Instant Check System | GAO-18-440

Note: All denials above are standard denials, which do not include the transfer of a firearm. PSP
recorded zero delayed denials in this time frame, according to PSP officials.

7

18 Pa. Cons. Stat. § 6111(b)(4).

8

18 Pa. Cons. Stat. § 6105(c)(3).

Page 62

GAO-18-440 Firearm Denials

APPX 188

Appendix IV: Investigation and Prosecution of
Firearms Denials in Pennsylvania

According to PSP officials, from 2014—when Pennsylvania began
investigating denials—through 2017, the most common category was
“persons convicted of a crime punishable by more than one year or a
misdemeanor punishable by more than two years,” which comprised 42
percent of all denials. The second most common prohibiting category was
mental health-related denials, at 16 percent. During this span, the number
of denials increased from 2014 to 2016, only to decline in 2017.

State Investigation of
Denials

Since 2014, PICS policy has been to investigate all firearm denials,
according to PSP officials. Prior to 2013, Pennsylvania used risk-based
criteria to investigate a much smaller percentage of denials. Criteria used
included violent felonies, drug trafficking, domestic violence, involuntary
mental health commitment, active warrants, and straw purchases, among
others. After PSP began investigating all firearms denials in 2014,
according to PSP officials, the number of denials remained largely the
same, but the number of investigations rose from 620 to 4,154. PSP
officials told us they believe that the policy to investigate all denials acts
as a deterrent, and that as prohibited individuals learn that investigations
follow a denial these individuals will not attempt to purchase a firearm.
According to PSP officials, as PICS refers all confirmed firearms denials
for investigation, PICS does not use screening criteria to make
determinations about whether firearms denials should be referred for
investigation, or which denials are more likely to be accepted for
prosecution. However, PICS does prioritize and determine which denials
involve more serious criminal violations. According to PSP’s Firearms
Unit staff, many referrals are not pursued based on the investigator’s
assessment of the case or a prosecutor’s declination of the case when
the referral was received.
The PSP partners with local law enforcement to investigate firearms
denials. Investigations are split up between the PSP and municipal police
departments based on the jurisdiction of where the applicant submitted
the firearms purchase. In 2016, 68 percent of cases referred for
investigation were referred to state police, while 32 percent were referred
to local law enforcement. In 2017, cases referred to local law enforcement
increased to 62 percent, while 38 percent were referred to state police. If
the subject is federally prohibited, a case may be referred to ATF for
investigation, though based on our analysis this is relatively uncommon.
In 2015 and 2016, 16 and 5 cases, respectively, were referred to ATF for
investigation, while in 2017 one case was referred to ATF.

Page 63

GAO-18-440 Firearm Denials

APPX 189

Appendix IV: Investigation and Prosecution of
Firearms Denials in Pennsylvania

Firearms denials are automatically funneled into a state investigative
database where an investigation file is created according to PSP officials.
When a denial is referred to a PSP troop9 for investigation, it is assigned
to a state investigator if the state police has jurisdiction. If local law
enforcement has jurisdiction, the PSP troop or PSP investigation staff will
pass the referral to local law enforcement, according to PSP officials.
Though some PSP units have investigators that specialize in firearm
denials cases, generally denial investigations are assigned to the next
available investigator, according to PSP officials.
After an investigation is assigned, the investigator will review all provided
documentation and verify that the subject is actually prohibited, according
to PSP officials. The investigator will then pull an incident number and
take steps to obtain necessary documentation. The investigator will then
respond to the location of the violation, review the ATF Form 4473, and
attempt to interview the employee who handled the attempted
transaction. Finally, the investigator will locate and interview the subject of
the denial. Cases are not prioritized for investigation because all firearms
denials are investigated and are immediately assigned to an investigator
upon receipt from PICS, according to PSP officials. While no denial
categories are designated as priority, protective orders may be
investigated more vigorously when there is an indication of violence,
according to PSP officials. PSP does not track the length of time or
resources required for conducting investigations of firearms purchase
denials, according to PSP officials.
Some jurisdictions may send the subject a letter to notify them that they
are prohibited and under investigation, according to PSP officials. Other
jurisdictions may send a letter only when prosecutors decide not to press
charges, explaining to the recipient why they were denied, that they are
not eligible to purchase a firearm, and that they could have been
prosecuted for that reason.
If the case is considered for prosecution, the investigator may meet with
the District Attorney’s office and review the case for prosecutorial merit,
according to PSP officials. If prosecution is sought, the investigator will
type up the charges, process the subject, and arraign. If prosecution is
approved, the investigator will notify the Firearms Unit and attend all court
9

This is the preferred term for PSP investigative unit; for other states the term “unit” will be
used.

Page 64

GAO-18-440 Firearm Denials

APPX 190

Appendix IV: Investigation and Prosecution of
Firearms Denials in Pennsylvania

proceedings. The investigating unit is to inform PSP’s Firearms Unit of the
outcome of the prosecution.

Statutes Used

Prosecution of
Firearms Denials

According to prosecutors and PSP officials, denials are primarily referred
for prosecution on the basis of the violations under:
•

18 Pa. Cons. Stat. § 4904 - Unsworn falsification to authorities

•

18 Pa. Cons. Stat. § 6111(g)(4) - Sale or transfer of firearms. 10

•

18 Pa. Cons. Stat. § 6105 - Persons not to possess, use,
manufacture, control, sell or transfer firearms.

According to PSP officials, in Pennsylvania, the District Attorney is the
chief law enforcement officer for each county, and in most instances,
cases are accepted for prosecution based on their discretion. As such,
discretionary decisions vary by county, and there are no internal criteria.
District Attorneys may also refer cases for prosecution to the State
Attorney General due to lack of resources or a conflict of interest. Trials
for firearms denials are extremely rare in Pennsylvania, according to
prosecutors that we spoke with. Only a small percentage of referred
denials are ultimately prosecuted, mostly due to the difficulty proving the
suspect “knowingly and willingly” provided false information on the
background check application, according to PSP officials.
According to PSP officials, the conviction rate for firearms denial cases is
about 10 percent of all denials referred for investigation. Based on our
discussions with Pennsylvania prosecutors and PSP Firearms Division
staff, most cases that are prosecuted result in misdemeanor pleas, rather
than felony convictions, and common penalties are probation and fines.
One county prosecutor told us that most convictions reduced to a
misdemeanor are for “statement under penalty,” a third degree
misdemeanor. Other cases might be pled down to misdemeanor
disorderly conduct, which carries a $300 fine, according to PSP officials.
According to county prosecutors that we spoke with, there is an
occasional prison sentence for denied felons which can result in about 12
10

The subsection cited relates to making any materially false oral or written statement,
including a statement on any form promulgated by federal or state agencies or willfully
furnishing or exhibiting any false identification intended or likely to deceive the seller,
licensed dealer, or manufacturer.

Page 65

GAO-18-440 Firearm Denials

APPX 191

Appendix IV: Investigation and Prosecution of
Firearms Denials in Pennsylvania

months in prison, and have resulted in sentences of almost 2 years in
prison.
One prosecutor told us the most frequent firearms prohibitor among
convictions is a crime punishable by greater than 1 year in prison, such
as a second or subsequent DUI conviction within 10 years, as many of
those are graded as misdemeanors of the first degree, punishable by up
to 5 years in prison. Typically, when asked, these individuals are unaware
of the maximum penalty. Another state prosecutor we spoke with stated
that the most prosecuted prohibiting categories also involved felony DUIs,
as well as matters related to mental health and domestic violence. He
added that, typically, more recent crimes are treated with more severity.
One county prosecutor told us they prioritize prosecution of persons with
a history of violent behavior.
According to state police officials, upon conclusion of a prosecuted case,
the investigator will document the disposition of the court. The entire
investigative process is documented in a PSP incident report, which
includes all interviews, queries made, investigative steps taken, and
consultation with the District Attorney. The result of the investigation is
then forwarded to the PSP investigation staff. Finally, an email
summarizing the entire investigative process is sent to the Troop Crime
Commander, Troop Administrative Manager, and the PSP Firearms Unit.
Table 4 shows the disposition of firearms denial cases in Pennsylvania.
Table 4: Disposition of Firearm Denial Cases in Pennsylvania, 2014 through 2017
Disposition

2014

2015

2016

2017

Referred for Investigation

4,154

4,661

6,468

5,465

Arrests Made

782

2,312

733

842

Convictions

367

1,091

356

472

Prosecution Declined

569

1,104

1,244

1,435

Source: Pennsylvania State Police. | GAO-18-440

While no annual statistics are recorded at the unit level, according to PSP
officials, the state of Pennsylvania does track prosecutions resulting from
firearms denials. In 2016, there were convictions in about half of the
approximately 730 arrests made and about 6,500 denials referred for
investigation. This represents a 39 percent increase in referrals over
2015, but a 67 percent decline in convictions and 68 percent decline in
arrests. In 2017, the number of cases referred for investigation declined

Page 66

GAO-18-440 Firearm Denials

APPX 192

Appendix IV: Investigation and Prosecution of
Firearms Denials in Pennsylvania

by 16 percent to about 5,500. Numbers for 2016 and 2017, including
arrests, convictions, and prosecutions returned to numbers more
representative of a typical year, according to PSP officials. 11 Neither PSP
nor the municipal departments track enforcement actions associated with
investigations, or the specific sentencing results of investigations referred
for prosecution beyond whether the investigation resulted in a conviction
or declination.

11

According to PSP officials, 2015 data for arrests, convictions, and prosecutions declined
appear elevated compared to the following year due to a significant carryover from 2014,
which was the first year that PSP investigated all firearm denial cases. According to the
Firearms Unit, the increase in cases declined in 2016 was due to reduced willingness of
prosecutors to pursue these cases.

Page 67

GAO-18-440 Firearm Denials

APPX 193

Appendix V: Investigation and Prosecution of
Firearms Denials in Virginia
Appendix V: Investigation and Prosecution of
Firearms Denials in Virginia

This appendix includes information on the investigation and prosecution
of individuals denied firearms purchases in the state of Virginia.

State Firearms
Background Checks

The Virginia Firearms Transaction Center (FTC), established in 1989,
performs background checks at the point of sale by accessing state and
federal databases. The FTC is the federally designated point of contact
for the National Instant Criminal Background Check System (NICS), and
is responsible for any investigations of firearms denials. The Virginia
State Police (VSP) is responsible for conducting background checks
using VCheck, Virginia’s Internet-based instant background check
program, and for enforcing state and federal laws related to firearms
purchases in Virginia. Under Virginia law, generally, a licensed dealer is
required to obtain written consent and other identifying information—
including but not limited to the name, date of birth, gender, race,
citizenship, and Social Security number of a potential unlicensed
purchaser—and provide the Department of State Police with this
information and request criminal history record information by a telephone
call to or other communication authorized by the State Police prior to
selling, renting, trading, or transferring any firearm from the dealer’s
inventory. 1
The FTC provides personnel to conduct transactions onsite at anticipated
high volume gun shows. Pursuant to Virginia law, the Department of State
Police are to be available at every firearms show held in Virginia to make
determinations, in accordance with the procedures set out for background
checks required for the transfer of certain firearms, of whether a
prospective purchaser or transferee is prohibited under state or federal
law from possessing a firearm. 2 One prosecutor we spoke with estimated
that 25 percent of his illegal possession cases are from private sales at
gun shows. At a gun show, when an individual attempts to purchase a
firearm from a licensed dealer, the individual has to complete the state
background check form (SP-65B) and the federal form (ATF 4473) and
the FTC will conduct a full NICS check. Should the transaction be denied,
the trooper may arrest the applicant depending on the reason for the
denial. A Virginia prosecutor explained that in his jurisdiction when two
private parties, neither of whom is a FFL, initiate a sale outside of the
state transaction system, troopers may approach the purchaser and ask
1

Va. Code Ann. § 18.2-308.2:2.

2

Va. Code Ann. § 54.1-4201.2.

Page 68

GAO-18-440 Firearm Denials

APPX 194

Appendix V: Investigation and Prosecution of
Firearms Denials in Virginia

questions related to his or her eligibility to purchase a firearm. If the
purchaser appears to be prohibited based on their testimony they may be
subject to arrest as well.
Process for Conducting a Background Check
For transactions conducted through an FFL, the gun dealer submits a
background check request to VSP via a toll free number or through an
online application. Upon receipt of the request, VSP reviews the
applicant’s criminal record information to determine if the applicant is
prohibited from possessing or transporting a firearm by state or federal
law. This check includes a review of an applicant’s entire criminal history,
with no exclusion based on when the prohibiting offense occurred,
according to FTC officials. For example, a recent prohibiting felony
conviction is treated the same as the same conviction from decades ago.
The applicant’s information is submitted to the FTC, where it is checked
against databases at the federal and state level. Information is screened
through NICS, National Crime Information Center, and the Virginia
Criminal Information Network. The FTC provides an instant response to
approve the transaction or place it in delayed, research status. Databases
maintained by VSP and accessible by the Virginia Criminal Information
Network include:
•

Virginia’s wanted and missing persons files and protective orders;

•

Virginia’s criminal history record files; and

•

Virginia’s database of adjudications of legal incompetence and
incapacity, and involuntary commitments to mental institutions.

If the instant VCheck search indicates that the purchaser is approved, a
unique computer-generated approval number that is required to transfer
the firearm is provided to the dealer to complete the transaction. If a
possible identification is made in the state or federal databases, the
instant check produces a “delayed” status and a review is conducted to
determine identification and eligibility of the purchaser. If a background
check enters delayed status, the dealer will be requested to provide
additional information about the purchaser. The dealer is to be notified
immediately upon a final determination of eligibility. Pursuant to federal
law, if the dealer has not been notified of a final determination by the end
of the third business day, the dealer may complete the sale and transfer
of the firearm. If a firearm is transferred prior to a final determination of

Page 69

GAO-18-440 Firearm Denials

APPX 195

Appendix V: Investigation and Prosecution of
Firearms Denials in Virginia

eligibility, the dealer is requested to notify VSP immediately. When a
delayed transaction is ultimately approved or denied, the FTC updates
the dealer on the status of the transaction by telephone or online
depending on how it was entered. When research efforts have been
exhausted, if no clear reason to deny is identified, the transaction is
approved. More than 99 percent of delayed applications are resolved
before 30 days, according to FTC officials.
All transactions that are not immediately approved and enter delayed
status are assigned a priority level, based on the possible prohibiting
category. Virginia investigates a subset of all denials based on risk, but
prioritizes denials with active warrants, active protection orders, mental
health issues, and certain felony convictions. According to VSP officials, a
“priority 1” transaction is a possible hit for mental health reasons, a
protective order, or a possible wanted subject. A “priority 2” transaction is
any possible hit in NICS, such as convicted felons and out-of-state mental
health cases. A “priority 3” transaction is any hit in the Interstate
Identification Index, or Virginia’s Computerized Criminal History.
According to VSP officials, convicted felons are normally a priority 3
unless they appear in the NICS database. A “priority 4” transaction is a hit
from U.S. Immigration and Customs Enforcement, namely an alien or
immigrant attempting to purchase a firearm, or a possible request for
information, such as a Be On The Lookout or Alert notice, from a police
agency or the Bureau of Alcohol, Tobacco, Firearms and Explosives
(ATF). According to VSP officials, while a transaction may be given an
initial priority level, VSP moves some priority 3 and 4 hits to the front of
the list, such as those involving recent felony indictments or a
misdemeanor crime of domestic violence. Denial decisions undergo
supervisory review to verify that the denial is correct and accurate,
including a review of the police report to document findings, and to ensure
that the prohibited person’s rights have not been restored, according to
VSP officials.
According to a VSP official, in practice, there are rarely any transactions
in Virginia in which a firearm is transferred before the purchaser is
determined to be ineligible, known as a delayed denial. According to an
FTC official, there were no delayed denials in the previous 2 years. After
3 business days of conducting a background check, at which time
firearms dealers may transfer a firearm, firearms dealers typically contact
the FTC to notify them of the possible transfer, and ask whether to hold
the gun for a few more days, according to VSP officials. If the FTC
believes the purchaser will ultimately be denied, they will suggest the
firearm be held, but it is up to the dealer to decide whether to do so. The

Page 70

GAO-18-440 Firearm Denials

APPX 196

Appendix V: Investigation and Prosecution of
Firearms Denials in Virginia

FTC will also ask to speak with the purchaser to explain that if they
accept the firearm and are later denied, VSP would have to send an
officer to retrieve the firearm and charges may be filed against the
purchaser for illegal possession of the firearm. VSP will then advise that if
unsure of his or her prohibited status, the applicant should wait until the
background check is complete.
According to a VSP official, there are advantages to being a point-ofcontact state, such as the ability to provide better service to citizens and
to build relationships with FFLs that would not be possible as a NICS
state. For example, VSP conducts training sessions and regular outreach
to firearms dealers. VSP officials estimate that in 80 percent of cases
involving firearms purchases on behalf of a prohibited person, sometimes
referred to as “straw purchases,” leads come from dealers notifying VSP
of something suspicious. According to VSP officials, straw purchases are
treated very seriously, and can result in prison sentences of 5 to 10
years. 3 Figure 9 shows the process for purchasing a firearm from a dealer
in Virginia.

3

Va. Code Ann. § 18.2-308.2:2(M) (generally prohibiting the purchase of a firearm with the
intent to resell or otherwise provide such firearm to any person known or believed to be
ineligible to purchase or receive from a dealer a firearm for whatever reason as a Class 4
felony with a mandatory minimum term of imprisonment of 1 year; and if the violation
involves a transfer of more than one firearm, a mandatory minimum term of imprisonment
of 5 years).

Page 71

GAO-18-440 Firearm Denials

APPX 197

Appendix V: Investigation and Prosecution of
Firearms Denials in Virginia

Figure 9: Process for Purchasing a Firearm from a Dealer in Virginia

a

According to a VSP official, in practice, there are rarely any transactions in Virginia in which a firearm
is transferred before the purchaser is determined to be ineligible, known as a delayed denial.

b

More than 99 percent of delayed applications are resolved before 30 days, according to FTC
officials.

Individuals denied the right to purchase a firearm may exercise a right of
access, review, and correction of criminal history record information or
institute a civil action within 30 days of the denial. 4 Typically, after a
denial, individuals are provided a Virginia Firearms Transaction Program
brochure or referred to the VSP website for appeal procedures if they
believe that they are not prohibited by state or federal law from
purchasing or possessing a firearm. These individuals may contact the
FTC via phone or e-mail to discuss the determination and provide
additional information, provide fingerprinting to facilitate future
transactions, request a correction of record, or institute a civil action.
Denied persons may also challenge the accuracy of the record in writing
to the FBI.
4

Va. Code Ann. § 18.2-308.2:2(E).

Page 72

GAO-18-440 Firearm Denials

APPX 198

Appendix V: Investigation and Prosecution of
Firearms Denials in Virginia

State History of
Denials and
Prohibited Categories

Generally, individuals prohibited from either purchasing or possessing a
firearm under Virginia law include, but are not limited to:
•

any person who has been convicted of a felony, or adjudicated
delinquent as a juvenile 14 years of age or older at the time of certain
offenses (including murder, kidnapping, robbery by threat or
presentation of firearms, or rape), or under the age of 29 who was
adjudicated delinquent as a juvenile14 years of age or older at the
time of the offense of a delinquent act which would be a felony if
committed by an adult; 5

•

any person who has been acquitted by reason of insanity and
committed to the custody of the Commissioner of Behavioral Health
and Developmental Services on a charge of treason, any felony or
certain offenses punishable as a misdemeanor or certain ordinances
of any county, city, or town similar to other outlined offenses; 6

•

any person who is subject to certain protective orders; 7 or

•

any person who, within a 36 consecutive month period, has been
convicted under Virginia law of two misdemeanor offenses for
possession of controlled substance or marijuana without a valid
prescription or order of a practitioner while acting in the course of his
professional practice within 5 years from the date of the second
conviction. 8

The top prohibiting categories for individuals denied firearms purchases
are felony convictions, which comprise 21 percent of all denials from 2011
through 2017, followed by drug-related prohibitions (19 percent), and
mental health-related prohibitions (13 percent). One prosecutor we spoke
with said that denials tend to not involve violent career criminals, and
typically involve non-violent felonies, such as grand larceny, or involve
drugs, and most occurred 20 years ago or more. From 2011 to 2017, the
total number of denials increased from about 2,000 to about 3,600, an
increase of almost 80 percent, while the total number of transactions
5

Va. Code Ann. §18.2-308.2(A).

6

Va. Code Ann. §18.2-308.1:1(A).

7

Va. Code Ann. §18.2-308.1:4.

8

Va. Code Ann. § 18.2-308.1:5 (related to prohibition of the purchase or transport of a
handgun by a person convicted of particular misdemeanors).

Page 73

GAO-18-440 Firearm Denials

APPX 199

Appendix V: Investigation and Prosecution of
Firearms Denials in Virginia

increased from about 320,000 to about 500,000, an increase of more than
50 percent. Table 5 shows Virginia firearms denials by prohibiting
category.
Table 5: Virginia Firearm Denials by Prohibiting Category, Fiscal Years 2011 through 2017
Prohibiting Category

2011

2012

2013

2014

2015

2016

2017

Total

Felony Conviction

520

609

602

492

551

688

706

4,168

Protective/Restraining Order

138

175

202

186

227

261

272

1,461

80

63

48

401

490

522

487

2,091

68

89

79

89

94

99

111

629

Drug Related Prohibition

363

509

493

500

551

632

740

3,788

Mental Health

235

340

316

308

340

440

496

2,475

Warrant of Arrest

282

306

312

297

337

383

250

2,167

2

5

2

3

1

0

5

18

Misdemeanor Domestic Violence

a

Pending Felony Charge/Indictment

Military Dishonorable Discharge

118

131

103

170

213

190

225

1,150

Federal Misdemeanor Disqualifier

76

125

140

98

121

134

142

836

NICS Denied Persons File

34

49

42

32

50

77

69

353

Illegal Alien / Nonimmigrant

35

55

38

63

54

62

66

373

50

30

35

22

19

15

15

186

3,503

3,584

19,695

Purchaser ID Requirements Not Met

Other

b

Total Denials
Total Transactions

2,001

2,486

2,412

2,661

3,048

321,166

432,387

479,253

405,838

444,627

505,722 487,846

Source: Virginia Firearms Transaction Center. | GAO-18-440

Note: This table contains consolidated category titles based on FBI denial category titles. State
prohibiting categories may not correlate directly to federal categories, in part because states have the
authority to prohibit persons from purchasing firearms based on state-specific disqualifiers. Data for
“Attempt to Exceed Handgun Limit” has been omitted from totals for 2011-2012.
a

Misdemeanor Domestic Violence denials appear artificially low prior to 2014 due to a legal
redefinition effective 2014 stemming from the Supreme Court case United States v. Castleman, 134
S. Ct. 1405 (2014), according to a VSP official.

b
”Other” includes Invalid Purchase Certificate, Attempt to Purchase Handgun by Non-Resident,
Invalid or Unauthorized Seller ID Number, and Attempt to Exceed Trade Limit.

Page 74

GAO-18-440 Firearm Denials

APPX 200

Appendix V: Investigation and Prosecution of
Firearms Denials in Virginia

State Investigation of
Denials

Virginia has investigated firearms denials since its instant check system
was introduced in 1989. Virginia does not refer all firearms denials for
investigation, instead using risk-based criteria to refer a sub-set of
prohibited categories for investigation. 9 The following conditions trigger an
automatic investigation for a firearms denial:
•

felony conviction, including juvenile felony conviction, or felony
indictment;

•

misdemeanor crime of domestic violence;

•

protective order;

•

involuntary mental health treatment;

•

nonimmigrant or illegal alien; and

•

dishonorable discharge from the military.

All Virginia denial investigations are handled by VSP with the exception of
some fugitive and warrant-related, protective order, and mental health
cases, as well as purchases at gun shows, which may involve municipal
or local police, according to VSP officials. When FTC’s background check
unit refers a case for investigation involving mental health or protective
orders (both which are priority 1), the package is sent to both the VSP
division and the local police department.
According to VSP officials, to initiate a denial investigation, FTC sends
requests for investigation to the VSP division headquarters, where it is
referred to the appropriate section where the gun transaction took place,
then to a state trooper to conduct the investigation. A file with a copy of
both the federal background form, ATF Form 4473, and the state
background check form, SP-65, is sent to the investigating trooper. The
trooper then collects necessary information, such as information about
the denial from VCheck, the criminal history of the purchaser, and court
records. As necessary, the investigator verifies the information in the FTC
file at the FFL, and interviews the subject. Part of the investigation
involves trying to prove the purchaser “willingly and knowingly” answered
falsely on the state and federal forms.
9
These prohibited categories include those with felony convictions, misdemeanor
domestic violence convictions, protective orders, mental health issues, and felony
warrants, among others.

Page 75

GAO-18-440 Firearm Denials

APPX 201

Appendix V: Investigation and Prosecution of
Firearms Denials in Virginia

Some VSP sections, typically those in more densely populated areas,
have troopers dedicated exclusively to firearms denial investigations due
to the higher volume of denials in those areas.
According to VSP officials, every area may assign troopers to work
exclusively on firearms denial investigations. However, most areas either
cannot afford to remove a trooper from road coverage availability, or don’t
investigate enough firearms denial cases to make it an effective use of
resources. These sections assign denial investigations to troopers on a
case by case basis.
Prosecutors are often consulted as to whether a case will be prosecuted,
where the prosecutor comments on the strength of the case based on the
evidence available, according to investigators and prosecutors we spoke
with. Investigators told us that prosecutors are generally more agreeable
to taking on firearms denial cases involving recent felony convictions.
They also said that if the case is accepted for prosecution, the trooper will
obtain warrants to make an arrest. If the Commonwealth Attorney finds
that the case does not have prosecutorial merit, the case is closed and
the name of the Commonwealth Attorney consulted is put in the case
management system report, according to a VSP official. Table 6 shows
Virginia denial investigations from fiscal years 2011 through 2017.
Table 6: Virginia Firearm Denials and Investigations, Fiscal Years 2011 through 2017
Background Checks
Denials

2011

2012

2013

2014

2015

2016

2017

321,166

432,387

479,253

405,838

444,627

505,722

487,846

3,377

3,444

2,412

2,661

3,048

3,503

3,584

Investigations

772

700

961

1,079

1,705

1681

1,703

Percent of Denials
Investigated

22.9

20.3

39.8

40.5

55.9

48.0

47.5

Source: Virginia State Police | GAO-18-44

Note: Firearm denial numbers include firearm purchases and concealed handgun permits, according
to VSP officials.

According to VSP officials, the time spent on denial investigations
depends on the type of denial, location, and the information needed to
bring charges or close the case. However, on average a case may
involve about 4 hours of investigation. Officials in another division stated
that in-state convictions can range from 4 to 6 hours of investigative work,
while out-of-state convictions can take significantly more time, from 4 to

Page 76

GAO-18-440 Firearm Denials

APPX 202

Appendix V: Investigation and Prosecution of
Firearms Denials in Virginia

15 hours. Obtaining records from out of state can be difficult, and can
take weeks or months. For example, one state requires a fee per
conviction copy, which requires a check to be mailed, processed, and
then for the files to be mailed back to the investigator. VSP officials told
us that cases involving straw purchases can take 50 hours or more,
however, these cases can result in longer prison sentences of 5 to 10
years. 10 They added that additional time may be spent on search
warrants, examining video from firearms stores, reviewing phone records,
and conducting interviews. Further, denial investigations involving
dishonorable discharges and mental health denials from out of state
typically take the longest to investigate, in part because some states
won’t release these records for the purpose of prosecution. Locating old
felony documentation is also a challenge for investigators, according to
VSP officials.

Statutes Used

According to investigators and prosecutors, the most common state
statutes used for attempted firearm purchases include:
•

Va. Code Ann. § 18.2-308.2:2(K) Willfully and intentionally making a
materially false statement on the consent form;

•

Va. Code Ann. § 18.2-308.1:3 (Usually prosecuted as an attempt)
Prohibition against purchase or possession of a firearm by someone
involuntarily admitted or ordered to outpatient mental health
treatment; and

•

Va. Code Ann. § 18.2-308.1:4 (Usually prosecuted as an attempt)
Prohibition against purchase or transport of a firearm by someone
subject to a protective order.

According to a VSP official, other common statutes include:
•

Va. Code Ann. § 18.2-26 Attempt to commit a non-capital felony

•

Va. Code Ann. § 18.2-27 Attempt to commit a misdemeanor

10

Va. Code Ann. § 18.2-308.2:2(M) (generally prohibiting the purchase of a firearm with
the intent to resell or otherwise provide such firearm to any person known or believed to
be ineligible to purchase or receive from a dealer a firearm for whatever reason as a Class
4 felony with a mandatory minimum term of imprisonment of one year; and if the violation
involves a transfer of more than one firearm, a mandatory minimum term of imprisonment
of five years).

Page 77

GAO-18-440 Firearm Denials

APPX 203

Appendix V: Investigation and Prosecution of
Firearms Denials in Virginia

State Prosecution of
Firearms Denials

•

Va. Code Ann. § 18.2-308.1:2 Purchase or possession of firearm by
persons adjudicated legally incompetent or mentally incapacitated

•

Va. Code Ann. § 18.2-308.1:5 Prohibition against someone previously
convicted of certain drug offenses

•

Va. Code Ann. § 18.2-308.2:01 Purchase or possession of firearm by
a non-citizen not lawfully in the United States

•

Va. Code Ann. § 18.2-308.2 Convicted felon in possession of a
firearm

•

Va. Code Ann. § 18.2-308.2:2 (L1) Attempt to solicit or persuade any
dealer to participate in a straw purchase

•

Va. Code Ann. § 18.2-308.2:2 (M) Commit a straw purchase

Virginia’s chief prosecutors, the Commonwealth’s Attorneys, are elected
at-large for a 4-year term. They are responsible for prosecuting all
felonies and some misdemeanors, in addition to handling certain civil
matters. According to a prosecutor we spoke with, Commonwealth’s
Attorneys offices receive referrals for prosecution directly from state
troopers.
We interviewed Virginia investigators and prosecutors from four counties,
including from localities where a high volume of firearms denial referrals
occur. These prosecutors said they tend to work with Virginia troopers
who specialize in denial investigations and report high prosecution rates
for the cases they accept. One investigator with a high referral rate to
prosecutors told us he benefits from operating in a high-volume, relatively
compact jurisdiction, while in other parts of the state, investigators may
have to cross several counties to gather the paperwork needed to
establish a denial case, interview the purchaser, and make an arrest.
According to a county prosecutor, a key component of successful
prosecutions is a willing Commonwealth Attorney because charging
decisions are at their discretion. An investigator and prosecutor that work
together stated that in some jurisdictions, attorneys may not welcome
firearms denial cases, while in other jurisdictions specialized investigators
working with an attorney willing to prosecute these cases for public safety
and deterrence value can yield a high prosecution rate.
Two county prosecutors we spoke with said approximately 90 percent of
firearms denial convictions are pled down to misdemeanors, and the
penalties imposed tend to include probation or community service, but
there is an occasional prison sentence. According to investigators and

Page 78

GAO-18-440 Firearm Denials

APPX 204

Appendix V: Investigation and Prosecution of
Firearms Denials in Virginia

prosecutors we spoke with, some prosecutors prefer to avoid the use of
fines while others may use them occasionally.
Of the few cases that go to trial, according to prosecutors, most go before
a judge rather than a jury, and typically involve a felon in possession of a
firearm, resulting in a felony conviction and likely probation. Judges have
discretion to reduce sentences, while juries are constrained to issuing
more severe sentences if they find the defendant guilty, and typically
hand down more prison time, according to prosecutors we spoke with.
The severity of penalties handed down for firearms denials depends on
the prohibited category, according to one county prosecutor. Another
prosecutor said protective order violations tend to be easier to prosecute
because the records are available and indicate a clear violation. Other
cases where accurate records are difficult to obtain, such as juvenile
denials, mental health denials, and out of state cases, prosecutions are
difficult to prosecute, according to investigators and prosecutors.
One prosecutor told us that a subject’s criminal history also makes a big
difference as to whether they might receive a harsher or more lenient
sentence. Several prosecutors we spoke with said that while prison
sentences are rare, for a felon with a history of violence, sentences of 7
months to more than 24 months in prison have been imposed. One
prosecutor told us they typically agree to no prison time on a felony
conviction unless there are indicators of violence on the record, such as
destruction of property or assault and battery. If a person has no record,
the prosecutor would be far more willing to forego a felony and
sometimes even a misdemeanor, and propose community service
instead. One prosecutor questioned whether it makes sense to make a
person a felon over a firearms denial; however, if a person has a
consistent misdemeanor history of getting into trouble then they would be
less convinced that this particular offense is out of character and may not
make any non-felony offers. Prosecutors also may reduce the charges to
disorderly conduct or providing false information to police during a plea in
these cases to try to get a conviction, according to one prosecutor.
Data on prosecutions, dismissals, and convictions resulting from
investigations, are not collected at the state level, and are only accessible
at the VSP divisions that conduct investigations and the courts where
they are prosecuted, according to Virginia officials.

Page 79

GAO-18-440 Firearm Denials

APPX 205

Appendix VI: Examples of Firearms Denial
Cases Referred for Prosecution
Appendix VI: Examples of Firearms Denial
Cases Referred for Prosecution

Table 7 shows examples of firearms denial cases that our six selected
ATF field divisions referred to U.S. Attorney’s Offices for prosecution
during fiscal years 2014 through 2017, including the types of
circumstances that could lead to referral for prosecution, the range of
charges filed, and the severity of sentences that resulted. All the cases
involved 18 U.S.C. § 922(a)(6), falsifying a background check form. While
all were not ultimately charged under that statute, they were selected for
investigation by ATF for that reason. Occasionally, federal and state law
may prohibit similar types of criminal conduct, allowing both federal and
state prosecutors to pursue the case. U.S. Attorney’s Offices may also
refer a case to a state prosecutor that is not deemed appropriate for
federal prosecution.
Table 7: Examples of Firearm Denial Cases Referred for Prosecution
Case

Potential
Prohibiting
Categories
(Circumstances of
Arrest)¹

Type of
Denial

Charged in
State/Federal
Court

Charges

Disposition

1

Felony Conviction
(probation violation
and evading federal
agents)

Delayed

Federal

18 U.S.C. § 922(a)(6):
Falsifying background
check form
18 U.S.C. § 922(g)(1):
Prohibited due to prior
felony

Pled guilty to 18
Sentenced to time
U.S.C. § 922(g)(1) served

2

Convicted Felon
(straw purchase and
evading federal
agents)

Delayed

Federal

18 U.S.C. § 922(a)(6):
Falsifying background
check form
18 U.S.C. § 922(g)(1):
Prohibited due to prior
felony
18 U.S.C. § 924(a)(1)(A):
Falsifying forms causing
FFL to falsify records

Pled guilty to 18
1 year federal
U.S.C. § 922(g)(1) custody and 3 years
supervisory release

3

History of violent
Delayed
crime, multiple
attempts to purchase
(knowingly used
expired concealed
weapons license)

Federal

18 U.S.C. § 922(g)(1):
Prohibited due to prior
felony

Pled guilty to 18
U.S.C. §
924(a)(1)(A), False
statement in
acquisition of a
firearm

24 months
probation with
conditions, $100
special
assessment

4

Under indictment for Delayed
robbing and shooting
victim, involving
drugs

Federal

18 U.S.C. § 922(a)(6):
Falsifying background
check form

Pled guilty to 18
U.S.C. § 922(n)
and 18 U.S.C. §
922(a)(6)

24 months in prison
and 3 years
supervisory release

18 U.S.C. § 922(n): Illegal
possession of a firearm
while under indictment

Page 80

Sentence

GAO-18-440 Firearm Denials

APPX 206

Appendix VI: Examples of Firearms Denial
Cases Referred for Prosecution

Case

Potential
Prohibiting
Categories
(Circumstances of
Arrest)¹

Type of
Denial

Charged in
State/Federal
Court

Charges

Disposition

Sentence

5

Misdemeanor crime
of domestic violence

Delayed

Federal

18 U.S.C. § 922(g)(9):
Prohibited due to prior
domestic violence charge

Charges declined
by prosecutors

No charges

6

Dealing drugs,
violation of
restraining order

Delayed

Federal

18 U.S.C. § 922(a)(6):
Falsifying background
check form
18 U.S.C. § 922(n): Illegal
possession of a firearm
while under indictment

Pled guilty to 18
U.S.C. § 922(n)

3 months federal
custody and 1 year
supervisory release

7

Active warrants
(possible straw
purchase, drug
possession)

Standard

Federal

18 U.S.C. § 922(g)(3):
Prohibited due to drugs

Pled guilty to 18
33 months in prison,
U.S.C. § 922(g)(3). 3 years supervisory
release, $100
(MPA), 500 hour
intensive drug
treatment program

Under indictment for
drug trafficking

Standard

8

18 U.S.C. § 924(a)(2):
Knowingly possessed
firearm illegally.
Federal

18 U.S.C. § 922(a)(6):
Falsifying background
check form
18 U.S.C. § 922(n): Illegal
possession of a firearm
while under indictment

Pled guilty to 18
18 months in prison,
U.S.C. § 922(a)(6) three years
for lying about
supervised release
being under
indictment

Indicted on additional drug
charges.
9

Controlled
Standard
substance, domestic
violence (violent
criminal history)

Federal

18 U.S.C. § 922(a)(6):
Falsifying background
check form

Pled guilty to 18
12 months in prison
U.S.C. § 922(a)(6)

10

Misdemeanor crime
of domestic violence
and drug use

Delayed

State

Illegal possession of a
Pled Guilty to state 12 months in prison
firearm (state charge for
charge for false
misdemeanor domestic
purchase
violence), State charge for
false purchase

11

Drug conviction in
last 5 years (Under
indictment for state
firearm and drug
charges)

Delayed

State

Illegal possession of a
firearm and a state drug
charges

Plea agreement in
state court. Pled
guilty to 2 state
narcotics charges.

60 months
probation and a
$1,000 fine for each
narcotics charge

12

Prior conviction for
domestic violence

Delayed

State

Felony falsifying a
background check form
(domestic violence)

Not yet resolved

State charges

Source: Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) and Executive Office for United States Attorneys (EOUSA). | GAO-18-440

Note:”Circumstances of arrest,” indicated in parentheses where applicable, refer to developments
after the attempted purchase of the firearm.
Cited statutes generally include:

Page 81

GAO-18-440 Firearm Denials

APPX 207

Appendix VI: Examples of Firearms Denial
Cases Referred for Prosecution

18 U.S.C. § 922(g): Prohibited person possessing or receiving a firearm.
18 U.S.C. § 922(a)(6): Person knowingly falsifying a background check form.
18 U.S.C. § 922(n): Person illegally possesses a firearm while under indictment.
18 U.S.C. § 924(a)(2): Person knowingly violating specific subsections of 18 U.S.C. § 922 resulting in
fine, imprisonment, or both.
18 U.S.C. § 924(a)(1)(A): Person knowingly making a false statement or representation with respect
to information required to be kept by a gun dealer.

Page 82

GAO-18-440 Firearm Denials

APPX 208

Appendix VII: GAO Contacts and Staff
Acknowledgements
Appendix VII: GAO Contacts and Staff
Acknowledgements

GAO Contact

Gretta L. Goodwin, (202) 512-8777, goodwing@gao.gov

Staff
Acknowledgements

In addition to the contact named above Eric Erdman (Assistant Director)
and Anthony DeFrank (Analyst-in-Charge) managed this assignment.
Daniel Kuhn, James Lawson, Billy Commons, Susan Hsu, Michele C.
Fejfar, and Eric D. Hauswirth made significant contributions to the work.

(101828)

Page 83

GAO-18-440 Firearm Denials

APPX 209

GAO’s Mission

The Government Accountability Office, the audit, evaluation, and investigative
arm of Congress, exists to support Congress in meeting its constitutional
responsibilities and to help improve the performance and accountability of the
federal government for the American people. GAO examines the use of public
funds; evaluates federal programs and policies; and provides analyses,
recommendations, and other assistance to help Congress make informed
oversight, policy, and funding decisions. GAO’s commitment to good government
is reflected in its core values of accountability, integrity, and reliability.

Obtaining Copies of
GAO Reports and
Testimony

The fastest and easiest way to obtain copies of GAO documents at no cost is
through GAO’s website (https://www.gao.gov). Each weekday afternoon, GAO
posts on its website newly released reports, testimony, and correspondence. To
have GAO e-mail you a list of newly posted products, go to https://www.gao.gov
and select “E-mail Updates.”

Order by Phone

The price of each GAO publication reflects GAO’s actual cost of production and
distribution and depends on the number of pages in the publication and whether
the publication is printed in color or black and white. Pricing and ordering
information is posted on GAO’s website, https://www.gao.gov/ordering.htm.
Place orders by calling (202) 512-6000, toll free (866) 801-7077, or
TDD (202) 512-2537.
Orders may be paid for using American Express, Discover Card, MasterCard,
Visa, check, or money order. Call for additional information.

Connect with GAO

Connect with GAO on Facebook, Flickr, Twitter, and YouTube.
Subscribe to our RSS Feeds or E-mail Updates. Listen to our Podcasts.
Visit GAO on the web at https://www.gao.gov.

To Report Fraud,
Waste, and Abuse in
Federal Programs

Contact:

Congressional
Relations

Orice Williams Brown, Managing Director, WilliamsO@gao.gov, (202) 512-4400,
U.S. Government Accountability Office, 441 G Street NW, Room 7125,
Washington, DC 20548

Public Affairs

Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
U.S. Government Accountability Office, 441 G Street NW, Room 7149
Washington, DC 20548

Strategic Planning and
External Liaison

James-Christian Blockwood, Managing Director, spel@gao.gov, (202) 512-4707
U.S. Government Accountability Office, 441 G Street NW, Room 7814,
Washington, DC 20548

Website: https://www.gao.gov/fraudnet/fraudnet.htm
Automated answering system: (800) 424-5454 or (202) 512-7700

Please Print on Recycled Paper.

APPX 210

5) FBI NICS Firearms Background Checks

APPX 211

NICS Firearm Background Checks:
Month/Year
November 30, 1998 - August 31, 2020

Year

Jan

Feb

Mar

Apr

May

Jun

Jul

Aug

Sep

Oct

Nov

Dec

1998
1999
2000
2001
2002
2003
2004
2005
2006
2007
2008
2009
2010
2011
2012
2013
2014
2015
2016
2017
2018
2019
2020
2021

591,355
639,972
640,528
665,803
653,751
695,000
685,811
775,518
894,608
942,556
1,213,885
1,119,229
1,323,336
1,377,301
2,495,440
1,660,355
1,772,794
2,545,802
2,043,184
2,030,530
2,165,094
2,702,702

696,323
707,070
675,156
694,668
708,281
723,654
743,070
820,679
914,954
1,021,130
1,259,078
1,243,211
1,473,513
1,749,903
2,309,393
2,086,863
1,859,584
2,613,074
2,234,817
2,333,193
2,053,886
2,802,467

753,083
736,543
729,532
714,665
736,864
738,298
768,290
845,219
975,806
1,040,863
1,345,096
1,300,100
1,449,724
1,727,881
2,209,407
2,488,842
2,012,488
2,523,265
2,433,092
2,767,699
2,644,851
3,740,688

646,712
617,689
594,723
627,745
622,832
642,589
658,954
700,373
840,271
940,961
1,225,980
1,233,761
1,351,255
1,427,343
1,714,433
1,742,946
1,711,340
2,145,865
2,045,564
2,223,213
2,334,249
2,911,128

576,272
538,648
543,501
569,247
567,436
542,456
557,058
626,270
803,051
886,183
1,023,102
1,016,876
1,230,953
1,316,226
1,435,917
1,485,259
1,580,980
1,870,000
1,942,677
2,002,992
2,349,309
3,091,455

569,493
550,561
540,491
518,351
529,334
546,847
555,560
616,097
792,943
819,891
968,145
1,005,876
1,168,322
1,302,660
1,281,351
1,382,975
1,529,057
2,131,485
1,901,768
1,935,691
2,312,309
3,931,607

589,476
542,520
539,498
535,594
533,289
561,773
561,358
631,156
757,884
891,224
966,162
1,069,792
1,157,041
1,300,704
1,283,912
1,402,228
1,600,832
2,197,169
1,742,546
1,835,318
2,030,661
3,639,224

703,394
682,501
707,288
693,139
683,517
666,598
687,012
833,070
917,358
956,872
1,074,757
1,089,374
1,310,041
1,526,206
1,419,088
1,546,497
1,745,410
1,853,815
1,925,146
2,073,296
2,366,824
3,115,063

808,627
782,087
864,038
724,123
738,371
740,260
791,353
919,487
944,889
973,003
1,093,230
1,145,798
1,253,752
1,459,363
1,401,562
1,456,032
1,795,102
1,992,219
1,967,104
1,956,681
2,207,312

945,701
845,886
1,029,691
849,281
856,863
865,741
852,478
970,030
1,025,123
1,183,279
1,233,982
1,368,184
1,340,273
1,614,032
1,687,599
1,603,469
1,976,759
2,333,539
2,030,391
2,086,895
2,393,609

21,196
1,004,333
898,598
983,186
887,647
842,932
890,754
927,419
1,045,194
1,079,923
1,529,635
1,223,252
1,296,223
1,534,414
2,006,919
1,813,643
1,803,397
2,243,030
2,561,281
2,382,788
2,393,043
2,574,752

871,644
1,253,354
1,000,962
1,062,559
974,059
1,008,118
1,073,701
1,164,582
1,253,840
1,230,525
1,523,426
1,407,155
1,521,192
1,862,327
2,783,765
2,041,528
2,309,684
3,314,594
2,771,159
2,586,138
2,543,385
2,936,894

TOTAL

NOTE:

Totals
892,840
9,138,123
8,543,037
8,910,191
8,454,322
8,481,588
8,687,671
8,952,945
10,036,933
11,177,335
12,709,023
14,033,824
14,409,616
16,454,951
19,592,303
21,093,273
20,968,547
23,141,970
27,538,673
25,235,215
26,181,936
28,369,750
25,934,334

358,938,400

These statistics represent the number of firearm background checks initiated through the NICS. They do not represent the number of firearms
sold. Based on varying state laws and purchase scenarios, a one-to-one correlation cannot be made between a firearm background check and a
firearm sale.

APPX 212

